<html>
<title> - ALLEGATIONS OF POLITICAL INTERFERENCE WITH GOVERNMENT CLIMATE CHANGE SCIENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 ALLEGATIONS OF POLITICAL INTERFERENCE WITH GOVERNMENT CLIMATE CHANGE 
                                SCIENCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2007

                               __________

                           Serial No. 110-21

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


 ALLEGATIONS OF POLITICAL INTERFERENCE WITH GOVERNMENT CLIMATE CHANGE 
                                SCIENCE
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2007

                               __________

                           Serial No. 110-21

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                ------                                
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-415                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 19, 2007...................................     1
Statement of:
    Connaughton, James L., chairman, White House Council on 
      Environmental Quality......................................   369
    Cooney, Philip, former chief of staff of the White House 
      Council on Environmental Quality; James Hansen, Director, 
      NASA Goddard Institute for Space Studies; and George 
      Deutsch, former NASA Public Affairs Officer................   248
        Cooney, Philip...........................................   248
        Deutsch, George..........................................   318
        Hansen, James............................................   304
    Spencer, Roy, University of Alabama, Huntsville..............   416
Letters, statements, etc., submitted for the record by:
    Connaughton, James L., chairman, White House Council on 
      Environmental Quality, prepared statement of...............   372
    Cooney, Philip, former chief of staff of the White House 
      Council on Environmental Quality, prepared statement of....   251
    Deutsch, George, former NASA Public Affairs Officer, prepared 
      statement of...............................................   320
    Hansen, James, Director, NASA Goddard Institute for Space 
      Studies, prepared statement of.............................   306
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, exhibits and supplemental minority 
      memorandum.................................................   192
    Spencer, Roy, University of Alabama, Huntsville:
        Prepared statement of....................................   418
        Prepared statement of Roger Pielke, Jr...................   437
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     4


 ALLEGATIONS OF POLITICAL INTERFERENCE WITH GOVERNMENT CLIMATE CHANGE 
                                SCIENCE

                              ----------                              


                         MONDAY, MARCH 19, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Watson, Yarmuth, Norton, 
Van Hollen, Welch, Shays, Souder, Cannon, and Issa.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; Greg Dotson, chief environmental counsel; 
Alexandra Teitz, senior environmental counsel; Jeff Baran, 
counsel; Early Green, chief clerk; Teresa Coufal, deputy clerk; 
Matt Siegler, special assistant; Caren Auchman, press 
assistant; Zhongrui ``JR'' Deng, chief information officer; Rob 
Cobbs, staff assistant; David Marin, minority staff director; 
Larry Halloran, minority deputy staff director; Jennifer 
Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; A. 
Brooke Bennett, minority counsel; Kristina Husar, minority 
professional staff member; Larry Brady, minority senior 
investigator and policy advisor; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; Benjamin Chance, 
minority clerk; and Ali Ahmad, minority staff assistant and 
online communications coordinator.
    Chairman Waxman. Meeting of the committee will come to 
order. Today the committee continues its investigation into 
whether the nonpartisan work of climate change scientists was 
distorted by political interference from the Bush 
administration. Since our first hearing on January 30th, we 
have received over eight boxes of documents from the White 
House Council on Environmental Quality.
    The document production is not yet complete, but some of 
the information the committee has already obtained is 
disturbing. It suggests that there may have been a concerted 
effort, directed by the White House, to mislead the public 
about the dangers of global climate change.
    It is too early in this investigation to draw firm 
conclusions about the White House's conduct. But today's 
hearing will help us learn more about those efforts and provide 
guidance on whether further investigation is warranted.
    There is a saying in Washington that personnel is policy. 
The White House appointed an oil industry lobbyist, not a 
scientist or climate change expert, as chief of staff at the 
Council on Environmental Quality.
    We will hear from that former lobbyist, Phil Cooney, today. 
The documents we have received indicate he was able to exert 
tremendous influence on the direction of Federal climate change 
policy and science.
    One of the key responsibilities given to Mr. Cooney and his 
staff at CEQ was the review of government publications about 
climate change.
    Mr. Cooney and his staff made hundreds of separate edits to 
the government's strategic plan for climate change research. 
These changes injected doubt in place of certainty, minimized 
the dangers of climate change, and diminished the human role in 
causing the planet to warm.
    Other key government reports, including an EPA report on 
the environment and an annual report to Congress on the 
changing planet were subject to similar edits and distortions.
    In preparation for this hearing, the majority staff 
prepared a memorandum for members analyzing the changes made by 
Mr. Cooney and his staff to these government climate change 
reports. And I ask that this memorandum and the CEQ documents 
it cites be made part of the hearing record. I also ask that 
Mr. Cooney's deposition be made part of the hearing record as 
well.
    Another facet of the White House campaign involved 
controlling what Federal scientists could say to the public and 
the media about their work. NASA scientist James Hansen is one 
of the Nation's most esteemed experts on climate change. George 
Deutsch is a young and inexperienced former NASA public affairs 
officer who was tasked with managing the public statements of 
Dr. Hansen and other NASA scientists. Today we will hear from 
both of them about their experiences.
    There is even evidence in the documents we have obtained 
that the White House edited an op-ed written by former EPA 
Administrator Christine Todd Whitman to ensure that it followed 
the White House line about climate change.
    Our goal in this investigation is to understand what role 
the White House actually played. It would be a serious abuse if 
senior White House officials deliberately tried to defuse calls 
for action by ensuring that the public heard a distorted 
message about the risks of climate change.
    In addressing climate change, science should drive policy. 
The public and Congress need access to the best possible 
science to inform the policy debate about how to protect the 
planet from irreversible changes. If the administration turned 
its principle upside down with raw political pressure, it would 
put our country on a dangerous course. Today's hearing should 
bring us closer to understanding whether that is suspicion or 
fact.
    I look forward to the testimony of the witnesses and thank 
them for their cooperation. I want to recognize members for 
opening statements and to recognize Mr. Issa first.
    [Note.--The CEQ Documents may be viewed in the committee's 
office.]
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T7415.001

[GRAPHIC] [TIFF OMITTED] T7415.002

[GRAPHIC] [TIFF OMITTED] T7415.003

[GRAPHIC] [TIFF OMITTED] T7415.004

[GRAPHIC] [TIFF OMITTED] T7415.112

[GRAPHIC] [TIFF OMITTED] T7415.113

[GRAPHIC] [TIFF OMITTED] T7415.114

[GRAPHIC] [TIFF OMITTED] T7415.115

[GRAPHIC] [TIFF OMITTED] T7415.116

[GRAPHIC] [TIFF OMITTED] T7415.117

[GRAPHIC] [TIFF OMITTED] T7415.118

[GRAPHIC] [TIFF OMITTED] T7415.119

[GRAPHIC] [TIFF OMITTED] T7415.120

[GRAPHIC] [TIFF OMITTED] T7415.121

[GRAPHIC] [TIFF OMITTED] T7415.122

[GRAPHIC] [TIFF OMITTED] T7415.123

[GRAPHIC] [TIFF OMITTED] T7415.124

[GRAPHIC] [TIFF OMITTED] T7415.125

[GRAPHIC] [TIFF OMITTED] T7415.126

[GRAPHIC] [TIFF OMITTED] T7415.127

[GRAPHIC] [TIFF OMITTED] T7415.128

[GRAPHIC] [TIFF OMITTED] T7415.129

[GRAPHIC] [TIFF OMITTED] T7415.130

[GRAPHIC] [TIFF OMITTED] T7415.131

[GRAPHIC] [TIFF OMITTED] T7415.132

[GRAPHIC] [TIFF OMITTED] T7415.133

[GRAPHIC] [TIFF OMITTED] T7415.134

[GRAPHIC] [TIFF OMITTED] T7415.135

[GRAPHIC] [TIFF OMITTED] T7415.136

[GRAPHIC] [TIFF OMITTED] T7415.137

[GRAPHIC] [TIFF OMITTED] T7415.138

[GRAPHIC] [TIFF OMITTED] T7415.139

[GRAPHIC] [TIFF OMITTED] T7415.140

[GRAPHIC] [TIFF OMITTED] T7415.141

[GRAPHIC] [TIFF OMITTED] T7415.142

[GRAPHIC] [TIFF OMITTED] T7415.143

[GRAPHIC] [TIFF OMITTED] T7415.144

[GRAPHIC] [TIFF OMITTED] T7415.145

[GRAPHIC] [TIFF OMITTED] T7415.146

[GRAPHIC] [TIFF OMITTED] T7415.147

[GRAPHIC] [TIFF OMITTED] T7415.148

[GRAPHIC] [TIFF OMITTED] T7415.149

[GRAPHIC] [TIFF OMITTED] T7415.150

[GRAPHIC] [TIFF OMITTED] T7415.151

[GRAPHIC] [TIFF OMITTED] T7415.152

[GRAPHIC] [TIFF OMITTED] T7415.153

[GRAPHIC] [TIFF OMITTED] T7415.154

[GRAPHIC] [TIFF OMITTED] T7415.155

[GRAPHIC] [TIFF OMITTED] T7415.156

[GRAPHIC] [TIFF OMITTED] T7415.157

[GRAPHIC] [TIFF OMITTED] T7415.158

[GRAPHIC] [TIFF OMITTED] T7415.159

[GRAPHIC] [TIFF OMITTED] T7415.160

[GRAPHIC] [TIFF OMITTED] T7415.161

[GRAPHIC] [TIFF OMITTED] T7415.162

[GRAPHIC] [TIFF OMITTED] T7415.163

[GRAPHIC] [TIFF OMITTED] T7415.164

[GRAPHIC] [TIFF OMITTED] T7415.165

[GRAPHIC] [TIFF OMITTED] T7415.166

[GRAPHIC] [TIFF OMITTED] T7415.167

[GRAPHIC] [TIFF OMITTED] T7415.168

[GRAPHIC] [TIFF OMITTED] T7415.169

[GRAPHIC] [TIFF OMITTED] T7415.170

[GRAPHIC] [TIFF OMITTED] T7415.171

[GRAPHIC] [TIFF OMITTED] T7415.172

[GRAPHIC] [TIFF OMITTED] T7415.173

[GRAPHIC] [TIFF OMITTED] T7415.174

[GRAPHIC] [TIFF OMITTED] T7415.175

[GRAPHIC] [TIFF OMITTED] T7415.176

[GRAPHIC] [TIFF OMITTED] T7415.177

[GRAPHIC] [TIFF OMITTED] T7415.178

[GRAPHIC] [TIFF OMITTED] T7415.179

[GRAPHIC] [TIFF OMITTED] T7415.180

[GRAPHIC] [TIFF OMITTED] T7415.181

[GRAPHIC] [TIFF OMITTED] T7415.182

[GRAPHIC] [TIFF OMITTED] T7415.183

[GRAPHIC] [TIFF OMITTED] T7415.184

[GRAPHIC] [TIFF OMITTED] T7415.185

[GRAPHIC] [TIFF OMITTED] T7415.186

[GRAPHIC] [TIFF OMITTED] T7415.187

[GRAPHIC] [TIFF OMITTED] T7415.188

[GRAPHIC] [TIFF OMITTED] T7415.189

[GRAPHIC] [TIFF OMITTED] T7415.190

[GRAPHIC] [TIFF OMITTED] T7415.191

[GRAPHIC] [TIFF OMITTED] T7415.192

[GRAPHIC] [TIFF OMITTED] T7415.193

[GRAPHIC] [TIFF OMITTED] T7415.194

[GRAPHIC] [TIFF OMITTED] T7415.195

[GRAPHIC] [TIFF OMITTED] T7415.196

[GRAPHIC] [TIFF OMITTED] T7415.197

[GRAPHIC] [TIFF OMITTED] T7415.198

[GRAPHIC] [TIFF OMITTED] T7415.199

[GRAPHIC] [TIFF OMITTED] T7415.200

[GRAPHIC] [TIFF OMITTED] T7415.201

[GRAPHIC] [TIFF OMITTED] T7415.202

[GRAPHIC] [TIFF OMITTED] T7415.203

[GRAPHIC] [TIFF OMITTED] T7415.204

[GRAPHIC] [TIFF OMITTED] T7415.205

[GRAPHIC] [TIFF OMITTED] T7415.206

[GRAPHIC] [TIFF OMITTED] T7415.207

[GRAPHIC] [TIFF OMITTED] T7415.208

[GRAPHIC] [TIFF OMITTED] T7415.209

[GRAPHIC] [TIFF OMITTED] T7415.210

[GRAPHIC] [TIFF OMITTED] T7415.211

[GRAPHIC] [TIFF OMITTED] T7415.212

[GRAPHIC] [TIFF OMITTED] T7415.213

[GRAPHIC] [TIFF OMITTED] T7415.214

[GRAPHIC] [TIFF OMITTED] T7415.215

[GRAPHIC] [TIFF OMITTED] T7415.216

[GRAPHIC] [TIFF OMITTED] T7415.217

[GRAPHIC] [TIFF OMITTED] T7415.218

[GRAPHIC] [TIFF OMITTED] T7415.219

[GRAPHIC] [TIFF OMITTED] T7415.220

[GRAPHIC] [TIFF OMITTED] T7415.221

[GRAPHIC] [TIFF OMITTED] T7415.222

[GRAPHIC] [TIFF OMITTED] T7415.223

[GRAPHIC] [TIFF OMITTED] T7415.224

[GRAPHIC] [TIFF OMITTED] T7415.225

[GRAPHIC] [TIFF OMITTED] T7415.226

[GRAPHIC] [TIFF OMITTED] T7415.227

[GRAPHIC] [TIFF OMITTED] T7415.228

[GRAPHIC] [TIFF OMITTED] T7415.229

[GRAPHIC] [TIFF OMITTED] T7415.230

[GRAPHIC] [TIFF OMITTED] T7415.231

[GRAPHIC] [TIFF OMITTED] T7415.232

[GRAPHIC] [TIFF OMITTED] T7415.233

[GRAPHIC] [TIFF OMITTED] T7415.234

[GRAPHIC] [TIFF OMITTED] T7415.235

[GRAPHIC] [TIFF OMITTED] T7415.236

[GRAPHIC] [TIFF OMITTED] T7415.237

[GRAPHIC] [TIFF OMITTED] T7415.238

[GRAPHIC] [TIFF OMITTED] T7415.239

[GRAPHIC] [TIFF OMITTED] T7415.240

[GRAPHIC] [TIFF OMITTED] T7415.241

[GRAPHIC] [TIFF OMITTED] T7415.242

[GRAPHIC] [TIFF OMITTED] T7415.243

[GRAPHIC] [TIFF OMITTED] T7415.244

[GRAPHIC] [TIFF OMITTED] T7415.245

[GRAPHIC] [TIFF OMITTED] T7415.246

[GRAPHIC] [TIFF OMITTED] T7415.247

[GRAPHIC] [TIFF OMITTED] T7415.248

[GRAPHIC] [TIFF OMITTED] T7415.249

[GRAPHIC] [TIFF OMITTED] T7415.250

[GRAPHIC] [TIFF OMITTED] T7415.251

[GRAPHIC] [TIFF OMITTED] T7415.252

[GRAPHIC] [TIFF OMITTED] T7415.253

[GRAPHIC] [TIFF OMITTED] T7415.254

[GRAPHIC] [TIFF OMITTED] T7415.255

[GRAPHIC] [TIFF OMITTED] T7415.256

[GRAPHIC] [TIFF OMITTED] T7415.257

[GRAPHIC] [TIFF OMITTED] T7415.258

[GRAPHIC] [TIFF OMITTED] T7415.259

[GRAPHIC] [TIFF OMITTED] T7415.260

[GRAPHIC] [TIFF OMITTED] T7415.261

[GRAPHIC] [TIFF OMITTED] T7415.262

[GRAPHIC] [TIFF OMITTED] T7415.263

[GRAPHIC] [TIFF OMITTED] T7415.264

[GRAPHIC] [TIFF OMITTED] T7415.265

[GRAPHIC] [TIFF OMITTED] T7415.266

[GRAPHIC] [TIFF OMITTED] T7415.267

[GRAPHIC] [TIFF OMITTED] T7415.268

[GRAPHIC] [TIFF OMITTED] T7415.269

[GRAPHIC] [TIFF OMITTED] T7415.270

[GRAPHIC] [TIFF OMITTED] T7415.271

[GRAPHIC] [TIFF OMITTED] T7415.272

[GRAPHIC] [TIFF OMITTED] T7415.273

[GRAPHIC] [TIFF OMITTED] T7415.274

[GRAPHIC] [TIFF OMITTED] T7415.275

[GRAPHIC] [TIFF OMITTED] T7415.276

[GRAPHIC] [TIFF OMITTED] T7415.277

[GRAPHIC] [TIFF OMITTED] T7415.278

[GRAPHIC] [TIFF OMITTED] T7415.279

[GRAPHIC] [TIFF OMITTED] T7415.280

[GRAPHIC] [TIFF OMITTED] T7415.281

[GRAPHIC] [TIFF OMITTED] T7415.282

[GRAPHIC] [TIFF OMITTED] T7415.283

[GRAPHIC] [TIFF OMITTED] T7415.284

[GRAPHIC] [TIFF OMITTED] T7415.285

[GRAPHIC] [TIFF OMITTED] T7415.286

[GRAPHIC] [TIFF OMITTED] T7415.287

[GRAPHIC] [TIFF OMITTED] T7415.288

[GRAPHIC] [TIFF OMITTED] T7415.289

[GRAPHIC] [TIFF OMITTED] T7415.290

[GRAPHIC] [TIFF OMITTED] T7415.291

[GRAPHIC] [TIFF OMITTED] T7415.292

[GRAPHIC] [TIFF OMITTED] T7415.293

[GRAPHIC] [TIFF OMITTED] T7415.294

    Mr. Issa. Thank you, Mr. Chairman. And I also would ask 
that the exhibits that go with Mr. Cooney's deposition be 
entered into the record.
    Chairman Waxman. Without objection, the documents that I 
requested and the documents you requested will be part of the 
record.
    Mr. Issa. Thank you. And I also would like to ask that the 
Supplemental Minority Memorandum be entered into the record.
    Chairman Waxman. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.295
    
    [GRAPHIC] [TIFF OMITTED] T7415.296
    
    [GRAPHIC] [TIFF OMITTED] T7415.297
    
    [GRAPHIC] [TIFF OMITTED] T7415.298
    
    [GRAPHIC] [TIFF OMITTED] T7415.299
    
    [GRAPHIC] [TIFF OMITTED] T7415.300
    
    [GRAPHIC] [TIFF OMITTED] T7415.301
    
    [GRAPHIC] [TIFF OMITTED] T7415.302
    
    [GRAPHIC] [TIFF OMITTED] T7415.303
    
    [GRAPHIC] [TIFF OMITTED] T7415.304
    
    [GRAPHIC] [TIFF OMITTED] T7415.305
    
    [GRAPHIC] [TIFF OMITTED] T7415.306
    
    [GRAPHIC] [TIFF OMITTED] T7415.307
    
    [GRAPHIC] [TIFF OMITTED] T7415.308
    
    [GRAPHIC] [TIFF OMITTED] T7415.309
    
    [GRAPHIC] [TIFF OMITTED] T7415.310
    
    [GRAPHIC] [TIFF OMITTED] T7415.311
    
    [GRAPHIC] [TIFF OMITTED] T7415.312
    
    [GRAPHIC] [TIFF OMITTED] T7415.313
    
    [GRAPHIC] [TIFF OMITTED] T7415.314
    
    [GRAPHIC] [TIFF OMITTED] T7415.315
    
    [GRAPHIC] [TIFF OMITTED] T7415.316
    
    [GRAPHIC] [TIFF OMITTED] T7415.317
    
    [GRAPHIC] [TIFF OMITTED] T7415.318
    
    [GRAPHIC] [TIFF OMITTED] T7415.319
    
    [GRAPHIC] [TIFF OMITTED] T7415.320
    
    [GRAPHIC] [TIFF OMITTED] T7415.321
    
    [GRAPHIC] [TIFF OMITTED] T7415.322
    
    [GRAPHIC] [TIFF OMITTED] T7415.323
    
    [GRAPHIC] [TIFF OMITTED] T7415.324
    
    [GRAPHIC] [TIFF OMITTED] T7415.325
    
    [GRAPHIC] [TIFF OMITTED] T7415.326
    
    [GRAPHIC] [TIFF OMITTED] T7415.327
    
    [GRAPHIC] [TIFF OMITTED] T7415.328
    
    [GRAPHIC] [TIFF OMITTED] T7415.329
    
    [GRAPHIC] [TIFF OMITTED] T7415.330
    
    [GRAPHIC] [TIFF OMITTED] T7415.331
    
    [GRAPHIC] [TIFF OMITTED] T7415.332
    
    [GRAPHIC] [TIFF OMITTED] T7415.333
    
    [GRAPHIC] [TIFF OMITTED] T7415.334
    
    [GRAPHIC] [TIFF OMITTED] T7415.335
    
    [GRAPHIC] [TIFF OMITTED] T7415.336
    
    [GRAPHIC] [TIFF OMITTED] T7415.337
    
    [GRAPHIC] [TIFF OMITTED] T7415.338
    
    [GRAPHIC] [TIFF OMITTED] T7415.339
    
    [GRAPHIC] [TIFF OMITTED] T7415.340
    
    [GRAPHIC] [TIFF OMITTED] T7415.341
    
    [GRAPHIC] [TIFF OMITTED] T7415.342
    
    [GRAPHIC] [TIFF OMITTED] T7415.343
    
    [GRAPHIC] [TIFF OMITTED] T7415.344
    
    [GRAPHIC] [TIFF OMITTED] T7415.345
    
    [GRAPHIC] [TIFF OMITTED] T7415.346
    
    [GRAPHIC] [TIFF OMITTED] T7415.347
    
    Mr. Issa. Thank you, Mr. Chairman. I am glad to have the 
opportunity to continue today with the committee's inquiry into 
political interference with science. As you know, this 
investigation began under Chairman Davis. And it is good to see 
that some projects have carried over to the new Congress.
    I want to take a moment to point out the title of today's 
hearing is political interference with science: global warming. 
I am glad the chairman has made clear from the onset that this 
investigation is related to process and not the substance of 
global change science.
    Today we are not attempting to establish which scientific 
facts are correct or which policies are better. I commend you 
for this approach. As you know, this committee has done its job 
to conduct oversight in an independent and bipartisan way in 
the past, and I hope we will continue to in the future.
    But even though this hearing isn't about substance, let me 
be clear from the beginning. Climate change is an important 
issue and deserves our level-headed attention.
    I believe that climate change is happening. I believe 
global mean temperatures have increased over the past century, 
and I believe that carbon dioxide is a contributing factor.
    It wasn't very long ago that scientists were unable to make 
this statement with certainty because we simply didn't have a 
sufficient body of knowledge, and it is important to 
acknowledge that American ingenuity, know-how, and resources 
make up the foundation of the ever-expanding body of knowledge 
of climate change.
    Climate change is too important an issue not to continue 
backing the research in the billions of dollars that we have 
done so on a bipartisan basis in the past.
    And it is essential that policymakers have the absolute 
best available science to support policy decisions that will 
impact future generations of Americans and citizens around the 
world. But, again, we are looking at this as a process issue.
    So let's turn to the allegation that the Bush 
administration has silenced scientists and rewritten the 
science.
    Dr. Roger Pikey, Jr., testified at our last hearing that 
the Bush administration probably hasn't done itself any favors 
with the term ``hypercontrolling strategies'' for the 
management of information.
    I would probably agree.
    Yet it remains the prerogative of the Bush administration--
as with every administration before it and likely after it--to 
establish policies to ensure that whatever is coming out of 
Federal agencies is consistent and coordinated.
    Submitting to those rules is in fact--is a fact of life 
every Federal employee enjoys or chafes at.
    I am concerned that many scientists are increasingly 
engaging in political advocacy and that some issues of science 
have become increasingly partisan as some politicians sense 
that there is a political gain to be found on issues like stem 
cell, teaching evolution, and climate change. I hope we will 
keep our observations in mind during these hearings and the 
investigation into allegations of silencing and editing by the 
Bush administration and Mr. Cooney.
    I look forward to this hearing and to our witnesses and 
especially I look forward to hearing from NASA scientist, Dr. 
James Hansen.
    Doctor Hansen, we recognize that you are the preeminent 
climate change scientist and one of the leading researchers on 
these issues. We value your contribution to science and the 
understanding of global climate change. I want to hear about 
your experience--I want to hear about your experiences with the 
politicalization of science.
    However, I also plan to discuss with you your efforts to 
politicalize science.
    Mr. Chairman I recognize that I have gone over my intended 
5 minutes so I will put the rest of my opening statement in for 
the record because I see we have a lot of Members here. I will 
yield back.
    Chairman Waxman. Thank you. Without objection, your 
statement and all the opening statements from members of the 
committee will be permitted to go into the record in their 
entirety.
    I would recognize Members if they feel that they want to 
make an oral presentation. Without objection, we will limit it 
to 3 minutes so we can get on to our panels.
    Any Member here--Mr. Yarmuth, do you have an opening 
statement?
    Mr. Yarmuth. Thank you, Mr. Chairman. Just a brief one. I 
appreciate that we are renewing these hearings, because in the 
first hearing we had what we saw was evidence of a clear and 
disturbing trend in this administration, which is that in many 
instances commitment to ideology and philosophy and maybe even 
corporate interests always seems to trump truth.
    And that is something that should disturb all of us, and I 
hope that this hearing brings us closer to understanding that 
we need, in all of our government operations, to have 
transparency and truth, and that those who would put these 
other interests ahead of the search for truth are doing this 
country a great disservice. So I thank you once again, Mr. 
Chairman, and I look forward to hearing the witnesses.
    Chairman Waxman. Thank you very much.
    Mr. Cannon, do you wish to make an opening statement?
    Mr. Cannon. Thank you, Mr. Chairman, I will submit my 
statement for the record.
    Chairman Waxman. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman for convening the 
hearing. The questions before the committee are clear. Are the 
American people entitled to the benefits of sound scientific 
research to solve the challenges before us? And is it 
acceptable for any administration--in this case the 
administration of George Bush--to alter scientific conclusions 
by allowing political appointees to edit and alter the 
independent conclusions of independent scientists?
    We heard, Mr. Chairman, to our dismay 2 months ago, 
evidence that the Bush administration, through political 
appointees, have systematically and relentlessly interfered 
with independent scientific conclusions, altering them to 
conform with the political views of their supporters.
    Dr. Griffo the Union of Concerned Scientists testified that 
at least 150 Federal climate scientists personally experienced 
at least one incident of political interference during the past 
5 years and received reports of at least 435 specific incidents 
overall. That interference is unacceptable. That interference 
must end. While political interference in science may serve the 
interest of the American Petroleum Institute and others who 
peddle the notion that climate change is a political argument, 
not a scientific fact, it underestimates the American people. 
Politically motivated suppression of science is not only 
irresponsible, but highlights a careless and reckless disregard 
for the public that we serve.
    The country knows that the climate change is real, urgent, 
and requires immediate action. Science must be our friend to 
help us address global warming directly. Moreover, in facing 
directly the issue of climate change, we can have a pro-growth, 
pro-high-tech, pro-environment economy that will benefit all 
the people of this country.
    The Bush administration attack on sound science is a 
loser's game. The job of this Congress and this committee is to 
restore the full confidence to our scientific community that we 
need and value their work. They are our partners in facing the 
problems that confront us. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you.
    Mr. Welch. Mr. Souder, do you wish to make an opening 
comment? Mr. Souder. OK, thanks. Ms. Watson.
    Ms. Watson. Thank you, very much, Mr. Chairman, for today's 
hearing. And while I am happy we are holding our second hearing 
of the year on this issue, I am appalled at the fact that the 
administration interfered with studies in key departments 
within our bureaucracy, one of which is NASA, who depends on 
accurate and concise scientific studies to protect the lives of 
our astronauts.
    The administration announced in 2002 that reducing green 
house gas emissions and increasing spending on climate research 
to reduce emissions 18 percent by 2012 was a top priority. But 
their actions have not matched that pledge.
    Funds have been redirected for these purposes to spend on 
nuclear power and other nonrenewable programs that do not 
reduce emissions. In addition, this allegation of political 
interference with the work of government scientists is an 
additional example of how this administration is not taking 
this threat of global warming seriously.
    Global warming is occurring at a rapid pace today, and the 
consensus of the world's scientific community is that it will 
accelerate during the 21st century. Global warming and our 
related energy policies also raise national security concerns.
    One such concern is the prospect of international 
destabilization caused by the consequences of global warming, 
such as the loss of land area or the loss of water resources. 
Mr. Chairman, we must start again to create adequate climate 
change research and development that can help our world in the 
future.
    Political interference on this critical issue is 
unacceptable. And we are here today to investigate and resolve 
these allegations. Again, thank you for this hearing.
    Chairman Waxman. Thank you very much Ms. Watson.
    We are pleased to have three witnesses for our first panel, 
and I want to welcome them to our hearing today. Philip Cooney 
was chief of staff of the White House Council on Environmental 
Quality from 2001 until 2005. Before that he worked at the 
American Petroleum Institute for 15 years. He is now a 
corporate issue manager at ExxonMobil.
    Dr. James Hansen is the director of NASA's Goddard 
Institute for Space Studies. He has held this position since 
1981. Dr. Hansen is one of the Nation's most esteemed climate 
scientists.
    George Deutsch was a NASA public affairs officer until 
February 2006.
    We thank you for your presence. It is the practice of this 
committee to ask all witnesses that appear before us to take an 
oath. So if you would please rise and hold up your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    Mr. Cooney, why don't we start with you. Your opening 
statement will be in the record in its entirety and we would 
like to ask you, if you would, to summarize it or present it to 
us in around 5 minutes.

STATEMENTS OF PHILIP COONEY, FORMER CHIEF OF STAFF OF THE WHITE 
HOUSE COUNCIL ON ENVIRONMENTAL QUALITY; JAMES HANSEN, DIRECTOR, 
 NASA GODDARD INSTITUTE FOR SPACE STUDIES; AND GEORGE DEUTSCH, 
               FORMER NASA PUBLIC AFFAIRS OFFICER

                 STATEMENT OF PHILIP A. COONEY

    Mr. Cooney. Thank you, Mr. Chairman and members of the 
committee. Thank you for inviting me to appear before you 
today. I recognize the important work of this committee to 
ensure that our government is operating efficiently and 
properly in performing its valuable work on behalf of the 
American people.
    I want to assure you of my full cooperation.
    Today, more than anything else, I hope to convey to the 
committee that I held myself to a high standard of integrity in 
the performance of my duties in the administration.
    I would like to highlight several points.
    Point No. 1, my reviews of Federal budgetary and research 
planning documents of climate change were guided by the 
President's stated strategy on research priorities as set forth 
in his June 11, 2001 speech and chapter 3 of the Policy Book 
that accompanied it. I joined the White House staff 2 weeks 
later.
    The President's policy itself was guided by a National 
Academy of Sciences report that his Cabinet-level Committee on 
Climate Change had specifically requested, entitled ``Climate 
Change Science: An Analysis of Some Key Questions.''
    That report concluded--and I would like to emphasize this 
point, ``making progress in reducing the large uncertainties in 
projections of future climate will require addressing a number 
of fundamental scientific questions relating to the buildup of 
greenhouse gases in the atmosphere and the behavior of the 
climate system.''
    The National Academy of Sciences report itemized those 
uncertainties and questions which later guided the 
administration's prioritization of federally sponsored 
research.
    Let me be clear, as this committee addresses my reviews of 
specific climate change policy documents, that a number of my 
specific comments were verbatim quotations from the National 
Academy of Sciences report.
    My second point is that the documents that I reviewed as 
part of a well-established interagency review process were not 
a platform for the presentation of original scientific 
research. Mr. Piltz, who clarified that he is not a scientist, 
described his role before this committee as that of, ``an 
editor of summaries received from agencies as they related to 
budget and planning reports.''
    The White House Office of Management and Budget then 
subjected Mr. Piltz' drafts to formal interagency review and 
comment by many others, including multiple Federal agencies 
themselves and the relevant White House offices, including 
mine.
    OMB's review was then subjected to a final review and 
approval by Dr. James Mahoney, who served as the Assistant 
Secretary of Commerce for Oceans and Atmosphere, and was 
director of the Climate Change Science Program. Dr. Mahoney 
testified before Congress about this process in July 2005 and 
confirmed that he had the final word on the final content on 
all of these documents.
    Dr. Mahoney's written responses to Senate questions 
describe that process and stated further that, ``the edits by 
CEQ did not misstate any scientific fact. Moreover, many 
comments, including mine, were not incorporated in final 
reports.''
    The Council's role in these reviews and that of other White 
House offices was routine and well established.
    The annual budget report, Our Changing Planet, was reviewed 
by my predecessors in the Clinton administration. That is 
because these were Federal research and policy and budget 
reports of the executive branch and not scientific research per 
se.
    In fact, the transmittal letters to Congress for both the 
strategic plan and the annual budget reports were signed by the 
Secretaries of Energy and Commerce and the director of the 
White House Office of Science and Technology Policy, reflecting 
their inherent policy nature.
    To summarize, I had the authority and responsibility to 
make recommendations on the documents in question under an 
established interagency review process. I did so, using my best 
judgment, based on the administration's stated research 
priorities, as informed by the National Academy of Sciences. Of 
course I understand that my judgment and the administration's 
stated goals are properly open to review.
    I want to make equally clear, however, that I participated 
in the established review processes in order to align executive 
branch reports with administration policies.
    My third and final point is that within a month after my 
departure in June 2005, all three branches of our government 
considered climate change science in the course of their 
decisionmaking and acknowledged remaining uncertainties in our 
understanding.
    There has been on an ongoing basis, active consideration 
both of the scientific certainties and uncertainties in 
decisionmaking on climate change at the highest levels of the 
Federal Government. For example on July 15, 2005, the U.S. 
Court of Appeals for the District of Columbia Circuit upheld 
EPA's decision not to regulate carbon dioxide under the Clean 
Air Act, relying in part on the same uncertainties noted in the 
National Academy of Sciences report that the administration had 
requested in June 2001.
    My point is that the comments and recommendations that I 
offered in reviewing executive branch policy documents on 
climate change were consistent with the views and exploration 
of scientific knowledge that many others in all three branches 
of our government were undertaking.
    My most important point is that I offered my comments in 
good faith reliance on what I understood to be authoritative 
and current views of the state of scientific knowledge, and for 
no other purpose.
    Thank you again for the opportunity to appear before the 
committee. I look forward to your questions and helping the 
committee complete its important work.
    Chairman Waxman. Thank you, Mr. Cooney.
    Mr. Cooney. Thank you.
    [The prepared statement of Mr. Cooney follows:]
    [GRAPHIC] [TIFF OMITTED] T7415.005
    
    [GRAPHIC] [TIFF OMITTED] T7415.006
    
    [GRAPHIC] [TIFF OMITTED] T7415.007
    
    [GRAPHIC] [TIFF OMITTED] T7415.008
    
    [GRAPHIC] [TIFF OMITTED] T7415.009
    
    [GRAPHIC] [TIFF OMITTED] T7415.010
    
    [GRAPHIC] [TIFF OMITTED] T7415.011
    
    [GRAPHIC] [TIFF OMITTED] T7415.012
    
    [GRAPHIC] [TIFF OMITTED] T7415.013
    
    [GRAPHIC] [TIFF OMITTED] T7415.014
    
    [GRAPHIC] [TIFF OMITTED] T7415.015
    
    [GRAPHIC] [TIFF OMITTED] T7415.016
    
    [GRAPHIC] [TIFF OMITTED] T7415.017
    
    [GRAPHIC] [TIFF OMITTED] T7415.018
    
    [GRAPHIC] [TIFF OMITTED] T7415.019
    
    [GRAPHIC] [TIFF OMITTED] T7415.020
    
    [GRAPHIC] [TIFF OMITTED] T7415.021
    
    [GRAPHIC] [TIFF OMITTED] T7415.022
    
    [GRAPHIC] [TIFF OMITTED] T7415.023
    
    [GRAPHIC] [TIFF OMITTED] T7415.024
    
    [GRAPHIC] [TIFF OMITTED] T7415.025
    
    [GRAPHIC] [TIFF OMITTED] T7415.026
    
    [GRAPHIC] [TIFF OMITTED] T7415.027
    
    [GRAPHIC] [TIFF OMITTED] T7415.028
    
    [GRAPHIC] [TIFF OMITTED] T7415.029
    
    [GRAPHIC] [TIFF OMITTED] T7415.030
    
    [GRAPHIC] [TIFF OMITTED] T7415.031
    
    [GRAPHIC] [TIFF OMITTED] T7415.032
    
    [GRAPHIC] [TIFF OMITTED] T7415.033
    
    [GRAPHIC] [TIFF OMITTED] T7415.034
    
    [GRAPHIC] [TIFF OMITTED] T7415.035
    
    [GRAPHIC] [TIFF OMITTED] T7415.036
    
    [GRAPHIC] [TIFF OMITTED] T7415.037
    
    [GRAPHIC] [TIFF OMITTED] T7415.038
    
    [GRAPHIC] [TIFF OMITTED] T7415.039
    
    [GRAPHIC] [TIFF OMITTED] T7415.040
    
    [GRAPHIC] [TIFF OMITTED] T7415.041
    
    [GRAPHIC] [TIFF OMITTED] T7415.042
    
    [GRAPHIC] [TIFF OMITTED] T7415.043
    
    [GRAPHIC] [TIFF OMITTED] T7415.044
    
    [GRAPHIC] [TIFF OMITTED] T7415.045
    
    [GRAPHIC] [TIFF OMITTED] T7415.046
    
    [GRAPHIC] [TIFF OMITTED] T7415.047
    
    [GRAPHIC] [TIFF OMITTED] T7415.048
    
    [GRAPHIC] [TIFF OMITTED] T7415.049
    
    [GRAPHIC] [TIFF OMITTED] T7415.050
    
    [GRAPHIC] [TIFF OMITTED] T7415.051
    
    [GRAPHIC] [TIFF OMITTED] T7415.052
    
    [GRAPHIC] [TIFF OMITTED] T7415.053
    
    [GRAPHIC] [TIFF OMITTED] T7415.054
    
    [GRAPHIC] [TIFF OMITTED] T7415.055
    
    [GRAPHIC] [TIFF OMITTED] T7415.056
    
    [GRAPHIC] [TIFF OMITTED] T7415.057
    
    Chairman Waxman. Dr. Hansen.

                  STATEMENT OF JAMES E. HANSEN

    Mr. Hansen. Thank you. Thank you, Chairman Waxman, for 
inviting me to testify. I testify today as a private citizen. I 
have been at a NASA laboratory in New York since I arrived in 
1967 as a 25-year-old post doc. And I hope that my observations 
of changes in the past 40 years are useful to your Committee on 
Oversight and Government Reform.
    In my written statement, I describe a growth of political 
interference with climate change science. The problem has been 
worst in the current administration. But it will not be solved 
by an election. There needs to be reform.
    We cannot count on a new administration to give up powers 
that have accreted. The growth in political interference 
coincides with a growth in power of the executive branch. It 
seems to me that this growth of power violates principles upon 
which our democracy is based, especially separation of powers 
and checks and balances.
    I have no legal expertise but I would like to raise three 
questions: No. 1, when I testify to you as a government 
scientist, why does my testimony have to be reviewed, edited, 
and changed by a bureaucrat in the White House before I can 
deliver it? Where does this requirement come from? Is not the 
public, who have paid for the research, are they not being 
cheated by this political control of scientific testimony?
    Second question: Why are public affairs offices staffed by 
political appointees? Their job, nominally, should be to help 
scientists present results in a language that the public can 
understand.
    They should not be forcing scientists to parrot propaganda. 
Indeed during the current administration, NASA scientific press 
releases have been sent to the White House for editing, as I 
discuss in my written testimony. If public affairs officers are 
left under the control of political appointees, it seems to me 
that inherently they become officers of propaganda.
    Point No. 3, the primary way that the executive branch has 
interfered with climate science is via control of the purse 
strings. This is very, very effective.
    Last February, a year ago, the executive branch slashed the 
Earth science research and analysis budget. That is the budget 
that funds NASA Earth science labs such as mine. They slashed 
it retroactively to the beginning of the fiscal year by about 
20 percent. That is a going-out-of-business level of funding.
    The budget is an extremely powerful way to interfere with 
science and bring scientists into line with political 
positions.
    Some people have joked that at about the same time, the 
White House brought in a science fiction writer for advice on 
global warming. But this is not a joking matter.
    We need more scientific data, not less.
    And I am sorry that I don't have time to talk about the 
science, but if you give me 1 to 2 minutes, I would like to 
just summarize briefly.
    The climate has great inertia because of the massive ocean 
and ice sheets. And it is hard to notice climate change because 
chaotic weather fluctuations are so large. But climate is 
beginning to change. And it has become clear that there is a 
dominance of positive feedbacks. For example as ice melts, as 
forests move pole-ward, these increase the global warming 
further. And the upshot of the inertia plus the positive 
feedbacks is that if we push the climate system hard enough, it 
can obtain a momentum. It can pass tipping points, such that 
climate change continues out of our control. That is a 
condition we do not want to leave for our children.
    There are many actions we could take to avoid that, actions 
that would have other benefits, as I discuss in my written 
testimony. And these are, of course, my opinions as a private 
citizen. Thank you.
    Chairman Waxman. Thank you very much, Dr. Hansen.
    [The prepared statement of Mr. Hansen follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.058
    
    [GRAPHIC] [TIFF OMITTED] T7415.059
    
    [GRAPHIC] [TIFF OMITTED] T7415.060
    
    [GRAPHIC] [TIFF OMITTED] T7415.061
    
    [GRAPHIC] [TIFF OMITTED] T7415.062
    
    [GRAPHIC] [TIFF OMITTED] T7415.063
    
    [GRAPHIC] [TIFF OMITTED] T7415.064
    
    [GRAPHIC] [TIFF OMITTED] T7415.065
    
    [GRAPHIC] [TIFF OMITTED] T7415.066
    
    [GRAPHIC] [TIFF OMITTED] T7415.067
    
    [GRAPHIC] [TIFF OMITTED] T7415.068
    
    [GRAPHIC] [TIFF OMITTED] T7415.069
    
    Chairman Waxman. Mr. Deutsch.

               STATEMENT OF GEORGE C. DEUTSCH III

    Mr. Deutsch. Thank you, Mr. Chairman. My name is Deutsch. I 
am 25 years old. I live in Nederland, TX. Until February 2006 I 
was a public affairs officer at NASA.
    I would like to begin by thanking the committee, and 
specifically Chairman Waxman for allowing me the opportunity to 
testify. I believe most people would agree that NASA is a place 
of wonder and excitement. As a young man from a small southeast 
Texas town near the Johnson Space Center, I saw the opportunity 
to join the NASA family as a dream come true.
    My path to NASA began around June 2004 when I left Texas 
A&M University, one course shy of graduating, to take a 
position as an intern in President Bush's reelection campaign 
and, later, the Inaugural Committee. After the Inauguration I 
applied for a Presidential appointee position and was offered 
jobs by NASA and the Department of Labor.
    To the best of my recollection, I disclosed on various 
occasions the fact that I had not completed my degree.
    I accepted an entry-level public affairs position at NASA 
at the age of 23 and after several months I became a public 
affairs officer in NASA's Science Mission Directorate [SMD]. 
There I worked in a team with two career civil servants. The 
most senior civil servant in the group functioned as our team 
leader. Collectively, it was our duty to facilitate 
communications between NASA and the public.
    Not long after joining SMD, I became aware of Dr. James 
Hansen, a distinguished and internationally renowned climate 
scientist. I learned that Dr. Hansen disagreed with what I 
understood to be NASA's standard practices for responding to 
media requests. Among those practices were the public affairs 
officer should listen to interviews as they were being 
conducted, that superiors can do interviews in someone's stead, 
and that NASA employees should report interview requests to the 
Public Affairs Office.
    It was my understanding that these practices all existed 
prior to my joining NASA and that I and other NASA employees 
were expected to follow them. The purpose of these guidelines 
was to encourage agency coordination and accurate reporting. 
Sharing interview requests with NASA headquarters, for example, 
gives headquarters officials a better grasp of what is going on 
at NASA centers. These practices weren't unique to one 
individual or group. They were agencywide.
    Dr. Hansen can certainly address these issues himself 
today, but as I understood it at that time, he found these 
practices to be cumbersome. This created a level of frustration 
among my higher-ups at NASA who wanted to know about interviews 
before they happened.
    I have addressed these issues in more detail in my written 
testimony, but here is one example. On or about December 14, 
2005, the Los Angeles Times and ABC News contacted NASA to 
inquire if the agency was going to release information 
addressing whether 2005 was the warmest year on record. In 
response, headquarters granted the Los Angeles Times an 
interview with Dr. Waleed Abdalati, a veteran NASA climate 
scientist. In that interview, Dr. Abdalati stated they could 
not confirm that 2005 was the warmest year on record. Yet on 
December 15th, Dr. Hansen appeared on ABC's Good Morning 
America program and submitted the letter to the Journal of 
Science, concluding that 2004 tied 1998 as the warmest year on 
record.
    Senior NASA officials conveyed to me that they were unaware 
of the release of this information being coordinated with 
headquarters or peer-reviewed. That day NASA headquarters 
received a deluge of media inquiries on the matter, inquiries 
headquarters was ill-equipped to handle because no one had been 
briefed on Dr. Hansen's findings. The same senior NASA 
officials were, to say the least, upset by this procedural 
breach.
    Press Secretary Dean Acosta asked me to document these 
events in a memo that was cosigned by a career civil servant 
Dwayne Brown. Subsequently, several media reports accused 
national political appointees and others of censoring Dr. 
Hansen. I can only speak for myself. I never censored Dr. 
Hansen and I don't think anyone else at NASA did either.
    In February 2006, I learned that the New York Times was 
looking into whether the resume I submitted to NASA incorrectly 
stated that I had obtained a degree from Texas A&M University 
in 2003. I had created that resume sometime prior to 2003. At 
the time the resume was created, it would have been clear that 
I was referring to an anticipated degree. My mistake was that 
when it later came time to apply for jobs, I failed to update 
the resume to convey that I was one course shy of graduating. 
As I said, to the best of my recollection, I told the hiring 
officials I spoke to that I did not have my degree. But I 
recognize and take full responsibility for the fact that I 
should have updated the resume to better reflect this point. 
This was an honest mistake.
    Rather than see the agency continue to be tarnished in the 
media, I resigned in February 2006. Later that year I finished 
my only remaining class and received my Bachelor of Arts degree 
from Texas A&M University.
    Since working at NASA, I have tried my hardest to continue 
to devote my life to public service. I have done work for a 
nonpartisan/nonprofit United Way agency in Texas dealing with 
mental health issues, and I hope to launch a call-in mental 
health radio program in a local Texas radio station.
    During my time at NASA, administrator Mike Griffin released 
a statement on scientific openness in which he said, ``It is 
not the job of public affairs officers to alter, filter, or 
adjust engineering or of scientific material produced by NASA's 
technical staff. To ensure the timely release of information 
there must be cooperation and coordination between our 
scientific and engineering community and our public affairs 
officers.''
    These two sentences capture my feelings exactly. Thank you, 
Mr. Chairman. I would be happy to answer your questions.
    [The prepared statement of Mr. Deutsch follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.070
    
    [GRAPHIC] [TIFF OMITTED] T7415.071
    
    [GRAPHIC] [TIFF OMITTED] T7415.072
    
    [GRAPHIC] [TIFF OMITTED] T7415.073
    
    Chairman Waxman. Thank you, Mr. Deutsch. I will now proceed 
to questioning from the members of the panel and two 10-minute 
rounds controlled by the Chair and the ranking member. I will 
start off first.
    Mr. Cooney, thank you very much for being here. I 
appreciate you having taken the time last week to sit with the 
committee staff in a deposition. And that deposition helped 
clear up a lot of points which will allow us to focus on the 
major issues today.
    It is clear from documents that the committee has received 
that you played a major role in reviewing and editing 
scientific reports about climate change. And I want to begin my 
questioning by asking about your qualifications for editing 
scientific reports. My understanding is that you are not a 
scientist, that you are a lawyer by training, with an 
undergraduate degree in politics and economics; is that 
correct?
    Mr. Cooney. That is correct.
    Chairman Waxman. And prior to your move to the White House 
in 2001, you worked for more than 15 years at the American 
Petroleum Institute; is that correct?
    Mr. Cooney. That's correct.
    Chairman Waxman. The American Petroleum Institute [API], is 
the primary trade association for the the oil industry, isn't 
it? And they are essentially lobbyists for the oil industry, 
aren't they?
    Mr. Cooney. That is a fair characterization, yes.
    Chairman Waxman. My understanding is that your last 
position with the American Petroleum Institute was as team 
leader of the climate team. Climate change was a major issue 
for the Petroleum Institute and they were very concerned about 
this whole matter from an economic point of view.
    While you were at the Petroleum Institute, the Petroleum 
Institute prepared an internal document entitled ``Strategic 
Issues: Climate Change,'' and this is exhibit H.
    You have seen this document, haven't you, Mr. Cooney?
    Mr. Cooney. Exhibit H?
    Chairman Waxman. Yes.
    Mr. Cooney. Yes. I saw this document last week during my 
deposition.
    Chairman Waxman. This document was prepared during API's 
budget review while you were employed there. It discusses why 
climate change is important to API and the strategies API will 
use to combat governmental action to address global warming.
    According to this document, ``Climate is at the center of 
industry's business interests. Policies limiting carbon 
emissions reduce petroleum product use. That is why it is API's 
highest priority issue and defined as strategic.''
    One of the key strategies used by the Petroleum Institute 
was to sow doubt about climate change science. Member companies 
and spokesmen for the Petroleum Institute regularly exaggerated 
the degrees of scientific uncertainty and downplayed the role 
of humans in causing climate change. What bothers me is that 
you seem to bring exactly the same approach inside the White 
House--and I want to ask you about that.
    We received hundreds of edits that you and your staff at 
the White House Council on Environmental Quality made to 
Federal climate change reports. And there seem to be consistent 
reports to these edits. They exaggerate uncertainties and 
downplay the contribution that human activities, like burning 
petroleum products, play in causing climate change.
    So when I look at the role you played at the American 
Petroleum Institute and then the role you played at the White 
House, they seem virtually identical. In both places you were 
sowing doubt about the science on global warming.
    I would like you to respond to those concerns. Do you have 
a comment about my observation? Do you think that I am being 
unfair to you?
    Mr. Cooney. I do in some respects, Mr. Chairman. When you 
characterize the efforts of the American Petroleum Institute, 
we did have scientists who participated on our 
multidisciplinary team on climate. We also had economists and 
press people and lobbyists, of course. Our focus was lobbying 
on the Kyoto Protocol. But to the extent that our scientists 
participated in science, often they provided public comments in 
good faith.
    For example, on the prior administration's national 
assessment, our economists and scientists submitted public 
comments for the record, trying to comment constructively and 
improve that process, and they had the background to do so, the 
scientists and economists who were working on that.
    You know, one thing that was brought to my attention in the 
deposition was the funding for Carnegie Mellon University. They 
had an esteemed program on studying, from what I understood--I 
wasn't very acquainted with it--but it was studying the 
connection between climate change and potential health impacts 
and funded MIT, I believe----
    Chairman Waxman. You think I am being unfair to the 
Petroleum Institute in my characterization?
    Mr. Cooney. I think we surely were opposed to the Kyoto 
Protocol, but I do think in many cases our scientists tried to 
participate responsibly in some of the public dialog that was 
going on and to offer legitimate views that weren't merely 
about sowing uncertainty, as you have described.
    Chairman Waxman. My staff released an analysis of hundreds 
of changes that you and your staff made to Federal scientific 
reports. Where the draft reports said that climate change will 
cause adverse impacts, you changed the text to say that these 
changes may occur.
    Where the draft reports said that the climate change would 
damage the environment, you inserted the qualifier, 
``potentially.''
    Where the report described adverse economic effects, you 
modified the text to say that the economic effects could be 
positive or negative.
    Mr. Cooney, aren't the edits you were making exactly the 
kinds of changes the Petroleum Institute itself would have made 
to these reports?
    Mr. Cooney. Mr. Chairman, the comments that you described--
and really these were recommendations on Federal reports, they 
weren't hard edits--they were offered within the context of an 
interagency review process with a lot of people providing 
recommendations to Dr. Mahoney. But you know----
    Chairman Waxman. Who is Dr. Mahoney?
    Mr. Cooney. Dr. Mahoney was at the end of the process and 
he was the Assistant Secretary at Commerce for Oceans and 
Atmosphere and the Director of the administration's Climate 
Change Science Program Office that was ultimately responsible 
for the publication of the 10-year Strategic Plan and the ``Our 
Changing Planet'' report.
    Chairman Waxman. So you were making recommendations to him?
    Mr. Cooney. Within an established interagency process. And 
the comments that you are describing that I made, you know, my 
comments of a scientific nature were really derivative. And as 
I said in my testimony they relied on the major findings of the 
National Academy of Sciences, according to the report that it 
released for the President in June 2001. And it talked about 
many of the localized and regionalized impacts of climate 
change being very poorly understood and of the inability of 
climate change models to project impacts at a localized and 
regional level. And so, for example, the reliance on that type 
of language would have led to my comments.
    In the end, Dr. Mahoney didn't take many of my comments. He 
rejected a number of my comments. And that is the nature of our 
process.
    Chairman Waxman. Mr. Cooney, as I understand it, every time 
the National Academy of Sciences had certainty, you tried to 
delete that certainty or change it so that it was uncertain.
    Mr. Hansen, you are one of the Nation's leading experts on 
climate change. What is your view of the changes made by Mr. 
Cooney and his staff at the White House? Are they consistent 
with the types of assertions that the oil companies and the 
Petroleum Institute were making about the lack of scientific 
certainty about climate change? Or were they simply trying to 
make sure that scientific edits confirmed what the National 
Academy of Sciences was saying?
    Mr. Hansen. I think that--I believe that these edits, the 
nature of these edits is a good part of the reason for why 
there is a substantial gap between the understanding of global 
warming by the relevant scientific community and the knowledge 
of the public and policymakers, because there has been so much 
doubt cast on our understanding that they think it is still 
completely up in the air.
    Chairman Waxman. You think the edits raised doubt where 
there was a consensus?
    Mr. Hansen. Because they consistently are always of one 
nature, and that is to raise doubt.
    Of course there are many details about climate that remain 
to be understood. But that doesn't mean that we don't have a 
broad understanding.
    Chairman Waxman. In a 1998 document from the Petroleum 
Institute that is called, ``Global Climate Science 
Communications Action Planning,'' which I would like to make 
part of the record as exhibit T--and without objection.
    It says, ``Victory will be achieved when average citizens 
understand uncertainties in climate science, recognition of 
uncertainties becomes part of the conventional wisdom, and 
media coverage reflects balance on climate science in 
recognition of the validity of viewpoints that challenge the 
current conventional wisdom.''
    So when I compare this Petroleum Institute document with 
your activities at the White House, Mr. Cooney, I find it is 
hard to see much of a distinction. The Petroleum Institute is 
defining victory as sowing doubt in the public about the 
certainty of climate change science, and that is what your 
edits to Federal climate change reports appear to do.
    Mr. Cooney. Mr. Chairman, I will try to be concise and say 
if you look at chapter 3 of the policy book that the President 
issued on June 11, 2001, in conjunction with the speech he gave 
in the Rose Garden where he spoke at length about climate 
change science and the findings at the National Academy, there 
are at least 50 to 75 direct quotations from the National 
Academy report that he had requested.
    And it was part of what he released on June 11th. And that 
was our foundational document for reviewing these budgetary 
reports. It had truly nothing to do with my prior employment at 
the American Petroleum Institute. When I came to the White 
House, my loyalties--my sole loyalties--were to the President 
and his administration.
    Chairman Waxman. Thank you very much. Let me just point 
out, while my time has expired, that the points where you 
raised uncertainty were the places where the National Academy 
of Sciences were fairly certain, and the other parts where they 
were uncertain I don't think that was affected. We will get 
into that more, I think, in the questioning.
    Mr. Cooney. Mr. Chairman, may I offer one more thing?
    Chairman Waxman. Certainly.
    Mr. Cooney. This document from 1998 from the American 
Petroleum Institute, I don't really recall the whole story 
except to say that I was not involved on the climate change 
issue at the time this document was prepared.
    Chairman Waxman. Thanks. Well, that document was prepared--
--
    Mr. Cooney. In 1998.
    Chairman Waxman [continuing.] To express the views of the 
Petroleum Institute as to what they wanted to do on climate 
change and that seemed to be consistent when you were there.
    The National--the President's speech wasn't made--that you 
are citing as your blueprint--wasn't given while you were at 
the White House, but submit that was guiding your policies at 
the White House.
    Mr. Cooney. It was given 2 weeks before I joined the 
Council on Environmental Quality staff. And so it was the 
roadmap that was established before I arrived.
    Chairman Waxman. Thank you. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Boy, there is a lot to 
cover here today, and I hope I get through most of it.
    Dr. Hansen, let me start with you, because we have been 
talking about something from the petroleum industry from 1998. 
But in 2000--you, I understand are the author, the proponent 
for the alternative scenario theory you argued that the rapid 
warming in recent decades was driven mainly by noncarbon 
dioxide greenhouse gases, basically the chlorofluoro carbons--
methane, nitrous oxide and the like. Do you still hold that 
2000--year 2000 view of global warming?
    Mr. Hansen. The data in the 2000 paper is very good data, 
very--we have an accurate knowledge of the forcings by 
different greenhouse gases. That is one part of the problem 
which is very well established. We know how much carbon dioxide 
has increased, how much nitrous oxide and methane chlorofluoro 
carbons have increased, and the sum of these non-CO<INF>2</INF> 
gases provide forcing approximately the same as that by 
CO<INF>2</INF>.
    Mr. Issa. OK. So in 2000 and today, you would say that more 
than half of global warming--but at that time you said that it 
was not CO<INF>2</INF>, but in fact these other gases. Now you 
would say it is 50/50----
    Mr. Hansen. No, I did not say it is not CO<INF>2</INF>. It 
is a very qualitative paper. If you look at it, the forcing by 
CO<INF>2</INF> was then about 1.4 watts and the forcing by non-
CO<INF>2</INF> gases is comparable. And then there are other 
factors also----
    Mr. Issa. I appreciate that. And I will let you be the 
physicist and I will try to be the guy up here that is trying 
to muddle through a better understanding of both the science 
but, more importantly, the policy here.
    Your quote at the time was that it had not been driven 
mainly by--it was driven mainly by noncarbon dioxide. So it was 
getting close to even at that point?
    Mr. Hansen. It is approximately the same, the 
CO<INF>2</INF> forcing and the non-CO<INF>2</INF> greenhouse 
gases. I think that what you may be referring to is the fact 
that I pointed out that the same burning of fossil fuels, that 
process produces not only carbon dioxide but aerosols, which 
are small particles in the atmosphere, and those are also 
cooling. So if you calculate the net effect of those, that 
reduces the net fossil fuel effect on a temporary basis. But 
the problem is these small particles have a lifetime of only 5 
days, and we are attempting to clean those up because they are 
air pollution.
    Mr. Issa. Sure. I understand we can cool the environment if 
we blacken the sky, but that may not be the best way to cool 
the environment. I am with you on that, Doctor.
    But I guess when I look back to some of these arguments 
going on within science--you don't call them arguments but 
debates--as late as 2000, you and other scholars were debating, 
you know, in various papers--you were debating the differences 
of what was causing what. And to a certain extent, you still 
are. Is that correct?
    Mr. Hansen. Oh, sure, that is always going on. Yes.
    Mr. Issa. So this isn't settled science.
    Mr. Hansen. There are many aspects of it which are settled 
and----
    Mr. Issa. What are those aspects that are totally settled? 
Name one aspect that is totally settled in the science.
    Mr. Hansen. The climate forcing, that which drives the 
climate change, many parts of that are quantitatively very well 
settled. And carbon dioxide is the largest forcing, and it is 
now the fastest growing forcing. And it is going to dominate 
the future global climate change. That has become very clear.
    Mr. Issa. And I appreciate that because I think that is an 
area that we should all focus on here a lot today because--Mr. 
Cooney, I am going to go to you for a second.
    Prior to coming to the White House, you worked for the 
American Petroleum Industry. We have established that. You were 
in your role, among other things, an attorney; is that correct?
    Mr. Cooney. Earlier in my career there, yes.
    Mr. Issa. So your client was the Institute.
    Mr. Cooney. Yes. The members of the Institute.
    Mr. Issa. When you came on as--among your other attributes 
you are an attorney--your client became who when you came to 
work in Washington for this administration? Who was your 
client?
    Mr. Cooney. The President.
    Mr. Issa. So, very different loyalties between petroleum 
and the President, right?
    Mr. Cooney. Yes.
    Mr. Issa. So when the President talks about switchgrass, 
when he puts forward budgets that include billions of dollars 
for various areas of climate study, including roughly a billion 
dollars for the area that Dr. Hansen is most thoroughly 
involved in, that is your client, right?
    Mr. Cooney. Absolutely, yes.
    Mr. Issa. When the President includes in each of his 
speeches the need to get unhooked or get rid of the addiction 
to petroleum, that is your client, right?
    Mr. Cooney. Correct.
    Mr. Issa. And you represent that client and would--wouldn't 
have a conflict there?
    Mr. Cooney. My sole loyalty was to the President and 
advancing the policies of his administration.
    Mr. Issa. I don't see a conflict there. I must tell you 
that I came from an industry where I produced car alarms, and I 
have no loyalty to the car alarms nor animosity to the car 
thieves that exist in Washington today. I have moved on.
    And that will be quoted, I am sure.
    Dr. Hansen, you have been quoted, speaking of quotes, and 
correct me if I'm a little off on this, but the way the quote 
is here it says, ``Debating a contrarian leaves the impression 
that there is still an argument among theorists that science is 
still uncertain.''
    You have said that many times, plus or minus a few words.
    Mr. Hansen. Yes.
    Mr. Issa. Does that mean that your opinion among 
scientists--because this talks about contrarians, not Mr. 
Cooney, because he wasn't the decisionmaker, as has been shown 
by the fact that when it bubbled up to somebody with ``doctor'' 
in front of their name, most of it got ignored--among 
scientists, you appeared to believe that the debate about 
this--any aspect of science being settled, that you think is 
settled, has a chilling effect on people's understanding. You 
said so in your opening remarks here today. Is that--you said 
that the American people were not--were confused by these 
contrarian opinions. I guess we would be talking about Senator 
Jimmy Inhofe who says there isn't global warming. You say it is 
settled science; is that correct?
    Mr. Hansen. I wouldn't state it the way that you just did.
    Mr. Issa. Please rephrase.
    Mr. Hansen. What I refer to is the fact that very often the 
media, sometimes with pressure from special interests, will 
present balance. And balance means we have one person 
describing the science and one person who disputes it, even in 
cases where the science is 99 percent certain.
    And both of them speak in a technical language which to the 
public often sounds like they are, you know, technical 
scientists, and they don't understand the language. And so it 
looks like a 50/50 thing, even when it is not.
    Mr. Issa. OK. Well, you know, having been somebody that is 
still befuddled about whether Pluto is a planet or not, I share 
that layman's understanding.
    But it appears as though you have become an advocate for 
limiting that debate to coming up with consensus that certain 
things are settled, such as CO<INF>2</INF> is a major cause of 
global warming and no one should be able to dispute that.
    Mr. Hansen. No, that is not true at all. What I am an 
advocate for is the scientific method. And with the scientific 
method you present--you look at all sides of a story equally, 
without prejudice.
    Now, what we have in the case of some of these contrarians 
is simply making negative statements without--without 
presenting--you know, they act more like lawyers than like 
scientists. They present all the evidence they can think of for 
one side of the story, rather than acting like scientists. And 
that is why I say it is a mistake to get involved with 
professional contrarians, because they are to confuse the 
public that is basically----
    Mr. Issa. I appreciate that. Last July 20th, you pulled out 
of a hearing and it was one in which there was a peer involved. 
And my understanding from quotes you made at the time was that, 
one, you were infirmed, but you said you would get out of your 
sick bed if they were serious about the science.
    Mr. Hansen. Yes, if they want to speak about science 
seriously, that is a different story. But if they just want to 
do the contrarian story just for the sake of publicity, then I 
don't see much point in that.
    Mr. Issa. So today you are on a panel with no contrarians, 
so that is OK.
    Mr. Hansen. Today we are talking about government reform, 
and I think that some is needed in this case.
    Mr. Issa. OK. Well, my time is nearly ended, but Mr. 
Deutsch--is my time over?
    Chairman Waxman. Yes.
    Mr. Issa. Let me ask one final thing. You are very young. 
You were 22 years old and plus or minus 3 credits of being a 
college graduate. Do you think you may have ruffled Dr. 
Hansen's feathers simply because you were young and 
inexperienced?
    Mr. Deutsch. Apparently I did.
    Mr. Issa. Perhaps not skilled in the ways of public 
affairs.
    Mr. Deutsch. I can't speak for Dr. Hansen, but I very well 
may have.
    Mr. Issa. I will hold for the second round. Thank you, Mr. 
Chairman.
    Chairman Waxman. Thank you, Mr. Issa. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Cooney, you indicated in your statement that your 
loyalty was to the President who appointed you, correct?
    Mr. Cooney. Correct.
    Mr. Welch. You also indicated that your responsibility was 
to align executive branch reports with administration policy, 
correct?
    Mr. Cooney. Correct.
    Mr. Welch. And the administration had a pretty clear energy 
policy during the time of the ongoing energy crisis, which 
included recovery in the search for new oil and petroleum 
products, correct?
    Mr. Cooney. It included that. There were many other 
elements.
    Mr. Welch. Well, it included supporting drilling in the 
Arctic National Wildlife Reserve, correct?
    Mr. Cooney. It did. It included extended----
    Mr. Welch. It included drilling offshore, correct?
    Mr. Cooney. I don't recall.
    Mr. Welch. It included maintaining royalty relief for the 
oil companies for the recovery of gulf oil, even as the price 
of oil increased over $60 a barrel?
    Mr. Cooney. I don't recall that was an element of the 
National Energy Policy in the spring of 2001----
    Chairman Waxman. It included tax breaks that Congress gave 
the oil industry at time when they had $125 billion in profits, 
correct?
    Mr. Cooney. Congressman, I can say that later in my years 
in the administration, we opposed oil and tax--excuse me, tax 
incentives for oil and gas exploration for the oil industry----
    Mr. Welch. Let's get real. Let's get real. ANWR, offshore 
drilling, tax breaks, all advocated publicly, aggressively, by 
the Bush administration, passed by a Republican Congress; yes 
or no?
    Mr. Cooney. That was an element----
    Mr. Cannon. Would the two of you yield? When you're talking 
about tax breaks, you're talking about tax breaks that have 
been in law for a long time, or since then? I'm wondering.
    Mr. Welch. You will have your chance, my good friend.
    Mr. Cooney. There were many elements of the policy: the 
promotion of nuclear energy, the increase of fuel economy, 
standards for light trucks, a mandate for renewable fuels and 
the sale of transportation fuels for ethanol which was enacted 
in 2005. There were many elements to the policy that were not 
necessarily to the advantage of the oil and gas industry, which 
were administered policies.
    Mr. Welch. Did that policy of the Bush administration--and 
you supported the President in his policies--include promoting 
drilling in ANWR?
    Mr. Cooney. Yes, Congressman.
    Mr. Welch. Well, did it include support breaks that were 
passed by Congress to the oil industry?
    Mr. Cooney. I don't recall that being an element.
    Mr. Welch. Let's ask a few specific questions here.
    You reviewed the CEQ, and this document is the strategic 
plan for the Climate Change Science Program which was issued in 
2003. The committee has multiple drafts. You've seen them. You 
have been asked about them in your deposition; and, in fact, at 
your deposition, you acknowledged that this was edited at least 
five times, on October 28, 2002; May 30, 2003; June 2, 2003; 
June 16, 2003; and once before the final version was released. 
Is that correct? Yes or no?
    Mr. Cooney. That sounds correct.
    Mr. Welch. And when we examined your edits, we found a 
large number of changes that very clearly had the effect of 
emphasizing or exaggerating the level of uncertainty 
surrounding global warming science. In your first round of 
edits, there were 47 edits that introduced additional 
uncertainty; in the second round, you made 28 edits that made 
global warming seem less certain, and in your third round of 
edits, you made 106 changes that introduced additional 
uncertainty. That is a total of 181 edits. I want to ask you 
about these edits.
    Take a look at exhibit C. You are ready for this.
    When the draft arrived on your desk, lines 40 to 42 read, 
``recent warming has been linked to longer growing seasons, 
grass species decline, changes in aquatic diversity, in coral 
bleaching.'' You inserted the words ``indicated as 
potentially'' introducing a greater level of uncertainty into 
that report. Right or wrong?
    Mr. Cooney. Right. I inserted those words.
    Mr. Welch. And I assume that you referred to some 
scientific report for introducing this change that contradicted 
the report of the scientists.
    Mr. Cooney. This is not a report of the scientists.
    Mr. Welch. Here's a simple question. You made a change. You 
had a basis for the change. My question is this: What was the 
basis of your change?
    Mr. Cooney. It was the National Academy of Science's June 
2001, report.
    Mr. Welch. And tell us specifically, in that report you are 
now referring to, where the National Academy said 
``potentially.''
    Mr. Cooney. Well, the National Academy identified the 
uncertainties associated with regional outcomes of climate 
change as one of the fundamental scientific questions that 
remained and needed to be studied.
    Mr. Welch. My question is simple. It's an important 
question. You made a change. You overruled the written report 
of a scientist in your department.
    Mr. Cooney. I didn't overrule it.
    Mr. Welch. Where specifically can you find support to 
authorize the important scientific conclusion on the issue of 
climate change?
    Mr. Cooney. On page 19 of the report it states, on a 
regional scale and in the longer term, there is much more 
uncertainty. At page 21 of the National Academy of Sciences 
report, it says, ``Whereas all models project global warming 
and global increases in precipitation, the sign of 
precipitation varies among models for regions. The range of 
model sensitivities and the challenge of projecting signs of 
precipitation changes for regions represents a substantial 
limitation in assessing climate impacts.''
    Mr. Welch. Dr. Hansen, does this make the slightest bit of 
sense?
    Mr. Hansen. I think the connection between warming and 
longer growing seasons is very straightforward, and I don't see 
the need for this sort of qualification.
    Mr. Welch. Thank you.
    Please turn to exhibit D, Mr. Cooney.
    When you received the June 5, 2003, draft, page 294 read, 
``Climate modeling capabilities have improved dramatically and 
can be expected to continue to do so. As a result, scientists 
are now able to model earth system processes in the coupling of 
those processes on a regional and global scale with increasing 
precision and reliability.''
    The CEQ completely, completely deleted these sentences, 
right?
    Mr. Cooney. At which line? I am sorry, Congressman.
    Mr. Welch. Page 294.
    Mr. Cooney. Yes, Congressman.
    Mr. Welch. All right. Did you refer to some scientific 
evidence upon which you would delete the scientific conclusions 
that were presented by scientists?
    Mr. Cooney. I did, Congressman. At page 16 of the National 
Academy of Sciences report, it says, however, climate models 
are imperfect. Their simulation skill is limited by 
uncertainties in their formulation, the limited size of their 
calculation and their difficulty of interpreting their answers 
of the exhibit with almost as much complexity as in nature.
    Most importantly, at the end of the National Academy of 
Sciences report, it says that a major limitation of model 
forecasts for use around the word is the paucity of data 
available to evaluate the ability of coupled models to simulate 
important aspects of climate change. In addition, the observing 
system available today is a composite of observations that 
neither provide the information nor the continuity and data to 
support measurements of climate variability. Therefore, above 
all, it is essential to ensure the existence of long-term 
observing systems that provides a more definitive observational 
foundation to evaluate decadal and century scale variability 
and change.
    Mr. Welch. You heard Dr. Hansen just a moment ago when he 
said that scientists are different than lawyers?
    Mr. Cooney. Yes.
    Mr. Welch. Lawyers find every single possible nuance to 
create doubt and uncertainty.
    Here's the question, all right? What you deleted was a 
straightforward statement that said climate modeling 
capabilities have improved dramatically. You have now just read 
a statement that says they are not perfect and you have now 
edited that report to undercut the conclusion on climate 
warming that was reached by our scientists. Yes or no?
    Mr. Cooney. No, Congressman, I didn't edit the report. I 
made recommendations within an established interagency review 
process, and I believed at the time that I made them that I had 
a foundation for my comments based in the National Academy of 
Scientists.
    I am not being lawyerly. I am being--
    Mr. Welch. But you did have a foundation, and it was 
admirable loyalty to the person who had appointed you to a 
political position.
    Here's one of the questions I have as I listen to this. 
Whether you call it a recommendation or an edit, we will let 
the people of America decide that. You describe candidly that 
your job was to align executive reports to administration 
policy. Administration's policy was pro-oil, pro-drilling, pro-
API. It created--as the API report said, its goal was to create 
uncertainty about the basis of global warming.
    How is what the Petroleum Institute was doing--and these 
edits were encouraging--any different than the work of the so-
called scientists during the whole tobacco debate when they 
were selling doubt about whether there was any link between 
tobacco and lung cancer?
    Mr. Cooney. Congressman, I would say that the most material 
development was that the President's climate change committee--
Cabinet-level committee itself requested our latest knowledge, 
the most current knowledge on the state of what we know about 
climate change of the National Academy of Sciences. That report 
was delivered to the Cabinet in early June 2001, and became the 
explicit basis for President Bush's stated policies in June 
2001.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Welch. Thank you.
    Chairman Waxman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Cooney, I'll ask you the obvious question. In 
retrospect, do you think it would have been better if a 
scientist had been in your position doing these edits or maybe 
a librarian who had not worked at the Petroleum Institute?
    Mr. Cooney. Congressman, this--all of this, the review of 
these reports, the process for the report, is really controlled 
by the Global Change Research Act of 1990. It calls for the 
Council on Environmental Quality to be represented on an 
interagency committee--
    Mr. Issa. I understand.
    Mr. Cooney [continuing]. With high-ranking individuals.
    Mr. Issa. I am just asking, in retrospect, would a 
librarian from East McKeesport been a better choice so that we 
would not be talking about past profession?
    Mr. Cooney. Perhaps.
    Mr. Issa. Well, hopefully, in the future, Members of 
Congress will not come from individual States with their 
political bent having served in the legislatures either. But I 
am not holding my breath on that.
    Dr. Hansen, I have a question for you.
    We've been focusing up until now on specifics of a report 
and a handful of edits that were mostly not accepted. Do you 
feel that you are able to express in a clear way to the public 
the real dangers of climate change? Yes or no? Keep it as 
simple as you can.
    Mr. Hansen. I wish it were a simple yes or no.
    Mr. Issa. How about if we do this, since it is not that 
simple. I did a little quick looking at the stories from 
January 1, 2006, until today. Would you believe I found 1,400 
statements in publications distinctly different that you've 
done in that period that are available on Google? That doesn't 
surprise you?
    Mr. Hansen. No, it doesn't surprise me.
    Mr. Issa. Does it surprise you that you're only 40 or so--
out of that 1,464, you're only about 40 or so behind Dr. Hale 
from the shuttle program? And you're only--the two of you 
together it takes to get up to the administrator of NASA. So 
would you say that more or less a major story each and every 
day times two is reasonable access to the media?
    Mr. Hansen. Sure. That is, but this is a story that needs 
access to the media.
    Mr. Issa. I don't disagree with you. But, you know, in 
January 2006, you delivered 15 major media interviews; and in 
your testimony, or, actually, in some of the other material 
related, you said this was a month after Mr. Deutsch and the 
administration stifled your ability to speak. So I guess one of 
the questions is, when do you have time for research?
    Mr. Hansen. Well, my wife will tell you that--about 80 or 
90 hours a week. It takes a lot of time. If you're going to 
spend some time trying to communicate with the public, it does 
take away from your research time.
    Mr. Issa. But 15 major media events in 1 month, and that 
was the month after the administration put the hammer down.
    Mr. Hansen. Sure. That is the reason why. As soon as that 
became public knowledge, then the media came running.
    Mr. Issa. But did the administration stop you from doing 
those 15 major media events?
    Mr. Hansen. No. The NASA Administrator came out with a very 
strong statement. To his credit, he said that we were, in fact, 
allowed to speak to the public.
    Mr. Issa. OK. So, notwithstanding the President, the 
American Petroleum Institute, Mr. Cooney, the fact is, during 
this administration, with people such as the NASA Director, you 
have had significant access--as a matter of fact, you're one of 
the most easily Googleable human beings on the face of the 
earth. So the message is getting out, would you say?
    Mr. Hansen. The message is getting out, but there remains a 
gap in the public understanding of where our knowledge of 
global climate change is.
    Mr. Issa. Going back to that, this 2000 report, I noted 
that in 2000 it was called the Alternative Scenario. Now the 
only reason you call it the Alternative Scenario was you were 
outside the mainstream, to a certain extent, at least.
    Mr. Hansen. No. Alternative was alternative to business as 
usual. That's what it means. Business as usual has continued an 
increase in emissions year after year by larger and larger 
fossil fuels.
    Mr. Issa. Isn't it true that in 2000 the groups, including 
the Union of Concerned Scientists, criticized you soundly for 
publishing the Alternative Scenario--
    Mr. Hansen. Yeah, there was--
    Mr. Issa [continuing]. Because it would confuse the public?
    Mr. Hansen. Because I focused on some of the contributions 
of the non-CO<INF>2</INF>.
    Mr. Issa. You were providing ammunition for the deniers, 
weren't you?
    Mr. Hansen. No, I was providing science.
    Mr. Issa. Dr. Hansen, when you provide an alternative to 
what somebody else is doing and add to that body of debate, you 
are providing alternatives and moving the debate when someone 
else puts a limiting word, it appears; and I have already 
written off Mr. Cooney as not a scientist, but I am trying to 
understand if--in 2000, you did something very, very important, 
which is you said you have all of those non-CO<INF>2</INF> 
things that we have been looking at and they have certain 
effects and CO<INF>2</INF> has certain amounts and here is how 
we are going to look at it, and you got denounced for it, but 
you don't consider that a problem, even though they said you 
were confusing part of the public because it was unsettled.
    Mr. Hansen. Pardon?
    Mr. Issa. You were confusing the public as an unsettled 
science in 2000; is that right?
    Mr. Hansen. Could you repeat that?
    Mr. Issa. The Union of Concerned Scientists found that you 
were confusing the public in 2000 by putting forward this 
Alternative Scenario.
    Mr. Hansen. Well, you would have to ask them. I don't think 
it was confusing the public.
    Mr. Issa. Dr. Hansen, you know--look, I would like to be 
with you because you are one of the preeminent scientists, but, 
in 2000, you were still looking to add to the body, as I am 
sure you are today----
    Mr. Hansen. Sure we are. We always are.
    Mr. Issa [continuing]. Of science because, until we have 
all of the body, we won't have all of the potential solutions 
for the problems.
    Mr. Hansen. That doesn't mean we don't know anything.
    Mr. Issa. Of course. I am not saying that. My opening 
statement said you are pushing on an open door. I agree with 
you on CO<INF>2</INF>, I agree with you on the greenhouse gas, 
and I agree with you on the need to change that.
    In the last Congress, we had a number of scientists in my 
subcommittee, and we were able to get what we think was a 
pretty good assessment. It is about $350 trillion if we are 
going to get to zero emissions today. And if research--and do 
the science. That price goes down, depending on how much time 
we have.
    The concern that I have is I want your science to tell us 
as accurately on a daily, weekly, monthly basis how much time 
we have. Because we know we can't spend $350 trillion to solve 
this problem, but we know we can't wait forever to solve it. 
So, in between, we are trying to figure out how to apply 
efficiently the dollars not to collapse our society and to in 
fact get to a zero greenhouse gas/also CO<INF>2</INF> 
emissions. Isn't that a common goal that you share with this 
President who stated that he wants to get to, in fact, a stable 
environment and a cleaner one than we have today?
    Mr. Hansen. If you would look at my written testimony, you 
will see that I have some terrific recommendations. The problem 
is that our policy now is not going in that direction. We are 
continuing to increase our emissions. But it is clear that we 
have to decrease.
    Mr. Issa. I agree. We are doing it.
    Mr. Hansen. The sooner we start on it, the less expensive 
it will be. In fact, it may be economically beneficial.
    Mr. Issa. How much are we spending on sequestration of 
CO<INF>2</INF>?
    Mr. Hansen. We are spending quite a lot on clean coal.
    Mr. Issa. Is that a step in the right direction as an 
interim to reduce the emissions?
    Mr. Hansen. Sequestration is an important issue, which it 
should be.
    Mr. Issa. Second, what are we spending on nuclear?
    Mr. Hansen. We are spending a lot.
    Mr. Issa. Is that important to disposable--
    Mr. Hansen. Those are important, but there are renewables 
in energy efficiency which have tremendous potential in this. 
We are spending chicken feed.
    Mr. Issa. Dr. Hansen, that's chicken feed. How much would 
you spend?
    Mr. Hansen. It is not up to me to determine how much we 
should spend.
    Mr. Issa. How much, if it is up to you to determine--
    Mr. Hansen. And, again, this is my opinion as a private 
citizen. It is not--
    Mr. Issa. Dr. Hansen, I understand the disclaimer, but we 
didn't call you here as a private citizen. You said it was 
chicken feed. I am following up on that. If $4, $5, $6, $8, $10 
billion in various pockets of the Federal Government is chicken 
feed, what do we need to spend in dollars to move this along? 
Somewhere between $10 billion and $350 trillion? Give me a 
number of an annual amount we should spend.
    Mr. Hansen. It should be at least comparable to what we are 
spending on nuclear--we are subsidizing fossil fuels and 
nuclear a lot. We should be spending a lot more on renewables 
and energy efficiency. We have tremendous potential in energy 
efficiency.
    Mr. Issa. So if nuclear--
    Mr. Hansen. I don't think we are overspending on the other 
research. It is very important.
    Mr. Issa. That is a fair answer.
    Am I running out of time again?
    Chairman Waxman. Yup.
    Mr. Issa. Thanks, Dr. Hansen.
    Chairman Waxman. Thank you, Mr. Issa.
    Ms. Watson.
    Ms. Watson. Dr. Hansen, as one of the eminent climate 
researchers, I want to thank you for being here today.
    I don't know the process, but, as I am looking at the 
exhibits that have been passed out to us, when you present an 
empirical report is it usual or unusual to have whole lines 
deleted by someone who is not a scientist?
    Mr. Hansen. Well, I would hope it would be unusual.
    Ms. Watson. All right. It is my understanding that in late 
2002 a NASA public affairs official warned that there would be 
dire consequences if you continued to do press interviews about 
the threat of global warming. Can you tell me if this is 
accurate and, if so, what happened?
    Mr. Hansen. Well, it is accurate in the sense that was 
relayed to me. It was an oral threat that was made to the 
public affairs person in New York and relayed to me. And as I 
described in my testimony today, I think--I don't know if they 
were--can be directly related to it, but the consequences for 
our budget were pretty dire.
    Ms. Watson. So you worked at NASA for over 30 years, as I 
understand, and under several administrations, and was that 
kind of explicit threat unusual?
    Mr. Hansen. Yeah. It is unusual that they will make such an 
explicit threat. But, as I again mentioned in my opening 
remarks, the mechanisms for keeping government scientists in 
line with policy are pretty powerful, and they don't need to 
make an explicit threat.
    Ms. Watson. I had a confrontation with somebody from the 
Department of Commerce when we were in Qatar at the 
International Conference on Trade, and he made a statement 
about delusionary and mythical global warming. I talked to him 
about it afterwards. He was quite curt and rude, and he is no 
longer with the Department. He is no longer alive. But I found 
that very--in terms of myself as a policymaker, very insulting.
    In December 2005, National Public Radio wanted to interview 
you about global warming science; and this is, of course, your 
area of expertise, as I understand. I am very impressed with 
your resume. But NASA didn't want you to talk to NPR, and they 
wanted Colleen Hartman to do the interview instead. She was the 
Deputy Associate Administrator at NASA and one of your 
superiors. Do you think there would be a difference between 
what you could offer in an interview on global warming and what 
she could offer?
    Mr. Hansen. Well, sure, given our experiences. I mean, I 
have--
    Mr. Shays. Let me request that you speak closer to the mic.
    Mr. Hansen. I have been doing research on that topic for 
several decades now, and they explicitly indicated that they 
wanted to talk about the climate science research that I 
discussed at the AGU meeting that December.
    Ms. Watson. Were you allowed to do the interview?
    Mr. Hansen. No, I was not allowed to do it because 
headquarters indicated they preferred that I not be allowed to 
speak to NPR because it was described as the most liberal media 
outlet in the country.
    Ms. Watson. Do you think the administration was afraid of 
having you talk to the press about climate change in your 
opinion as a private citizen?
    Mr. Hansen. They were reluctant for whatever reasons.
    Ms. Watson. It seems from this hearing that there was an 
attempt to quiet you. I experienced that myself from someone 
from this administration, and I don't know how you skew 
empirical evidence as a scientist. I would feel that there 
should be a report coming from the editors.
    If Mr. Cooney, a non-lawyer--Mr. Cooney, if you were to 
review this, I would think that, rather than changing words and 
editing, that you would write a dissenting report, a challenge 
to the findings of Dr. Hansen, rather than suggesting lines be 
deleted if you could not find a scientific base to do so.
    Thank you so much, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Cooney. Congresswoman, I did not comment on any of Dr. 
Hansen's work. In fact, the record before the committee shows 
that I had suggested that he be invited to interagency 
committees to brief us on the latest science. So I did not 
directly review his work.
    Ms. Watson. Thank you.
    Chairman Waxman. Mr. Cannon.
    Mr. Cannon. Thank you.
    Mr. Cooney, would you mind expanding on what you just said? 
My understanding is you have been a big promoter of Dr. Hansen 
in many ways; is that not the case?
    Mr. Cooney. I think that is true. In the materials that 
went up to the committee, you will find in one of the boxes in 
the past couple of weeks that I had sent an e-mail to Dr. 
Mahoney who, of course, ran the Climate Change Science Program. 
It is a one-liner, and you'll find it in the materials. I said, 
how about if we get Dr. Hansen to brief the Deputy Secretary 
level committee that met every 2 months on climate change 
policy, science, technology, mitigation, international 
negotiations.
    But I have always been of the view that Dr. Hansen is very 
eminent. In fact, Dr. Mahoney did not take me up on my 
suggestion; and we, at the White House, therefore invited Dr. 
Hansen to come and provide a briefing when I was there. I 
attended that briefing, and we appreciated his update. In fact, 
we were influenced by a lot of what he had to say about the 
potential of near-term mitigation from methane, which is a 
potent greenhouse gas.
    As a consequence and in reliance on Dr. Hansen, to a large 
extent, the administration, the President announced in July 
2004 the methane-to-markets partnership under which a number of 
developed and developing countries tackled methane emissions.
    Mr. Cannon. Methane is one of those greenhouse gasses that 
we can do something about. Does it bother you that there is a 
tendency to be alarmist about the possible causes--and, Dr. 
Hansen, I would like you to address this as well--the possible 
causes or the possible effect on the massive inertia, I think 
you called it, Dr. Hansen, that these feedback mechanisms might 
cause? There is a tendency to focus on those dramatic potential 
effects but not so much focus on what we can do to actually 
solve the probability containing things like methane.
    Mr. Cooney. Well, I think that, as Congressman Issa has 
said, we have a time period within which to act, and we want to 
act timely, and we want to act cost effectively, and we want to 
calibrate our actions to emerging technologies.
    So, to be concise, you want to get at the low-hanging 
fruit; and Dr. Hansen told us that the low-hanging fruit was 
methane emissions. EPA has a tremendous program on methane 
emissions, a voluntary program, where actually in the U.S. 
methane emissions is the one greenhouse gas that has been 
reduced since 1990. My recollection is that we were about 5 
percent below the 1990 level in methane emissions because we 
are capturing methane from coal mines, we are capturing it from 
oil and gas systems, and we are capturing it form landfills and 
using it for energy. So EPA's successful program was something 
that we could take international and help the developing 
countries embrace as well.
    Mr. Cannon. I see Dr. Hansen nodding.
    Let me just say, I have one of the biggest pig farms in my 
district. And, actually, it didn't smell as bad as you might 
have expected, but they are now making more money off of 
capturing the methane than they are off the 1,500,000 pigs or 
so per year that they produce and sell.
    Mr. Shays is saying I've got to be kidding. The fact is, in 
a very difficult market, they are not making money from the 
pigs. They are making money on the methane.
    So these are the kinds of things--I see Mr. Hansen nodding. 
You are not reflected in the record as smiling and nodding, Mr. 
Hansen. It is true there are some things--
    Mr. Hansen. This is a success story, and the administration 
should be given credit for it.
    Mr. Cannon. I just want to say that I would give Mr. 
Capuano the microphone any day to be talking about being anti-
energy or pro-oil or pro-drilling or pro-tax cuts. Because the 
people that pay these costs are the poor in America way 
disproportionately; and in an environment where there tends to 
be an increasing disparity between rich and poor, I want to be 
on the side of people getting what they need in terms of 
energy.
    I notice, Dr. Hansen, you are very positive about some of 
these alternatives like methane control on the one hand, like 
nuclear on the other hand. And, again, the record should show 
that Mr. Hansen is nodding; and, also, what you are suggesting, 
we go from chicken feed to more money to alternatives. There 
are great potentials there and that--in fact, let me give you 
some time to talk, instead of just nodding, Dr. Hansen.
    Your sense is that we have this--and if I can characterize 
you--a massive inertia in our oceans and ice caps and that 
forces, feedback forces, have a tendency, over time, to maybe 
be dramatic. Your concern is to draw people's attention to the 
potential problem. Don't you think in that regard that finding 
options for what we can do today to improve the way we affect 
the atmosphere is important?
    Mr. Hansen. Absolutely. That's the bottom line, and we need 
to begin to take those actions now. Because if we stay on 
business as usual another decade, it will be very difficult to 
avoid the inertia taking over and carrying us to climate 
changes that we would rather not have.
    Mr. Cannon. How much time do I have left?
    Chairman Waxman. None.
    Mr. Cannon. Mr. Deutsch, I am very impressed by you. It 
sounds to me like you have your resume out there. You had it 
prepared in anticipation of graduation. If somebody ever raised 
that as a question in your career, I would be happy to be a 
recommender for you to straighten them out.
    Thank you, Mr. Chairman. I yield back.
    Chairman Waxman. Thank you. You want to hire him?
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Cooney, you stated that--and we have repeated it a 
number of times--that your primary obligation is to promote the 
policies of the administration; is that correct?
    Mr. Cooney. Essentially correct.
    Mr. Yarmuth. Essentially, that you are a spin doctor, is 
that a fair characterization of what you did?
    Mr. Cooney. No, I don't think that's fair.
    Mr. Yarmuth. I had to get that in anyway. It sounds to me 
like a spin doctor.
    You said that you were only making recommendations. And you 
made recommendations to Mr. Mahoney. Is it fair to say that, 
once you got these documents and passed them on, it had left 
the realm of science and entered the political process?
    Mr. Cooney. Congressman, the documents were inherently of a 
policy nature. They related to budgets. They related to 
research priorities. They were not a platform for the 
presentation of original scientific research. These were 
documents called for under the Global Change Research Act.
    They were sent to 75 people to review under an established 
process at the Office of Management and Budget, and I was one 
of 75 who reviewed it, and it came to my office. I did my 
reviews. You send it back to OMB. OMB would synthesize the 
comments and, in all likelihood, give them to Dr. Mahoney for a 
final reconciliation because he was the head of the program.
    Mr. Yarmuth. Are you saying you had no more influence on 
what was in the final report than the other 75? You were in the 
White House. None of the other 75 in the White House--
    Mr. Cooney. The Office of Science and Technology Policy 
staff participated, the Council of Economic Advisors. The 
Office of Management and Budget itself reviewed these budgetary 
policy research reports. A host of people in the White House 
reviewed them. But all of the agencies reviewed these documents 
themselves because they affected their budgets and everyone 
wanted to be comfortable with what was expressed.
    Mr. Yarmuth. But you made recommendations; and, according 
to staff's count, something like 181 of the edits that you made 
appeared in the final report. Are you saying that you didn't 
have any disproportionate influence?
    Mr. Cooney. I was an active participant. There is no 
denying that. But if you look at these documents, they were 
multiple hundreds of pages, and I don't think it is unfair to 
say that 99 percent of the pages had no comments on them. Where 
I had a comment, I would make it. But I think it is a fair 
characterization to say that 99 percent of the drafts that came 
through I had no comment, no recommendation to make.
    Mr. Yarmuth. Let's talk about--you have said on numerous 
occasions today that you used, as the basis for your editing, 
the National Academy of Sciences and the National Resource 
Council documentation; and, in fact, in chapter one of the 
draft, where it talks about the issue--called the issues for 
science and society, on the page you did have a footnote and 
one statement about human activities causing--whether human 
activities cause climate change or global warming.
    The NRC elaborated on this point. C-A, next page. And, in 
fact, there was a section called, from their report, this is 
the NRC, the effect of human activities, which talks about how 
the effect of human activities cannot be unequivocally 
established; is that correct? So, in fact, you did that there.
    Now, if we can, would you turn to exhibit A and--because 
both in your testimony today and in your deposition, you talked 
about this being your guiding document. Will you read the first 
sentence of the National Academy Report aloud, please?
    Mr. Cooney. Greenhouse gasses are accumulating in the 
earth's atmosphere as a result of human activities causing 
surface air temperatures and subsurface ocean temperatures to 
rise.
    Mr. Yarmuth. Thank you.
    Now turn to exhibit B, and this exhibit is your handwritten 
edits to the EPA report.
    Now on page 3, beginning on line 24, you have deleted a 
sentence from the EPA text. Will you please read that sentence 
aloud?
    Mr. Cooney. I am looking at line 24 on which page?
    Mr. Yarmuth. Page 3.
    Mr. Cooney. The NRC concluded that the greenhouse gasses 
are accumulating in the atmosphere as a result of human 
activities, causing surface air temperatures and subsurface 
temperatures to rise.
    Mr. Yarmuth. Now you replaced this verbatim quote from the 
National Academy of Science with your own sentence. This 
sentence reads, ``Some activities among greenhouse gasses and 
other substances directly or indirectly may affect the balance 
of incoming and outgoing radiation, thereby potentially 
affecting climate on regional and global scales.''
    That sentence does not appear in the Academy's report. So 
you deleted a direct quote from the Academy's report, which you 
say is what you relied upon, and replaced it with a sentence 
that appears designed to obfuscate the simple reality that 
human activities are warming the planet. Why did you make the 
change, and why did you not rely on the NRC report in that 
situation?
    Mr. Cooney. Congressman, I recall this document did have a 
number of drafts, and I do recall the viewing documents that 
recommended the insertion of a more full quote, the one that 
you had referenced before from page 17 about the linkage 
between observed warming in the 20th century and human 
activities not being unequivocally established because the 
range of natural variability climate was not sufficiently 
known.
    In this case, I don't recognize the source of the comment 
that I am inserting here on this draft. I don't know that it is 
not in the National Academy of Science's report. I just can't 
say that it is.
    As I said, in most cases, nearly all cases, my comments 
were derivative and in reliance on the National Academy of 
Science's report; and this may be a quote from that report.
    But my concern there was that--in prior drafts, you will 
see my concern there was that EPA was, in its draft, was not 
being sufficiently expansive on the question of the connection 
between human activities and observed warming. It wasn't using 
the full benefit of what the National Academy had said, and I 
wanted a broad quote because it's an important question.
    The quote on page 17 has the caption the Effect of Human 
Activities; and it is there where the National Academy is 
purporting to speak very specifically, not from the summary 
which is what this sentence is from but very specifically about 
the linkage between observed warming and human activities. I 
thought that it was more complete to refer to that quote, and 
you will find that I did recommend the insertion of that quote 
in a number of other drafts.
    Mr. Yarmuth. And more supportive of the administration's 
policies.
    Mr. Cooney. Well, Congressman, again, if you look at 
chapter 3 of the policy book that the President himself 
released on June 11th, 2 weeks before I got there, the 
President has 50 quotes from the National Academy of Science's 
report where he prescribes what his research priorities are 
going to be.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    Dr. Hansen, a lot of people believe that money can 
influence science. In fact, Mr. Cooney was more or less smeared 
for his past ties to the Petroleum Institute. You received a 
quarter million dollars from the Heinz Foundation in 2001. Why 
shouldn't we believe that influenced your support for John 
Kerry for President in 2004?
    Mr. Hansen. The award--the Heinz Environment Award is an 
award that is named for John Heinz, a Republican Senator from 
Pennsylvania.
    Mr. Souder. Whose wife is married to John Kerry.
    Mr. Hansen. Yes, that is right.
    There is no--as far as I know, there is no political 
connection to this award. It is an environmental award, and it 
is not--and you know it is--
    Mr. Souder. I understand the point you are making. It is 
not from Theresa Heinz directly or from John Kerry directly. 
But the point is that when you smear individuals based on 
associations or indirect associations is what has historically 
been called McCarthyism and what was done to the first witness 
on this panel.
    Let me ask you a more precise question.
    You have said publicly multiple times that you were a 
consultant on Al Gore's movie An Inconvenient Truth. You said 
that Al Gore has a better understanding of the science of 
global warming than any politician that you have met. Given 
your close ties to former Vice President Gore, how do you feel 
about this statement: He said it's appropriate to have an 
overrepresentation of factual presentations on how dangerous it 
is as a predicate for opening up the audience to listen to what 
solutions are and how it is to be helpful. Do you feel it is OK 
for politicians to exaggerate the impact of global warming?
    Mr. Hansen. No, we don't need to exaggerate. The reality is 
serious enough. There is no need for exaggeration.
    Mr. Souder. I also want to express my concerns that you 
didn't submit your testimony. You were told, we understand, on 
February 15th that this hearing was coming. I know you are a 
busy person. Our committee rules, which are increasingly being 
violated, were told that you had 2 business days. Our staff was 
willing to stay in over the weekend, and yet we didn't receive 
the testimony until Sunday night. It doesn't matter, because 
there is nothing new in your testimony. But, as a courtesy, it 
is helpful for us for hearings to prepare.
    I am more upset that the chairman has not allowed our 
Republican witness to speak until the third panel. On a hearing 
on censorship, on a hearing of lack of debate, our witness was 
denied on the first panel where we could have debated this. I 
believe it makes a mockery of a hearing on censorship to censor 
the Republican witness.
    Now, ironically, Dr. Spencer, who was at NASA for 15 years, 
who was awarded the Meteorological Society Special Award for 
developing a global precise record of the earth's temperature 
from operational polar orbiting satellites, fundamentally 
advancing our ability to monitor climate--that is the quote 
from the award--who receives NASA's exceptional achievement 
medal, has views differing from Dr. Hansen.
    He also says, Dr. Spencer, ``well aware that any 
interaction between scientists and the press was to be 
coordinated through NASA management and public affairs.'' And 
he resigned from NASA under the Clinton administration because 
of limits on what he could and could not say as a NASA employee 
because he felt he was being restricted by the Clinton 
administration.
    Now, Dr. Hansen, based on your definitions of censorship, 
silencing and political interference, whatever you want to call 
it, that you allege to have occurred under the Bush 
administration, was Dr. Spencer also being censored by the 
Clinton administration trying to filter his statements through 
NASA when he disagreed with the Clinton administration?
    Mr. Hansen. I don't have any knowledge of that. I don't 
know if he was prevented from speaking to reporters the way 
that I was. You would have to ask him about that.
    Mr. Souder. The major point with this--well, I would like 
to ask, because it would be an interesting comparison, but the 
majority prohibited us from having him on this panel, not a 
contrarian, but, in fact, a well-known researcher who was at 
NASA for many years and has received numerous awards for that.
    I think it is appalling that we can't have a discussion and 
a comparison. We can have allegations--and that's why people 
think sometimes these things are show hearings. We can have 
allegations against one administration, but when the press is 
here and when there is coverage on one but not on the other, in 
my opinion, it is a set-up, it is appalling, and we have been 
deteriorating in our process here.
    I am very, very disappointed, particularly the questions, 
to say would--if you altered something from that is a 
legitimate debate--from a--to put slight--more vague in and say 
that is what the Petroleum Institute would want you to do would 
be similar to saying--and a socialist would rather have you not 
do that that way or a person who's anti-capitalist would rather 
have you not have it that way, it's an over-simplification. And 
I just am appalled at the process here and very disappointed.
    I yield back.
    Chairman Waxman. The only thing I can say to the gentleman 
is that we do have the witness that the Republicans requested 
here today to testify. We, unfortunately, can't have everybody 
testify all at once. We have to take them one at a time. But, 
on this first panel, we have two appointees under the 
Republican administration sitting on either side of Dr. Hansen.
    The odd thing is that Dr. Hansen is one of the world's most 
esteemed scientists on global warming, and the two people at 
the table with him wanted to change his comments or stop him 
from speaking. It is odd, when you look at their 
qualifications, how little qualifications they have for 
imposing their views on science over what Dr. Hansen was doing 
as a government employee.
    Mr. Souder. As you know, just a few months ago I was a 
chairman. I do not recall you or the Democrats being willing to 
accept my definition of who the Democrat witnesses should be.
    Chairman Waxman. Well, I would point out to the gentleman 
that there were times when you would even deny our witnesses. 
We have your witness here, and we are going to hear from that 
witness on the third panel. I am looking forward to hearing 
what he has to say. I will be here. I think that other Members 
will be here as well.
    Mr. Issa. Mr. Chairman, we do--
    Mr. Souder. Mr. Chairman, I just want to say for the 
record, you know, that I never did that in my subcommittee, 
that I have never deprived Democrats of the witnesses on the 
panel. It may have happened at full committee.
    Chairman Waxman. I am being informed that it was at the 
full committee and not at your subcommittee that we were denied 
witnesses.
    At any rate, we don't believe in denying witnesses; and we 
do have your witnesses here.
    Mr. Issa. I want to thank you for that, after your three 
witnesses, that our witness will get up in the third panel. 
Let's just say let's go forward from here, and I am sure what 
we did to you will never happen back to us and vice versa.
    Chairman Waxman. I don't think Mr. Cooney, Mr. Deutsch, and 
Mr. Connaughton are my three witnesses, but they are witnesses 
that are appropriately here because they worked for this 
administration and we want to hear from them why we have this 
odd situation where nonscientists, even--how old were you at 
the time, Mr. Deutsch?
    Mr. Deutsch. Twenty-three, twenty-four.
    Chairman Waxman. And you were telling Mr. Hansen's staff 
that he couldn't go out and make public statements.
    Mr. Deutsch. I wouldn't go that far. I did relay 
information from my higher-ups from NASA about particular 
instances.
    Chairman Waxman. Particular instances.
    Mr. Deutsch. Sure. Particular interviews.
    Chairman Waxman. That he would not be able to do.
    Mr. Deutsch. You are speaking to one interview in 
particular, and that is NPR, and we offered them three very 
qualified guests.
    Chairman Waxman. Well, we'll get into that with other 
Members.
    The time now is yielded to the gentlelady from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I am interested in trying to get at the atmosphere that has 
created what would normally be a pretty pristine, 
straightforward atmosphere in the scientific agency. I want to 
congratulate Mr. Deutsch because, despite his tender years and 
perhaps his education, he was able to speak authoritatively as 
the spokesman on occasion for the agency. One of those 
statements, I would like to ask you about.
    It relates to an e-mail to a NASA contractor of October 
17th. I am going to read part of it. You wanted him to add the 
word ``theory'' to Big Bang. I don't have any problem with 
that. We talk about evolution as a theory, although I am 
astounded by the lack of understanding about what the word 
``scientific'' theory means.
    In any case, I don't think anybody would have any problem 
with that. But you went on to offer further opinions, and I am 
giving you what you said in that e-mail now. ``It is not NASA's 
place nor should it be to make a declaration such as this about 
the existence of the universe that discounts intelligent design 
by the Creator.
    ``The other half of the argument that is notably absent 
from any of these three portal submissions, this is more than a 
science issue. It is a religious issue. I would hate to think 
that young people would only be getting one-half of this debate 
from NASA.''
    Mr. Deutsch, you then were relaying the notion that, in 
order to talk about the Big Bang theory, NASA would give or say 
words--either say words or give some deference to intelligent 
design.
    Mr. Deutsch. No, ma'am. It is important to note this e-mail 
was between me and Mr.--
    Ms. Norton. Excuse me?
    Mr. Deutsch. I only sent this e-mail to Flint. It was not a 
statement on national policy or anything like that. It was 
simply--the bulk of that is my personal opinion, my personal 
religious views. These I understood Mr. Wild to share. He is a 
Christian, and so am I, and we had talked about that.
    Ms. Norton. I said, it is not NASA's place, nor should it 
be. So if it was your own religious views, why did you cite 
NASA's place?
    Mr. Deutsch. Well, again--
    Ms. Norton. A friend of yours. Is this person that you are 
e-mailing to a friend of yours?
    Mr. Deutsch. Yes, ma'am. I'd agree with you that it was--
work e-mail is a silly place to put this. I agree with you 
wholeheartedly. But if you go down to the bottom of the e-mail, 
you will read the sentence, ``Please edit these stories to 
reflect that the Big Bang is but theory on how the universe 
began. That is the only change I really want.''
    And you will see that is all I was really asking for, that 
the word ``theory'' be added to Big Bang, because that was the 
AP style guidelines of 2005.
    Ms. Norton. This perhaps explains why when you--this kind 
of personal opinion lurking somewhere, even on e-mails, in 
correspondence, official correspondence between a 
representative and a contractor, may explain what you mean when 
you apparently allege that there was a cultural war in NASA.
    You were interviewed last February on a Texas A&M radio 
program; and apparently referring to the scientists at NASA, 
you said, ``This is an agenda. It is a culture war agenda. They 
are out to get Republicans. They're out to get Christians. 
They're out to get people who are helping Bush. Anybody they 
perceive as not sharing their agenda, they're out to get.'' Who 
are you referring to?
    Mr. Deutsch. Well, Ms. Norton, I have to say, as you may 
imagine, I was very emotional, very upset, very distraught 
about the way things went down.
    Ms. Norton. Do you still believe that?
    Mr. Deutsch. I wouldn't go that far today. No. I think that 
I, frankly, said a lot of that stuff out of anger. It was just 
an emotional time for me, and I wouldn't say all of those 
things today.
    Ms. Norton. Were you sitting next to Dr. Hansen there--and 
I am going to allow you to--since you say that is the kind of 
thing you would not say today, you said, at the same time, he 
wants to demean the President, he wants to demean the 
administration, create a false impression the administration is 
watering down science and lying to the public, and that is 
patently false. And Dr. Hansen is sitting beside you now. Would 
you like to say anything to him about such words that were 
spoken?
    Mr. Issa. Regular order. I don't believe that our rules 
call for a dialog between witnesses.
    Chairman Waxman. The gentleman's order is not well taken. 
It is the gentlelady's time.
    Ms. Norton. I am simply asking, in light of the fact--and I 
ask the question only because I want to give Mr. Deutsch the 
opportunity, and he said words like this were uttered as a 
matter when he was highly emotional. Those words also were 
uttered in this case naming renowned scientists at NASA. I am 
not asking you to apologize to him. But rather than simply 
reading this statement and saying did you say this, because I 
know you said it, I am asking you, having said something like 
this in light of your prior statement that these kinds of 
statements were made as an emotional manner, in light of that, 
what would you like to say to Dr. Hansen since you happen to be 
sitting beside him right now?
    Mr. Deutsch. I think we all agree that he's been critical 
of the administration. But, beyond that, I would just restate 
that I wouldn't necessarily make those statements--comments 
today, no, ma'am.
    Ms. Norton. I appreciate that answer.
    I yield back my time.
    Chairman Waxman. Before you yield it back, may I ask, how 
was he critical of the administration?
    Mr. Deutsch. I believe the things--you start with the 
allegations of censorship and--you know, starting with that I 
think is a good place.
    Chairman Waxman. So Dr. Hansen is being critical of the 
administration by not being pleased with your telling people in 
his office that he can't go and speak certain places. Is that 
being unfair to the administration?
    Mr. Deutsch. He just made several allegations about 
censorship by political appointees, allegations I don't agree 
with him on. So I think it is fair to say that is being 
critical of the administration, sir.
    Chairman Waxman. Well, if we look at some of the changes 
Mr. Cooney proposed, they were changes in substance of what the 
scientists were recommending be in these global warming climate 
change positions. And, Dr. Hansen, I think your criticism is 
they were substantive changes; is that correct?
    Mr. Hansen. Yes, that is right.
    Chairman Waxman. Now if there's substantive changes coming 
from a political appointee who used to be at the American 
Petroleum Institute and raises the question in his mind, and I 
think anybody's mind, Democrat and Republican, that maybe 
somebody who is not a scientist, who is a lawyer, who used to 
work for the Petroleum Institute, who is a political appointee 
is trying to superimpose his views.
    Now you, on the other hand, were a public affairs 
representative at the age of 23; and you were telling Dr. 
Hansen's staff to tell him that the higher-ups didn't want him 
to be on National Public Radio; isn't that true?
    Mr. Deutsch. That is fair.
    Chairman Waxman. Isn't that interference?
    Mr. Deutsch. No, I wouldn't go as far to say it was 
interference. We had taken that request. I took it to the ninth 
floor and discussed it with the higher-ups. They thought it 
over and said, hey, you know, we've got three other qualified 
people, Dr. Colleen Hartman, who was mentioned, Dr. Mary Cleave 
and Dr. Jack Kaye; and those three were offered.
    Chairman Waxman. Thank you very much.
    Mr. Shays, do you want your time now or do you want--
    Mr. Shays. How many more Members do you have on your side?
    OK. I am going to take it now.
    I weep that this administration didn't seize this issue and 
claim it as its own, and this issue being climate changes for 
real, and mankind has had an impact on it. Are we thinking what 
this administration could have done about this issue? So I just 
want to be on record as saying that.
    I think there are two inconvenient truths in this world 
right now, one that unfortunately too many of my Republicans 
don't want to deal with, and that's what Al Gore talks about, 
and the other is what others have talked about, about the 
Islamist threat that too many of my Democratic colleagues don't 
want to deal with or are in denial. That's what I believe. It's 
my view.
    Having said this, when I listen to these hearings, I get 
drawn into believing that there are setups here and there are 
misimpressions galore, and some of them frankly, Mr. Cooney, 
are the result of having someone with your background and your 
position. You instantly lose credibility. Not your fault. It's 
your background. I might have thought twice about taking on 
that assignment because of that.
    But when we had Mr. Piltz here last week, or 2 weeks ago, 
he was talking as if scientists--his reports were being 
changed, as if he was a scientist. I still read in the 
newspaper that he's a scientist. He's not a scientist.
    Dr. Hansen, you're a scientist. Now let me ask you about 
the Academy's report in 2001; not what you believe, not what 
you're convinced of, not what you think the science says, did 
the National Academy report from 2001 say conclusively that 
global warming was for real, case closed?
    Mr. Hansen. I would say yes. By the way, I was an author, 
one of the authors of that report.
    Mr. Shays. You're saying yes to what?
    Mr. Hansen. Global warming is real.
    Mr. Shays. The report in 2001 said that? Not now.
    Mr. Hansen. Sure. We knew that global warming was real in 
2001, absolutely.
    Mr. Shays. You knew it was real. So what did the report say 
that I could turn to or you could turn to me and say case 
closed, issued decided?
    Mr. Hansen. We had a sentence which was just referred to, 
it said: Greenhouse gasses are accumulating in the atmosphere 
as a result of human activity, causing surface air temperatures 
and subsurface ocean temperatures to rise.
    It is a very straightforward sentence. It connects cause 
and effect, increasing greenhouse gasses, increasing global 
temperature. That's a very strong statement.
    Mr. Shays. Nothing that says this issue has been decided, 
there's no question about it, and we need to deal with it.
    Mr. Hansen. The report certainly concludes that we need to 
deal with it, yes. There are always aspects of the problem 
which we need to work on more, but this is a very strong 
statement.
    Mr. Shays. It's funny, it doesn't strike me as what I would 
think is a strong statement. What would strike me as a strong 
statement is to say the issue has been decided, there is no 
doubt in our minds, this is the issue, it's caused by humans, 
and we need to get on with it. When I hear that statement, it's 
saying an issue as of fact as if it's, in my judgment, part of 
the problem, but not all of the problem.
    I am left with the belief that climate change, there's no 
debate anymore, and people would say it in a much more 
definitive way.
    Mr. Cooney, how would you respond to my question?
    Mr. Cooney. Congressman Shays.
    Mr. Shays. I want you to talk close to the mic. Both of you 
are not speaking as loud as I would like.
    Mr. Cooney. Congressman, I would refer to you the quotation 
on page 17 which is entitled: The effect of human activities.
    Mr. Shays. Is this in the 2001?
    Mr. Cooney. The June 2001 National Academy Report, and it 
speaks to the connection to human activities and it says: 
``because of the large and still uncertain level of natural 
variability inherent in the climate record and the 
uncertainties and the time histories of the various forcing 
agents, particularly aerosols, a causal linkage between the 
buildup of greenhouse gasses in the atmosphere and the observed 
climate changes during the 20th Century cannot be unequivocally 
established.''
    It goes on to say that--
    Mr. Shays. Dr. Hansen, is that just designed to confuse 
people like me or is that designed by--sounds like an Alan 
Greenspan statement.
    Mr. Cooney. Congressman, I had it before me, and I did it 
at my desk when I was at the White House, it talked about major 
uncertainties with respect to clouds, aerosols, the natural 
carbon cycle, the natural water cycle, the difference between 
temperature record at the surface and in the troposphere that 
was measured by satellites.
    It talked about the lack of a global integrated observation 
system. A lot of the southern hemisphere was not really 
routinely observed in a climate sense in a long-term sense in 
manners and using methodologies that are consistent with the 
way climate is measured--
    Mr. Shays. How do you respond to that, Dr. Hansen?
    Mr. Hansen. If you pick out individual phrases or sentences 
and compare them, you need to really look at the entire report. 
It was a report which made a very strong statement. The White 
House had asked for a clarification because they were uncertain 
as to whether they should accept the IPCC document. There were 
some people who were questioning the validity, the accuracy of 
the IPCC report.
    I believe that was a primary reason for requesting the 
National Academy to look at the problem. They came out with 
quite a clear statement.
    Mr. Shays. My time has run out. Let me just ask Mr. Cooney 
just to finish his comment.
    Mr. Cooney. Congressman, at page 22 of the report, on the 
IPCC report, when it spoke to it, it said: Climate projections 
will always be far from perfect. Confidence limits, 
probabilistic information with their bases should always be 
considered. Without them, the IPCC summary for policymakers 
could give an impression that the science of global warming is 
settled, even though many uncertainties still remain.
    That is language from the National Academy Of Sciences.
    Mr. Shays. I'll conclude. Dr. Hansen, I'm not a scientist, 
but when I hear that I am not left with a report that says no, 
debate is over.
    Mr. Hansen. No, depends on what you mean by debate is over. 
The fact that greenhouse gasses are increasing and the world is 
getting warmer and there is a causal connection between them, 
that debate is over.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you all for 
your testimony here today. Mr. Deutsch, I'd like to followup a 
little bit on the questions that were asked of you earlier. As 
I understand, you were a public affairs officer at NASA.
    Mr. Deutsch. Yes, sir.
    Mr. Van Hollen. And when you arrived at NASA did you have 
any expertise in the area of global climate change?
    Mr. Deutsch. No, sir.
    Mr. Van Hollen. Would you agree that the American people 
should have the benefit of the best scientific views within the 
government with respect to climate change?
    Mr. Deutsch. Sure.
    Mr. Van Hollen. Who ultimately paid your salary there, our 
salaries, everyone's salaries in public service?
    Mr. Deutsch. That would be the taxpayers, sir.
    Mr. Van Hollen. Would you agree that given that big 
investment that they make in our scientific investigation that 
again should have the very best giving them their opinions on 
this issue?
    Mr. Deutsch. Sure.
    Mr. Van Hollen. Now I want to look at this issue of sort of 
the political apparatus sort of governing who can say what with 
respect to the science on global climate change and I want to 
look through this lens of this NPR interview which you 
mentioned before. We have a couple e-mails with respect to the 
back and forth in the political apparatus with respect to how 
that decision was made. I don't know if we're going to put them 
on the screens or you have copies of them in front of you.
    If you could make sure that the witness has copies of these 
e-mails from you.
    An e-mail request came in from NPR to Dr. Hansen's office, 
is that right?
    Mr. Deutsch. Yes, yes. Then they sent it to us.
    Mr. Van Hollen. As you said today in your testimony, you 
then discussed that request for an interview with the ``9th 
floor,'' as you describe it in this e-mail of December 8th. 
It's on the second page of your packet at the top. We discussed 
it on the 9th floor.
    And it was decided that we would like you to handle this 
interview; you, referring to Colleen, right?
    Mr. Deutsch. Yes, sir. Colleen and also Ms. Cleave and Mr. 
Kaye were all considered.
    Mr. Van Hollen. My question is who was it that you 
discussed this with on the 9th floor and made the decision it 
would not be Dr. Hansen?
    Mr. Deutsch. Specifically that would be Press Secretary 
Dean Acosta.
    Mr. Van Hollen. So the 9th floor was the press secretary.
    Mr. Deutsch. That 9th floor, that's sort of NASA slang for 
senior leadership at headquarters; they're all on the 9th 
floor. The head of public affairs as well.
    Mr. Van Hollen. But you meant him specifically in this e-
mail?
    Mr. Deutsch. Yes. Yes, sir.
    Mr. Van Hollen. There's another e-mail on the next page 
that talks about our main concern is ``hitting our messages and 
not getting dragged down into any discussions we shouldn't get 
into.''
    What were you worried that Dr. Hansen was going to get into 
with respect to the science of global climate change?
    Mr. Deutsch. I wasn't worried about anything. Dr. Hansen 
would say about the science of global climate change. We had 
some media practices that we'd been using up to this time that 
I think even Dr. Hansen would tell you he didn't always follow, 
and so I think that was a concern that the 9th floor had.
    Mr. Van Hollen. It wasn't his immediate--if you go up to 
the e-mail above that, it says when asked how you're going to 
describe to Dr. Hansen, why he shouldn't be doing this 
interview, according to Costa they say right here: Tell them 
your boss wants to do.
    His boss was Colleen, right? They didn't ask to do this. In 
other words, Costa said go ask them to do it. Isn't that the 
way it happened?
    Mr. Deutsch. Yes, sir.
    Mr. Van Hollen. So it wasn't that his bosses wanted to do 
it, it was the top press people said we don't want Dr. Hansen 
to do this interview, isn't that right?
    Mr. Deutsch. It was just Dean who said that and again that 
was because we'd had some practices that he had not always been 
following as far as reporting the interviews etc., and those 
were some of his frustrations he relayed to me. We did have a 
practice known as the right of first refusal in which the 
senior people could do these interviews.
    Mr. Van Hollen. Right. But the decision was made at the top 
by the press people that he wouldn't be doing that, isn't that 
right?
    Mr. Deutsch. In this one case, yes, sir.
    Mr. Van Hollen. In fact, one looks like Mary and Colleen 
are not sure they even want to do it. The point is you made a 
decision at the top press level that you didn't want Dr. Hansen 
to be giving this interview because you were concerned about 
hitting your message and you were concerned Dr. Hansen wasn't 
going to hit your message, isn't that right?
    Mr. Deutsch. I can't speak for the former press secretary, 
you'd have to ask him about that. But that was what was relayed 
to me, sir.
    Mr. Van Hollen. It's your words here, hitting your message. 
Isn't that right?
    Mr. Deutsch. Yes, sir.
    Mr. Van Hollen. Isn't this the definition of political 
minding of an expert. In other words, were any of the people 
you were offering up more of an expert on global climate change 
than Dr. Hansen?
    Mr. Deutsch. I don't know as far as their level of 
expertise. I know the head of NASA's science mission 
directorate and the second in line are some pretty good people 
to get offered an interview with, I would say.
    Mr. Van Hollen. Dr. Hansen, is there anybody else at NASA, 
or any of these other individuals they were proposing for the 
interview, people who had more expertise in the science of 
global climate change than you?
    Mr. Hansen. Well, I'm not going to denigrate anyone.
    Mr. Van Hollen. I'm not asking you to denigrate, I'm 
talking about in terms of experience.
    Mr. Hansen. In terms of experience, no.
    Mr. Van Hollen. As you look at these e-mails and based on 
your concerns at the time, doesn't this appear to be a perfect 
example of exactly the concern that you have raised, which is 
political interference in the ability of scientists who are 
paid for by funds from taxpayers to be able to present a 
factual account of global climate change.
    Mr. Hansen. Absolutely. The thing is, this is, however, a 
very rare case of where you have it on paper. It's going on all 
the time, but most of the people doing that are more 
experienced than George was, and they won't make the mistake of 
putting the thing on paper like that.
    I pointed out, for example, that press releases were going 
to the White House, science press release were going to the 
White House for editing. But the process, they're careful not 
to have memos like this that describe the process.
    It's very unfortunate. We developed this politicalization 
of science. As I mentioned in my opening comments, public 
affairs offices should be staffed by professionals, not by 
political appointees, otherwise they become offices of 
propaganda.
    Chairman Waxman. Thank you, Mr. Van Hollen. Your time has 
expired.
    Mr. Issa.
    Mr. Issa. Thanks, Mr. Chairman. Following up--
    Chairman Waxman. We're proceeding with the second round.
    Mr. Issa. Mr. Deutsch, maybe I'll start with you. You 
couldn't seem to come up with an answer to that question of 
related to anything in the way of disliking the Bush 
administration or being political for Dr. Hansen. Are you aware 
that Dr. Hansen has called the Bush press office the office of 
propaganda, or, ``It seems more like Nazi Germany or the Soviet 
Union than the United States.''
    Are those the kinds of comments you might have been 
referring to when you were frustrated. Were you aware of those 
comments?
    Mr. Deutsch. Yes, sir, we were aware of those comments, and 
those are unfortunate.
    Mr. Issa. I appreciate your candor. I'm sorry you didn't 
come up with those in real-time, because I think that does go 
to the question of your youthful indiscretions in perhaps, in 
how you handled the senior scientist. I think you have owned up 
to maybe not being up to the job.
    Dr. Hansen, are those kind of comments appropriate for 
somebody who's been on the Federal payroll, who's had your 
science paid for for 3 decades? Are those appropriate things to 
say about the Bush administration?
    Mr. Hansen. I think that it was--that was in reference to 
the fact that scientists were being asked to not speak to 
reporters, to report before--to tell reporters I can't speak to 
you, I have to get permission, and I have to get someone on the 
phone with me to listen in on the conversation. That's getting 
to seem a lot like the old Soviet Union to me.
    Mr. Issa. The reference to Nazi Germany because they want 
to have somebody who's able to say that the doctor did or 
didn't say this to a reporter when it later comes out in print, 
is that Nazi Germany? Nazi Germany, I think, is a pretty strong 
statement, wouldn't you say?
    Mr. Hansen. I was referring to the constraints on speaking 
to the media.
    Mr. Issa. Dr. Hansen--
    Mr. Hansen. It violates the constitution, freedom of 
speech.
    Mr. Issa. Dr. Hansen, first of all, when you work for 
somebody, the question of when you will speak on behalf of that 
entity is not a constitutional question, as you and I both 
know. You were not being asked by public broadcasting because 
you happened to be a smart guy with a good suit, you were being 
asked because of your position at NASA.
    Now I come back to this again--
    Mr. Hansen. I don't believe that's the case.
    Mr. Issa. You have over 1,400 opportunities that you have 
availed yourself to, and yet you call it being stifled. I'm 
thrilled--
    Mr. Hansen. Those cases occurred after the NASA 
administrator stepped forward and said I should be allowed to 
speak, not before. If you look at some of those memos, you will 
find that they were intent on me not speaking.
    Mr. Issa. Dr. Hansen, you're saying if I went back to 2001, 
2002, 2003, 2004, that I would find dramatically less quotes 
from you?
    Mr. Hansen. In many cases--
    Mr. Issa. Please. Just would I find dramatically less, yes 
or no.
    Mr. Hansen. You would find less. I don't know how you 
define dramatically.
    Mr. Issa. 1,400 quotes. Would I find that you were only 
allowed to speak once, twice, five times, 50 times?
    Mr. Hansen. I'm an American and I exercise my right of free 
speech. If public affairs people tell me I can't do that and I 
know that they're violating the constitution, I ignore them.
    Mr. Issa. Dr. Hansen, isn't it true that when you speak, 
you're speaking on Federal paid time, when you travel, you're 
being paid by the Federal Government to travel. Isn't that 
true.
    Mr. Hansen. Not always.
    Mr. Issa. Isn't it normally true?
    Mr. Hansen. Normally it is, yes.
    Mr. Issa. So your employer, and your employer happens to be 
the American taxpayer, but they're sending you at government 
expense to these speaking engagements.
    Mr. Hansen. That's exactly the point. I should be able, for 
the sake of the taxpayers, I should be able to--they should be 
availed of my expertise. I shouldn't be required to parrot some 
company line. I should give the best information I have.
    Mr. Issa. Dr. Hansen, it's very clear that you do say what 
you believe each time you speak.
    Let me--do you want to put that up on the board, the demo.
    Dr. Hansen, you speak, and you speak everywhere regularly, 
and you speak on the Federal dollar. I guess my question is do 
you think that, in fact, the thousands of scientists all over 
NASA should have that same right to travel places and speak.
    Before you answer that let me ask a question because I 
appreciate public broadcasting, but is every speaking 
engagement the one that should be appropriately having Dr. 
Hansen on it. Isn't it true that when you're speaking to the 
general public often somebody who's a perfectly good speaker, 
knows a lot less about the science would be equally good to 
answer the basic questions of climate change?
    Mr. Hansen. Sure. I welcome that. I accept only a very 
small fraction of the invitations. It's impossible. I would 
rather do science. That's always been my preference.
    Mr. Issa. Thank you. Mr. Chairman, if I could just close 
here.
    Dr. Hansen, I appreciate the science you do, I appreciate 
the work you have done for a very long time and I hope you 
continue doing it. I would only say that I hope that the 
$250,000 you took from the Heinz Foundation, the campaigning 
you did for Senator Kerry for his Presidential race, doesn't 
influence your chafing at this administration any differently 
than it might for the next administration and that your effort 
to get more dollars for climate change is done in a 
constructive fashion under the rest of this administration and 
the next.
    I yield back.
    Chairman Waxman. I think the gentleman is smearing Dr. 
Hansen.
    Mr. Issa. Are you moving--
    Chairman Waxman. I think you're smearing Dr. Hansen's 
reputation when you allege that he's an activist Democrat and 
got that award, the Heinz Award because he's a Democrat.
    Mr. Issa. Mr. Chairman, are you making a motion?
    Chairman Waxman. I'm not making a motion, I'm making a 
comment.
    Mr. Issa. Are you recognizing yourself?
    Chairman Waxman. Well, I will recognize you. I think you're 
smearing him. Do you want to comment on that?
    Mr. Issa. Yes, Mr. Chairman.
    Chairman Waxman. I think you're being unfair to him.
    Mr. Issa. Mr. Chairman, I hope that this gentleman's 
political activism which is well defined is not, in fact, 
affecting his ability to recognize that this Congress, on a 
bipartisan basis, has funded a great deal of the research, with 
over 1,400 appearances in that year, and I have no doubt nearly 
the same for each of the previous years, that Dr. Hansen, in 
fact, in his effort to get more money for climate change, which 
I commend, would recognize that in every administration, he's 
going to have the same chafing and that it not be chafing more 
at the Bush administration, which he clearly dislikes.
    You don't compare the Bush administration to Nazi Germany, 
and I'm sure the chairman would agree, that you do not compare 
anyone to Nazi Germany unless you have real problems beyond 
just disagreement on policy.
    Mr. Hansen. Could I correct his statement and comment on 
them? First of all, I am not a Democrat, I'm a registered 
Independent.
    Mr. Issa. The chairman called you a Democrat, not me.
    Mr. Hansen. Second, the time when I said I was going to 
vote for John Kerry, I actually said I would prefer to vote for 
John McCain but he's not on the ballot, and then I explained 
the reason that I would vote for John Kerry was because of my 
concern about climate change and the fact that it was not being 
addressed by the Bush administration. And I thought that Kerry 
would do a better job with that. It had nothing to do with 
politics. In fact, I have often said my favorite politician was 
John Heinz, who was a Republican and who gave equal weight to 
economic considerations and environmental considerations, and 
it was a great tragedy when he lost his life in a small plane 
crash.
    The Nazi Germany thing was completely with regard to--had 
nothing to do with President Bush; it was the constraints on 
scientists, their ability to speak to the public and to the 
media. And when you tell scientists that they can't speak, 
they've got to hang up on the reporter and report this and 
allow the right of first refusal so someone else can speak for 
you, it doesn't ring true. It's not the American way. And it 
was not constitutional.
    Chairman Waxman. Thank you, both of you. Let me take my 
time here.
    Dr. Hansen, have you had any examples of people working in 
the public relations office within this administration that 
wanted to help you further as leading scientist in this global 
warming the field the opportunity to talk about the issue?
    Mr. Hansen. Well, you know, there actually are lots of 
opportunities to speak to the public, and the hard thing is to 
keep enough time to do science.
    Chairman Waxman. You didn't think Mr. Deutsch any time was 
trying to help you get your views out.
    Mr. Hansen. No, they didn't.
    Chairman Waxman. Let me go on to other things in the time I 
have. Mr. Cooney, I guess what we're trying to figure is 
whether what drove the policy and is driving the policy of this 
administration on global warming and climate change is the 
science or whether it's something called the politically 
correct science. And as I look at the edits that you proposed, 
I think there were--
    Mr. Cannon. Mr. Chairman, may I ask.
    Chairman Waxman. The gentleman is out of order.
    Mr. Cannon. Mr. Chairman, did you recognize yourself for 
additional 5 minutes before the rest of the panel has the 
chance to question for 5 minutes.
    Chairman Waxman. No, I did not. I recognized Mr. Issa first 
for the second round.
    You proposed 181 edits to the strategic plan, 113 edits to 
the other global warming reports, there are 3 reports. I guess 
what I am trying to find out is whether all of your proposed 
edits moved in one direction, which was to increase uncertainty 
in global warming science. Would that be a fair statement or an 
unfair statement?
    Mr. Cooney. I think the fair statement would be that my 
comments were aligned with the findings of the National Academy 
of Sciences in June 2001 as emphasized by the President in his 
policy book in chapter 3 on June 11, 2001.
    Chairman Waxman. Mr. Cooney, you had a senior position at 
the White House, but there were officials at the White House 
who were more senior to you. Your immediate boss was James 
Connaughton, chairman of the White House Council on 
Environmental Quality. Was Mr. Connaughton aware of your role 
in proposed edits for climate change reports?
    Mr. Cooney. He knew that they were reviewing reports as 
they came in ordinarily from OMB for review.
    Chairman Waxman. Did he personally review your edits?
    Mr. Cooney. No, not most.
    Mr. Issa. Mr. Chairman, his boss is behind him and 
available.
    Chairman Waxman. Excuse me, I have the time. I didn't 
interrupt you. I waited until you finished and then I 
interrupted you.
    Did you discuss the edits with him?
    Mr. Cooney. No, not ordinarily.
    Chairman Waxman. Did he give you any instructions about how 
any of these three documents should be edited?
    Mr. Cooney. No. He understood that my objective was to 
align these communications with the administration's stated 
policy.
    Chairman Waxman. And the administration's stated policy was 
different than what the scientists were saying in those 
documents.
    Mr. Cooney. It wasn't even scientists who were saying it in 
these documents. It could have been budget people from the 
agencies who were just drafting up reports, what they wanted to 
see in next year's budget. The material was not a platform for 
the presentation of original scientific research. These were 
budgeting and--
    Chairman Waxman. These were statements of science that you 
changed, recommended changes.
    Mr. Cooney. Well, they came from Mr. Pills himself, who was 
an editor who said he received summaries from agencies.
    Chairman Waxman. Sounds like yours.
    Mr. Cooney. It's not clear they derived to scientists about 
what I reviewed.
    Chairman Waxman. Let me go on. Were other officials in the 
White House besides Mr. Connaughton and others on the CEQ staff 
with whom you discussed climate changes, in other words, were 
there other people in the White House, not just people at the 
CEQ?
    Mr. Cooney. Absolutely.
    Chairman Waxman. Who were the other people at the White 
House outside of CEQ that you discussed this with?
    Mr. Cooney. It really depends upon the issue, but the 
Office of Science and Technology Policy obviously led by Dr. 
Marburger; Kathy Olsen was the Senate-confirmed director for 
science, and she had a leadership role.
    Chairman Waxman. How about Andrew Card? Did you ever have a 
conversation with Andrew Card about it?
    Mr. Cooney. I did not.
    Chairman Waxman. How about Karl Rove?
    Mr. Cooney. I did not.
    Chairman Waxman. Kevin O'Donovan? Do you know who he is?
    Mr. Cooney. Yes. He was a staff person in the Office of the 
Vice President, and he and I would speak on occasion. He had 
the portfolio for energy and natural resources and environment 
issues, as I understood it.
    Chairman Waxman. What did you talk to him about?
    Mr. Cooney. He was a colleague in the White House. He was a 
colleague and we would talk occasionally as a lot of us would 
talk occasionally, pick up the phone, talk about different 
things. We were all going to a lot of the same meetings in some 
cases.
    Chairman Waxman. So you had numerous conversations with 
him?
    Mr. Cooney. Sure. As I did with people in OSTP, OMB, the 
Council of Economic Advisors. All of the White House offices, 
really. The domestic policy council.
    Chairman Waxman. When you talked to Mr. O'Donovan, were 
they in the Vice President's office or your office?
    Mr. Cooney. We usually spoke by phone, really. Our offices 
are on Lafayette Square in townhouses and his office is 
obviously in the Eisenhower executive office building.
    Chairman Waxman. Did the Vice President's office, Mr. 
O'Donovan or anyone else give you any directions as to what 
they thought you ought to be doing?
    Mr. Cooney. No, not directions. We would compare notes. We 
would consult as colleagues, but I didn't receive direction 
from them. It was really, if you look at how internal White 
House documents are approved, for example, the Office of the 
Vice President reviews it independently, CEQ, OMB, the Council 
of Economic Advisors, the Office of Science and Technology 
Policy, each office independently reviews communications, and 
so we had an independent role for review, they had an 
independent role.
    Chairman Waxman. Did they ever suggest to you that there 
may be some value in highlighting the uncertainty of some of 
these global climate change issues?
    Mr. Cooney. I don't recall specific conversations. We would 
talk about matters that were pending. The development of the 
10-year strategic plan obviously was occurring in the spring of 
2003. They were a reviewing office. We would have had 
conversations. But I don't remember specifically what was said.
    Chairman Waxman. Thank you. Mr. Cannon.
    Mr. Issa. Mr. Chairman, I would ask unanimous consent that 
Mr. Cannon have 10 minutes. It would sort of balance the time.
    Chairman Waxman. I don't know that it would balance the 
time. But let's do it. There are more Democrats here.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Waxman. Unless anybody is going to ask for 10 
minutes for someone else. Mr. Shays might say he's entitled to 
more time.
    Mr. Shays. What is my member suggesting?
    Chairman Waxman. Mr. Souder might think he should have more 
time. I think they're complaining that I spoke too much without 
the timer on. Isn't that right?
    Mr. Issa. Mr. Chairman--
    Chairman Waxman. When I reacted to what I thought was a bit 
of a smear.
    Mr. Issa. I was just talking about your 5 minutes you spoke 
at random, really about 8.
    Chairman Waxman. I think I have been fair. I have let some 
Members run over and I think I've tried to be as fair as 
possible. I don't interrupt people while there's an answer 
being given.
    Mr. Issa. I appreciate that.
    Chairman Waxman. The gentleman is recognized for 5 minutes. 
Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. By the way, I 
appreciate the fairness. This really has to be about getting 
information and understanding and not so much wrangling.
    Dr. Hansen, in the process here, I'm learning to understand 
you, I think, a little better, and I actually think you're very 
straightforward. Mr. Cooney obviously thinks very highly of you 
and your science.
    You indicated here you prefer Senator McCain for President, 
would have preferred him in 2001. You supported Kerry because 
of his positions, I believe you indicated, on the environment. 
But the guy you would really most like to support is Senator 
Heinz. Seems to me the most important thing in your political 
life is how people are dealing with this threat to the world 
that might derive--
    Mr. Hansen. That was one of the two factors. The other one 
that I pointed out is obviously in spades today and that is the 
need for campaign finance reform. Senator McCain has made 
efforts at that, and they haven't, as you know, been fully 
successful. I think we really need to solve that problem and 
then we'll have a lot easier time.
    Mr. Cannon. That one might be more difficult to solve than 
global warming. That said, you talked about the government 
being evil or you talked about Nazi Germany, which I take it 
you view as meaning that this what you later described as 
constraints on scientists speaking, I take it you view that 
constraint as evil.
    Mr. Hansen. Yes. You know, you have heard of our first 
amendment. This is the United States and we do have freedom of 
speech here.
    Mr. Cannon. Of course, Mr. Issa has pointed out that you 
have a lot of opportunity to speak, the question is where the 
burden of your duty with the government should constrain and go 
through a process as opposed to what you do in the rest of your 
life.
    Now, what I understand here is that your greatest concern 
here is you don't want constrained the ability of scientists to 
help bridge--I think you referred to bridging the gap of 
understanding by the public of how great the threat of climate 
change is.
    Mr. Hansen. Right.
    Mr. Cannon. That's not equivocal on your part.
    Mr. Hansen. As I mentioned, I think the public is not yet 
fully informed about the dangers.
    Mr. Cannon. Any attempt to interfere with your ability to 
tell the public about that is evil and would be represented by 
a Nazi Germany-type approach.
    Mr. Hansen. No. I was referring to the constraints on free 
speech.
    Mr. Cannon. That's right, but the free speech you're most 
concerned about, indicated by your politics and by your other 
statements, is about climate change.
    Mr. Hansen. There's no politics.
    Mr. Cannon. You talked about Mr. McCain and Mr. Kerry and 
Mr. Heinz all being attractive. Let me finish my question 
because I want you to respond. You support those people largely 
because of their position on climate change, with the exception 
of Mr. McCain who you support also because of his views on 
funding of politics. Isn't it true that the most motivating 
factor here is the science of climate change?
    Mr. Hansen. No, no. I have the same rights as all 
Americans.
    Mr. Cannon. We're not talking about your rights, we're 
talking about what you're characterizing as evil.
    Mr. Hansen. I was characterizing as evil the constraints on 
free speech. That's all.
    Mr. Cannon. On all free speech or just on free speech 
related to climate change and you?
    Mr. Hansen. Any free speech.
    Mr. Cannon. In other words, what I want to know, you view 
people on the other side of the climate change argument as 
evil?
    Mr. Hansen. No, no I have never said that.
    Mr. Cannon. You did call those people Nazi Germany.
    Mr. Hansen. You have taken out of context a statement about 
the constraints on free speech. It had nothing to do with 
personalities.
    Mr. Cannon. But it had everything to do with debate.
    Mr. Hansen. Of any particular people.
    Mr. Cannon. It had everything to do with the debate on 
global warming and you've got people today characterizing Mr. 
Cooney as a bad person because he was hired by API before he 
went to the CEQ.
    Mr. Hansen. Did I characterize him?
    Mr. Cannon. No, you have people in this town doing that.
    Mr. Hansen. Then you should ask them about that.
    Mr. Cannon. No, we're not bantying words here. The question 
is, are you mostly concerned about climate change and your 
ability to talk about that, and you characterize as people on 
the other side of the argument as evil because they're 
confusing the issue as you said earlier.
    Mr. Hansen. I have never done that. I don't know where you 
get this.
    Mr. Cannon. I think I'm quoting you pretty much directly.
    Mr. Hansen. I didn't characterize anybody as evil.
    Mr. Cannon. I used the characterization of evil, you used 
the characterization of Nazi Germany, which most Americans view 
as equivalent to evil in our society.
    Mr. Hansen. I was referring to the constraints on free 
speech, not to a person.
    Mr. Cannon. The constraints on free speech, not what?
    Mr. Hansen. I was referring to the constraints on free 
speech, not to a person.
    Mr. Cannon. Except that you're blaming the constraints as 
coming from this administration by way of policy. In fairness, 
you characterized this as a developing issue over a series of 
administrations, not just this one, in your earlier statements. 
But you were characterizing this administration as being like 
Nazi Germany, and those reflected a view that what is going on 
is evil. Now you're trying to narrow that evil to the 
constraints on speech, not to your constraint on speech about 
climate change.
    Mr. Hansen. I was referring to constraints of free speech 
of government scientists, which is not confined; not confined 
to me. I referred specifically to some of my colleagues and in 
other agencies like NOAA and EPA.
    Mr. Cannon. How about other issues other than climate 
change?
    Mr. Hansen. I don't have--yeah, in fact, I have been told 
about National Institutes of Health scientists who have felt 
very constrained on their ability to speak freely. I think this 
is dangerous in our politics.
    Mr. Cannon. If the chairman would just indulge me. We pay--
we tax people, we take money out of the pockets of Americans 
and we give it to scientists, and we ought to, at least, direct 
where that science goes. The difference between directing where 
our science goes and what we search and free speech is not a 
simple thing and is subject to direction by policy.
    Thank you, Mr. Chairman. I yield back.
    Chairman Waxman. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. Mr. Cooney, are you 
familiar with a memo that you sent to Kevin O'Donovan of the 
Vice President's office of April 23, 2003. I'll try to remind 
you, the subject the Soon and Baliunas paper on global climate 
change.
    Mr. Tuohey. Excuse me, Mr. Chairman. We've not seen the 
memo. We would like to see a copy of it before any answers are 
given. We were assured we would receive all documents before 
questions were advanced. Can we see it, please?
    Mr. Boling. Excuse me, Mr. Chairman. As the chairman--
    Chairman Waxman. Could you identify yourself.
    Mr. Boling. Yes. I'm Edward Boling, deputy general counsel 
for the Council of Environmental Quality. I would simply notify 
the chairman that the document in question as referenced in 
Chairman Connaughton's February 9, 2007 letter to this 
committee reciting Executive Privilege--Executive Office of the 
President, excuse me, correct myself, sensitivities with regard 
to that document. It is an internal document from the council 
on environmental quality to the Office of the Vice President.
    Chairman Waxman. This is a document that was requested by 
this committee, isn't that correct?
    Mr. Boling. Yes, Your Honor. It is one--yes, Mr. Chairman.
    Chairman Waxman. You can call me Mr. Chairman.
    Mr. Boling. It is one of--not my usual court of practice. 
It is one of the documents referenced in the chairman's request 
of CEQ on February--
    Chairman Waxman. So this document is being withheld based 
on Executive Privilege, is that what you're asserting?
    Mr. Boling. Mr. Chairman, with all due respect, the 
document has not been provided to the committee. We have not 
made any affirmative decision with regard to its withholding. 
However, it is subject of our ongoing efforts to accommodate 
this committee's needs, and it has been shown to committee 
staff as part of that accommodation and its status is part of 
our ongoing discussions of its status and whether we would 
provide it to the committee as part of this rolling document 
production.
    Chairman Waxman. I thank you for that clarification.
    We don't have a document to show you, Mr. Cooney, but the 
gentleman is recognized to pursue whatever questions he wants 
to pursue.
    Mr. Yarmuth. Thank you, Mr. Chairman. I will proceed to 
read excerpts of this. This, again, is a memo from you to Kevin 
O'Donovan of the Vice President's office: The recent paper of 
Soon-Baliunas contradicts a dogmatic view held by many in the 
climate science community that the past century was the warmest 
in the past millennium and signals of human-induced global 
warming.
    Then you say: We plan to begin to refer to this study in 
administration communications on the science of global climate 
change. In fact, CEQ just inserted a reference to it in the 
final draft chapter on global climate contained in EPA's first 
state of the environment report.
    Then you go on to say: It represents an opening to 
potentially invigorate debate on the actual climate history of 
the past 1,000 years.
    The Soon-Baliunas paper is a public document, is that 
correct?
    Mr. Cooney. Yes, Congressman.
    Mr. Yarmuth. It was funded by the API, is that correct?
    Mr. Cooney. It was funded by NASA, NOAA, the Air Force, and 
I understood 5 percent funded by the American Petroleum 
Institute.
    Mr. Yarmuth. So API was a partial funder of this report 
which you have inserted into--you said you have inserted into 
this report that we are discussing to invigorate the debate.
    Let me continue to discuss the EPA's report on the 
environment and have you, if you will, turn to exhibit F. Would 
you say that your role--you have already said earlier that your 
role was to advance the administration's policies. That was 
your sole role.
    But in terms of handling information and making the edits 
that you have made, how would you characterize--would you 
characterize that you were, and forgive me for using this term, 
trying to reflect a fair and balanced perspective on what the 
science on climate change is?
    Mr. Cooney. I would say that's exactly what my objective 
was, to be fair and balanced.
    Mr. Yarmuth. Thank you. This document, exhibit F, is the 
EPA's staff report to Christine Todd Whitman. On page 2 of this 
document it says: The text--these are after your recommended 
suggestions, edits--the text no longer accurately represents 
scientific consensus on climate change. A few examples are 
conclusions of the NRC are discarded, multiple studies indicate 
recent warming is unusual, the thousand year temperature record 
is deleted, and emphasis is given to a recent limited analysis, 
I think there is a word missing, that supports the 
administration's message. Natural variability is used to mass 
scientific consensus that most of the increase is likely due to 
human activity.
    Then it goes on to say: Numerous technical details 
incongruous with the rest of the report on the environment make 
the section confusing and seem more uncertain rather than 
presenting balanced conclusions about what scientists do and do 
not know.
    Are you concerned at all that career professionals at EPA 
thought that these edits actually were so biased that 
incorporating them would make the report scientifically 
inaccurate?
    Mr. Cooney. Congressman, the memorandum refers to comments 
not only provided by CEQ but provided also by the Office of 
Science and Technical Policy, the Office of Management and 
Budget, the Department of Energy, the Council of Economic 
Advisors. A lot of offices had concern with not only the way 
EPA was characterizing climate change in a 4-page summary, we 
were also concerned, I think, at the same time that the 10-year 
strategic plan was being developed and there had been a 1,300 
person workshop in December 2002 at which scientists from 40 
countries came and commented on the 10-year strategic plan.
    We thought that was a fuller--Dr. Marburger has spoken to 
this publicly, and you would get his statement from OSTP, he's 
the director, but he thought, I think, and he has said in the 
aftermath that a fuller exposition of the science of climate 
change was in the 10-year strategic plan and in the end the 
state of the environment report referred people to the 10-year 
strategic plan, which was several hundred pages. It was a much 
more complete exposition of climate change than the 4-page 
summary that went back and forth between EPA and reviewing 
agencies.
    Mr. Yarmuth. I'll concede that you were only partially 
culpable for these changes that EPA criticized, but my question 
was aren't you concerned that the EPA professional staff 
thought that this report as edited by you and others portrayed 
a scientifically inaccurate perspective on climate change.
    Mr. Cooney. I would say a few things; I'll answer your 
question, of course, first. Yes, I am disappointed, and it is a 
concern to me. Second though, we had at the Council on 
Environmental Quality a detailee from EPA who was handling the 
coordination of this state of the environment report. His name 
was Allen Hecht. And he was coordinating comments from 
throughout the Federal Government and within the CEQ and other 
White House offices, and he was really the interface between 
our office and a lot of the commenting offices and the agency 
itself.
    So we had an EPA detailee in our offices at the White House 
coordinating the development of this report. And I would just 
say that the development of this report was not really smooth. 
There were very many--a number of iterations and a lot--I think 
a lot of people felt that EPA was not sufficiently responsive 
in the commenting, interagency commenting process to the 
comments that it was receiving, and it was not just our office, 
as you made clear.
    Mr. Yarmuth. Well, I think, in concluding my time, the 
important point to make is we're dealing with a process here 
and whether or not the process used by this administration 
resulted in information that was useful to the public and was 
honest and accurate and fair and balanced, and in this 
particular case, the process resulted in a document which the 
administrator of the Environmental Protection Agency said was 
not useful and therefore deleted it, therefore the process 
apparently, at least my conclusion, the process was fatally 
flawed in that it ended up producing something that was not 
useful.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Souder.
    Mr. Souder. I thank the chairman. Once again, I want to 
point out that the only Republican witness is isolated and 
sentenced to the third panel of the wilderness, who actually 
controlled similar questions of whether you can speak out when 
your policies disagree with administration with the people who 
are elected, not unelected, and showed that there are 
differences within this agency is isolated to the third panel. 
He disagrees on science, he disagrees and would point out this 
isn't unique to this administration, but apparently in a 
hearing where we're debating whether one side has been 
silenced, it's OK to haul out two Republican witnesses to hound 
and one who has said he supports Kerry and Gore, did support 
apparently a dead Republican, and one who he might have voted 
for if he had actually been on the ballot, but in fact, praised 
Al Gore, praised John Kerry for whatever reasons. That's OK. We 
can discriminate, but on a hearing where there's 
discrimination.
    I would like to point out on this Nazi comparison that Dr. 
Hansen said that part of this, ``is staffed by political 
appointees from the Bush administration; they tried to stop me 
from doing so. I was not happy with that and I ignored the 
restrictions.''
    How do you think Nazi Germany would have reacted to that? 
Would you admit that statement was an overreaction at a time of 
emotion?
    Mr. Hansen. Well, I thought--
    Mr. Souder. Nazi Germany did not allow--
    Mr. Hansen. After making the statement, I did regret the 
Nazi Germany, so in my revision of that document, which was 
published, I changed it to the old Soviet Union because of the 
connotations that come with it.
    Mr. Souder. Do you think Stalin would have let you ignore 
those restrictions and not go to a concentration camp? This is 
ridiculous that you are working--could we put up the video of 
the picture of him speaking.
    Part of our concern here is that the challenge here when 
you have an elected administration where whether you like it or 
not, there is a still a scientific debate, whether that 
scientific debate is sometimes funded by organizations that 
have concerns about one side is another matter.
    Could you read what it says under your name there on the 
television? Can you see that?
    Mr. Hansen. Yeah, it has the organization that I work for, 
NASA Goddard Institute for Space Studies. I can't read the last 
word.
    Mr. Souder. Basically, in your introductions, and when you 
travel you're always a public citizen, just like we are. I must 
say, and I want to say this for the record, I have some 
concerns with the lack of clearance of this administration for 
documents to an oversight committee, and I'm upset that a 
question was asked without that document, but I believe the 
administration should be more forthcoming. I also believe we 
need to give more flexibility for people to speak. But I also 
believe there are times when any elected administration has a 
right to choose and to say there are policy differences, and 
they don't have to uniformly allow everyone to speak in every 
case.
    Now if there's a pattern of misrepresentation and it was 
always silence and you didn't have 1,500 chances to do so, it 
would have been a different challenge, or if, in fact, you'd 
have followed orders, or in fact, you'd gone to a concentration 
camp or silenced to Siberia, which you're not. C-SPAN and other 
agencies are not exactly like Siberia, they are not like a 
concentration camp. This isn't Nazi Germany, it's not the 
Soviet Union. That I do think there are debates and there needs 
to be some caution with that, but I think your overstatements 
are there.
    Furthermore, we have this challenge of Rick Piltz who's not 
a scientist who testified in front of this committee and he 
admits his group is an advocacy group addressing the challenge 
of global climate change, meaning their ideological. It's very 
hard to separate this issue from people who have a vested 
interest in one side or another. And while it's clear global 
warming is occurring, I mean Indiana used to be covered with 
glaciers, and it's clear it's probably growing at an 
accelerating rate and humans are challenging and adding to 
that, I don't think anybody is disputing those, but the 
particular policy conclusions on how it's done have incredible 
political overtones. What are we going to do, just shift to 
China?
    How we do it and how precise that science is does have 
political consequences, and therefore the elected officials do 
have some rights with which to show some of that debate.
    Do you want to respond, Dr. Hansen?
    Mr. Hansen. Sure. I have no problem with that. I do not 
specify policy or attempt to do that. I do try to make clear 
the science that's relevant to policy. What our administrator 
has said is that--and it's impossible in this topic to discuss 
the topic without having some relevance to policy, but I simply 
make clear that if it does touch on policy as my personal 
opinion, I'm not representing the government in that case.
    Mr. Souder. How would you separate that?
    Mr. Hansen. Pardon?
    Mr. Souder. How can you possibly separate your personal 
views on a subject where your professional responsibility is 
this very subject?
    Mr. Hansen. No, I make clear that--some of the implications 
of global warming, it has implications for policy. And, for 
example, one of the things that people need to understand is 
that about a quarter of the carbon dioxide that we put in the 
air is going to stay there forever. I mean more than 500 years.
    And what that means is we cannot burn all of the fossil 
fuels without producing a radically different planet, which 
none of us would like to see, I think, without ice in the 
Arctic and with much higher sea levels and things.
    These things relate to policy because you're going to have 
to do something about it, and there are different things you 
can do, you can capture the CO<INF>2</INF> and sequester it. 
There are different ways to treat this. That's up to the public 
and policymakers to decide that, but I need to make clear to 
them that there are such constraints and they're going to have 
to start to think about that real soon.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Souder. Thank the chairman for your indulgence.
    Chairman Waxman. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Cooney, I would like to ask you about some evidence 
that the White House edited an op ed piece written by then EPA 
administrator Christine Todd Whitman to ensure that it followed 
the White House line on climate change.
    In July 2002, there was an ongoing debate about the Kyoto 
protocols, as you remember. EPA Administrator Whitman wrote a 
piece for Time Magazine about the Bush administration's record 
on global warming, defending it more or less.
    My understanding is that the CEQ did play an active role in 
reviewing and editing administrator Whitman's op ed. For 
example, on July 15, 2002 Sam Thurstrom of the White House 
Council on Environmental Quality distributed a revised version 
of the administrator's piece that contained several significant 
edits. I will direct you to exhibit L.
    According to that document Tom Gibson an associate 
administrator at EPA wrote to Mr. Thurstrom, this is in 
response to the proposed language to be used by Secretary 
Whitman: I can't use the 5 million out of work figure for 
Kyoto. It is based on the EIA report that assumed that no 
trading would be allowed to implement the Kyoto protocol. It 
also is the high end of numbers that were expressed as a range.
    So it's pretty clear that in effect, the high level EPA 
administrator was telling CEQ there was simply no basis to 
assert that 5 million American jobs would be lost. Of course 
that was the heart of the administration pushback on Kyoto. 
This figure is taken directly--Mr. Thurstrom responded that 
figure, the 5 million was taken directly from the President's 
2/14 speech and Jim Connaughton's Senate testimony last week.
    Using merely an abstract dollar figure may not be as 
compelling. My understanding, Mr. Cooney, is you were copied on 
the e-mail, and when you saw the e-mail, did you tell Mr. 
Thurstrom that Administrator Whitman's piece should be not 
required to include an assertion that her own staff regarded as 
baseless, namely this 5 million job loss figure?
    Mr. Cooney. Congressman, I don't recall whether I said 
anything to Mr. Thurstrom or not. I do recall seeing e-mails 
over the weekend where Mr. Gibson responded to Mr. Thurstrom 
and I think was persuaded by what he had written, and I can't 
remember his exact words but they continue in their e-mail 
exchange.
    Mr. Welch. Take a look at exhibit M. In that e-mail Mr. 
Gibson from EPA says that administrator Whitman had made her 
own edits and struck the reference to the 5 million lost jobs. 
And if you turn to exhibit N, this e-mail sent 4\1/2\ later by 
Mr. Thurstrom, he put the 5 million lost jobs figure back in 
the draft.
    Now what they offered as evidence or support for this was 
A, the President said it. I assume you don't believe that if 
the President says something that is not true, that makes it 
true because he's President.
    Mr. Cooney. I don't believe that.
    Mr. Welch. It appears that your staff kept insisting on the 
inclusion of an erroneous statement about the economic 
consequences over the strenuous objection of the EPA.
    Mr. Cooney. Strenuous is your words. E-mails tell half a 
story often. People pick up the phone and call each other. They 
go back and forth, pick up the phone, they'll solve things. I 
don't recall how this was solved. I don't remember it being 
directly involved in how it was solved.
    Mr. Welch. I would agree e-mails tell half the story. What 
I think tells the rest of the story here, its very clear there 
was no solid basis for this 5 million job figure.
    Mr. Cooney. It was from the energy information 
administration 1998 study on the impacts of the Kyoto protocol 
on the United States.
    Mr. Welch. Then you had more current information by your 
own staff that raised substantial questions about the 
legitimacy of that figure.
    Mr. Cooney. Mr. Gibson questioned the figure, but the 
figure comes from the independent statistical agency of the 
Department of Energy, the energy information administration. It 
is independent, it's not politically driven, and it came out 
with a study in 1998 documenting--
    Mr. Welch. Did that study assume that there would be trade 
as was the case under the Kyoto protocols, yes or no.
    Mr. Cooney. I don't recall. Mr. Gibson says that it did not 
assume trading, but I don't recall. I just don't have the depth 
in the study to recall.
    Mr. Welch. In failing to assume trading, which was inherent 
in the Kyoto protocol, was it not without any foundation for 
the conclusion it was pushing?
    Mr. Cooney. I understand Mr. Gibson's comment essentially 
as you're saying, is that the Kyoto protocol had in a written 
form flexibility mechanisms that might bring down the costs of 
complying with Kyoto. There is a record now about those 
flexibility mechanisms, and many of them have not proved 
efficient at bringing down costs.
    Mr. Welch. Here's where it is frustrating on this side of 
the table, and it gets back to what my colleague had spoken 
about before. The American people are entitled to the benefit 
of the clearest science available, correct?
    Mr. Cooney. And economics, from the energy information 
administration, which is independent.
    Chairman Waxman. The gentleman's time has expired. Do you 
want to conclude? Go ahead and conclude.
    Mr. Welch. Well, the conclusion here, Mr. Chairman, is that 
the science that we were getting was pretty good until it was 
altered by folks in the press operation that were changing it 
for political considerations.
    Mr. Cooney. The editorial was really about climate change 
policy, in its whole sense, the President's commitment to 
reduce greenhouse gas emissions intensity by 18 percent. The 
predominant, if you look at the Time Magazine op ed by 
Administrator Whitman, it was not really focused on science so 
much as it was on mitigation of greenhouse gas emissions.
    Chairman Waxman. Mr. Shays.
    Mr. Shays. Thank you. Dr. Hansen, I think that we won't 
have a world to live in if we continue our neglectful ways, and 
so I don't disagree one bit with what you believe and how 
you're expressing it, I just want to state that. Frankly, I 
don't even know if I would have called you to come before this 
hearing, but you're here and so I'm going to deal with what you 
say because I find it puzzling and I find your answers candidly 
inconsistent. It's not ``I got you,'' I'm just trying to 
understand.
    When Mr. Issa asked you a question you didn't want to say 
the imagery to Hitler's Germany was inappropriate, with Mr. 
Souder you did, and now you're saying it's only the Soviet 
Union.
    We have a young man who made a mistake and he said you 
know, I made a mistake and let me get on with my life. What 
puzzles me is that you don't even want to admit a mistake when 
you make them, and you seem to stand up waving the Constitution 
as if somehow you have no restraints at all. I'm an American, I 
can say anything I want.
    I'd like to just ask you about that. The old media policy 
rules were drafted in 1987. Under section 1213-103A instructs 
that all headquarters news releases be issued by the Office of 
Public Affairs media service division, section 1213 also 
requires that press releases originating with field 
installations that is have national significance be coordinated 
with the associate administrator for public affairs. That was 
done in 1987.
    Are you saying that's a policy that shouldn't have existed 
in 1987, shouldn't have existed in 1992, shouldn't exist in 
1998, shouldn't exist in 2002; shouldn't exist?
    Mr. Hansen. I haven't said anything about public affairs 
press releases. They are handling the public affairs press 
releases.
    Mr. Shays. Would you agree that makes sense, that you have 
that?
    Mr. Hansen. Sure.
    Mr. Shays. That means your right to speak out is 
restrained?
    It does. You can't speak out any time you want. Would you 
at least acknowledge that.
    Mr. Hansen. Sure. But do you think that these--
    Mr. Shays. Hold on. There are certain times when you can 
speak out and there are other times you can't speak out, 
correct?
    Mr. Hansen. Probably that is true.
    Mr. Shays. Not probably. It is true. How many people do you 
have working at your institute?
    Mr. Hansen. What do you mean?
    Mr. Shays. How many people do you have working at your 
institute?
    Mr. Hansen. Approximately 120.
    Mr. Shays. And you are the Director.
    Mr. Hansen. Yes.
    Mr. Shays. Do you sometimes edit what they do? Do you 
sometimes question what they say? Do you?
    Mr. Hansen. Sure that is a scientist's job--
    Mr. Shays. That is a scientist's job.
    Mr. Hansen. That is the scientific way, but not--
    Mr. Shays. Does your staff have the right any time they 
want to just say whatever they want about things related to 
their work? You know, I just want to say something.
    Mr. Hansen. Within the--
    Mr. Shays. Before you answer, I want to say to you that 
this is not a game. You are under oath. I want an honest 
answer.
    Mr. Hansen. I have been giving you honest answers, and 
within constraints of what is reasonable, people--I don't try 
to change what somebody is saying.
    Mr. Shays. I didn't ask that question. Do they have the 
right to say anything they want any time they want about issues 
relating to the institute?
    Mr. Hansen. I have never constrained anyone in that--
    Mr. Shays. Do they have the right to? So any employee from 
this point on can speak out, and if anyone comes to me, let me 
say this to you because you are saying this under oath--if any 
of your employees say to you they wanted to say something but 
you said you shouldn't do it or you can't do it, you are under 
oath saying you have never restrained anything from saying 
that?
    Mr. Hansen. I have never restrained anybody.
    Mr. Shays. Let me ask you this. If somebody wanted to issue 
a release saying that global warming is getting worse and worse 
and they work for you, could they say that is so?
    The answer is yes or no.
    Mr. Hansen. Scientists, sure. They can say anything they 
can support.
    Mr. Shays. If someone said that based on my scientific work 
at this institute, I believe that global warming is not getting 
worse an issue, speak to someone at their desk at your office, 
they are allowed to do that?
    Mr. Hansen. Sure, absolutely.
    Mr. Shays. OK. So, you have no policy whatsoever?
    Mr. Hansen. No constraints on scientific statements.
    Mr. Shays. Do you think it is logical for a department 
before you issue a release, to have to submit a release--so 
let's go back to the first point we had.
    You said, in other words, the rules. There are rules. There 
are rules that you seem to agree with drafted in 1987.
    Mr. Hansen. Yes, but those rules don't include, for 
example, that they should go to the White House for editing.
    Chairman Waxman. Gentleman's time has expired. Do you want 
to conclude, Mr. Shays?
    Mr. Shays. I would like more time.
    Chairman Waxman. Wouldn't we all?
    Mr. Shays. Pardon me? In other words, we can't develop the 
idea, so it is pointless to go on.
    Chairman Waxman. Well, that concludes the questioning of 
this first panel and we thank you very much for being here. And 
we look forward to further conversations on these issues.
    I would like to now call forward Mr. James Connaughton, 
chairman of the White House Council on Environmental Quality.
    I want to welcome you to our hearing. Is it Connaughton or 
Connaughton?
    Mr. Connaughton. It is Connaughton. I appreciate that, Mr. 
Chairman. It is the Irish.
    Chairman Waxman. OK. We welcome you to our hearing today. 
Your prepared statement will be in the record in its entirety. 
We would like to ask you if you would to try to limit your oral 
presentation to around 5 minutes. We will have some leniency on 
that. It is the policy of this committee to swear in all 
witnesses, so I would like to ask you to rise and hold up your 
right hand.
    [Witness sworn.]
    Chairman Waxman. The record will indicate that the witness 
answered in the affirmative.
    Mr. Connaughton--Connaughton--
    Mr. Connaughton. Connaughton.
    Chairman Waxman. Forgive me. You can call me Waxman.
    Please go ahead with your oral presentation.

   STATEMENT OF JAMES L. CONNAUGHTON, CHAIRMAN, WHITE HOUSE 
                COUNCIL ON ENVIRONMENTAL QUALITY

    Mr. Connaughton. Thank you very much, Mr. Chairman and 
members of the committee. It is a pleasure to be back before 
you yet again after many appearances. I would notice that Jack 
Marburger, the President's science adviser, was also interested 
in being part of this discussion as he is the senior scientist 
overseeing Federal Government policy, and I am sure he would 
look forward to working with the committee as we go forward, as 
you continue this inquiry.
    Over the last 6 years this administration has relied on the 
advice of scientists from 13 government agencies, from the 
National Academies of Science and, in developing our 10-year 
strategic plan that you heard about today, from scientists from 
36 countries. Now all of this is in an effort to guide Federal 
climate change science, technology research and policymaking.
    As you heard earlier, of particular importance to this 
hearing is in fact the 2001 National Academy of Sciences report 
on climate science commissioned by President Bush. That report 
sets the foundation for what we knew about the climate science 
at that time and what we still needed to know.
    The questions before this committee are not new, including 
those involving CEQ's role in reviewing documents. With respect 
to the 2003 climate change science program's 10-year strategic 
plan, which I am showing you here is about 200 pages long, Dr. 
James Mahoney, who is a PhD scientist and the top official 
overseeing that program, informed the Congress several times 
years ago that he was responsible ultimately for the final 
content of this report.
    To the best of Dr. Mahoney's knowledge, ``no errors were 
contained in the two reports.'' Dr. Mahoney further affirmed 
that edits proposed--affirmed that, ``edits proposed by CEQ did 
not misstate any specific scientific fact.'' Following that, 
the National Academies of Sciences wrote the plan, 
``articulates a guiding vision, is appropriately ambitious and 
is broad in its scope.''
    Now with respect to the 2003 climate budget summary, also 
discussed today, and that's called Our Changing Planet--that is 
about 120 pages--most of the edits recommended by CEQ were 
actually accepted or changed somewhat by the science program 
officials responsible for the document. Only three were not, 
and CEQ would have no objection to the fact that they weren't 
included. Now as to the early two-page drafts on climate in the 
2003 draft report on the environment, this one is more than 600 
pages long. I don't have the technical appendices here. The 
relative few agency comments of interest to some on this 
committee were actually of no importance because the EPA 
Administrator decided to replace the passage with a reference 
directing the public to the two much more substantial reports 
above that came out at the same time. That is these two 
reports. These are huge, hundreds of pages with the entire 
scientific community in consensus on the content of these 
reports.
    Now in any event, in my detailed--in my written testimony 
when you look at the actual comments being proposed by the 
various offices not just CEQ's, most of them either echoed 
nearly verbatim, were appropriately reflective of the substance 
of the 2001 National Academies of Science report on climate 
science.
    Now this is a fact that even a cursory direct comparison or 
even a Google search revealed, and I did it. I Googled one of 
the edits just to see what turned up an expression. The edit 
recommended showed up in numerous science documents, including 
the National Academy of Sciences.
    Finally, the committee's focus on my former chief of staff, 
Mr. Philip Cooney, who you saw here today is misguided. And 
actually I find it a little bit ironic. It was Mr. Cooney who 
is responsible for inviting Dr. James Hansen to the White House 
in 2003 to brief me and other senior officials on advances in 
climate change science. It was a remarkable and important 
presentation. It was Mr. Cooney who is the driving force behind 
working to ensure that Federal Government documents and our 
budgets were actually responsive to the priority research areas 
that Dr. Hansen himself identified along with his colleagues at 
the National Academy of Sciences.
    Now, it is also Mr. Cooney who, precisely because he is an 
expert in the energy sector, who zeroed in on Dr. Hansen's very 
useful policy recommendation about the substantial climate 
change benefits of aggressively attacking methane emissions and 
black soot now, something we can do now. And therefore it was 
Mr. Cooney who became the driving force in creating this 
international methane-to-market partnership, a 19-nation effort 
that is going to remove more than 180 million metric tons of 
CO<INF>2</INF> equivalent emissions from the atmosphere by 
2015. Now this is going to come from oil and gas operations, 
something Mr. Cooney knows something about, and mining, 
something he also knows something about, landfills and 
agriculture.
    And then it was Mr. Cooney in terms of proactive climate 
policy to actually make a difference who helped establish the 
Climate Vision Partnership and who for the first time secured 
industry emission reduction commitments from 14 major energy 
intensive industrial sectors, including the Business Round 
Table.
    I just have to say, I live in two worlds, the world of 
reality and the experience on my job and what I have been 
hearing a little bit here today. Mr. Cooney is among the most 
proactive supporters of both the science enterprise and 
advancing it, but more importantly he was one of the most 
proactive creators of sensible policies built on the science 
that are actually going to help us cut our emissions.
    The totality of this administration's record is one of 
unparalleled funding, openness and inclusiveness in confronting 
the serious challenge of global climate change.
    I think the sum of this is I fear that we are sort of 
losing the forest for the twigs in this discussion. The forest 
is this massive science enterprise. The forest is the massive 
technology investments in which the United States is leading 
the way in attacking global emissions, not just here but 
abroad. And I hope as the committee continues its inquiry we 
can begin to lay that information out on the table.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Connaughton follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.074
    
    [GRAPHIC] [TIFF OMITTED] T7415.075
    
    [GRAPHIC] [TIFF OMITTED] T7415.076
    
    [GRAPHIC] [TIFF OMITTED] T7415.077
    
    [GRAPHIC] [TIFF OMITTED] T7415.078
    
    [GRAPHIC] [TIFF OMITTED] T7415.079
    
    [GRAPHIC] [TIFF OMITTED] T7415.080
    
    [GRAPHIC] [TIFF OMITTED] T7415.081
    
    [GRAPHIC] [TIFF OMITTED] T7415.082
    
    [GRAPHIC] [TIFF OMITTED] T7415.083
    
    [GRAPHIC] [TIFF OMITTED] T7415.084
    
    [GRAPHIC] [TIFF OMITTED] T7415.085
    
    [GRAPHIC] [TIFF OMITTED] T7415.086
    
    [GRAPHIC] [TIFF OMITTED] T7415.087
    
    [GRAPHIC] [TIFF OMITTED] T7415.088
    
    [GRAPHIC] [TIFF OMITTED] T7415.089
    
    [GRAPHIC] [TIFF OMITTED] T7415.090
    
    [GRAPHIC] [TIFF OMITTED] T7415.091
    
    [GRAPHIC] [TIFF OMITTED] T7415.092
    
    [GRAPHIC] [TIFF OMITTED] T7415.093
    
    [GRAPHIC] [TIFF OMITTED] T7415.094
    
    Chairman Waxman. Thank you very much, Mr. Connaughton.
    Let me go right to this memo. It was a memo written from 
Mr. Cooney to Kevin 0'Donovan in the Vice President's office. 
We don't have a copy of that memo because it is being withheld 
from the committee. But we did have a chance to review that 
memo. And it obviously stirred some concern when we had Mr. 
Yarmuth, and Mr. Yarmuth pursued a question about it. The memo 
refers to a paper by Soon Baliunas that was funded in part by 
the American Petroleum Institute. The paper purports to show 
that the past century was not the warmest in the last 1,000 
years.
    My understanding is that the conclusions of the paper had 
been heavily criticized by the scientific community. The memo 
to the Vice President's office says, ``we plan to begin to 
refer to this study in administration communications on the 
science of global climate change. In fact, CEQ just inserted a 
reference to it in the final draft chapter on global climate 
change contained in EPA's first state of the environment 
report.''
    That is the memo to the Vice President's office from Mr. 
Cooney. The memo also states that the paper, ``represents an 
opening to potentially reinvigorate debate on the actual 
climate history of the past 1,000 years.''
    My concern is that the documents suggest that there was a 
concerted White House effort to inject uncertainty into the 
climate change debate. This communication between Mr. Cooney 
and the Vice President's office seems to reflect exactly this 
kind of effort.
    Did CEQ communicate with the Vice President's office about 
how to inject the Soon Baliunas report into the Federal climate 
change reports?
    Mr. Connaughton. Mr. Chairman, I leave aside for the moment 
the issues related to potential Executive Privilege which we 
are still working on with the committee. I will limit my 
remarks to commentary on the Soon--
    Chairman Waxman. Why don't you limit your remarks to my 
question? Did the CEQ communicate with the Vice President's 
office about how to inject this report into the climate changes 
reports?
    Mr. Connaughton. It is my understanding that CEQ did 
suggest that the report should be referenced in the new draft 
environment, state of the environment report, because in fact 
it was a new and major piece of science. At the same time Dr. 
Hansen was also introducing some of his new research that was 
also high interest.
    At the same time we were looking at issues related to the 
difference between surface temperatures and ground level 
temperatures. So at that time there was a lot of very 
interesting development to the science and the Soon Baliunas 
report was very important as well. I found it fascinating. I am 
not a scientist, so I can't find it conclusive. But I liken the 
debate over that report--Mr. Chairman, I just want to give an 
example--
    Chairman Waxman. No. Excuse me, Mr. Connaughton. I only 
have a little time. So you thought it was really interesting 
and worthwhile bringing it in, that was your thought as well as 
Mr. Cooney's, is that right?
    Mr. Connaughton. I am not speaking to the recommendation it 
be included. I was made aware of this report and I found it 
very interesting. I actually did not have a role at that time 
in anything having to do with the edits on the documents.
    Chairman Waxman. And you did later?
    Mr. Connaughton. I did later, yes.
    Chairman Waxman. And tell us what you did later. What were 
the circumstances?
    Mr. Connaughton. When the process was not leading to a 
reconciliation of the comments by the various offices in the 
White House and from other agencies, I did get on the phone--
actually Governor Whitman called me, EPA Administrator Whitman 
called me. We were talking about a range of things but this is 
one of the issues that we talked about on how to reconcile the 
comments.
    Chairman Waxman. OK, now this memo that was sent to the 
Vice President's office said this will reinvigorate debate 
about whether the planet is warming. This sounds to me like a 
play directly out of the Petroleum Institute playbook. Do you 
have a comment on that?
    Mr. Connaughton. Actually, sir, it strikes me as a 
statement of fact. When that report did come out, it actually 
did receive, as you indicated, a lot of interest by the 
scientific community as to the essentials of the solar based 
research that was being conducted and particularly by Dr. 
Baliunas, who is actually an internationally renowned solar 
scientist.
    Chairman Waxman. But that report has since then been 
strongly criticized by the scientific community and its 
conclusions have been rejected.
    Mr. Connaughton. That--actually I do not understand that is 
correct. What I do understand--
    Chairman Waxman. So is it the position of you and CEQ that 
is a fairer statement of what we know about climate change than 
what Dr. Hansen and others were suggesting?
    Mr. Connaughton. No, it is not my position. What I was 
going to indicate, Mr. Chairman, the debate that surrounded 
that report is very similar to the active one undergoing right 
now about the relative contribution of global warming to 
hurricane and storm intensity and frequency, very active points 
of scientific debate.
    Chairman Waxman. Excuse me--
    Mr. Connaughton. And that is part of the variety of 
viewpoints which we must be incorporating into our process.
    Chairman Waxman. This memo suggests as well it was active 
coordination between CEQ and the Vice President's office about 
how to inject debate and uncertainty into discussions of 
climate change science. Will you provide this memorandum to our 
committee?
    Mr. Connaughton. I think that is something for our lawyers 
to work out, Mr. Chairman.
    Chairman Waxman. And unless the White House asserts 
executive privilege it should be provided to our committee.
    Mr. Connaughton. Again that is something I would defer to 
the counsel for the committee and the Council and the White 
House.
    Chairman Waxman. I am requesting--
    Mr. Connaughton. I am not in a position to make that--to 
take that position personally.
    Chairman Waxman. I am requesting that CEQ turn over that 
memo and also to provide other communications between CEQ and 
the Vice President's office.
    Were there other communications?
    Mr. Connaughton. I am not aware of other written 
communications of this type. They could exist. I do not know.
    Chairman Waxman. And we would like to see the e-mail 
communications as well.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Mr. Connaughton, I am 
going to ask a question, and it is probably unfair, but it is 
just an impression and I want to get it on the record somehow. 
A number of years ago before I was in Congress, there was a 
flack under then President Clinton about Speaker Gingrich being 
forced to go out of the back of Air Force One, and Speaker 
Gingrich seemed to have a real problem with that.
    Dr. Hansen is still here. I am not trying to do this behind 
his back. But isn't to a certain extent somebody who appears 
1,400 times in clips, who is regularly sort of the toast of the 
town as the Speaker, who is asked to consult to almost 
anything, including Vice President Gore's movie, isn't the 
complaint that you are being muzzled a little bit like Newt 
Gingrich complaining about going out of the back of Air Force 
One, a plane most of us will never see much less be on?
    Mr. Connaughton. I want to start, as I indicated, having 
the highest personal regard and professional regard for Dr. 
Hansen and his work. My son and I were just watching him on TV 
last night on the History Channel. Congressmen, senior 
administration officials, highly accomplished senior 
scientists, we all chafe at having to talk to our public 
affairs people. But the public affairs people are there for a 
reason. They are there to organize and be sure that what we are 
saying is official government policy, is understood, and that 
the people who might have to then respond to those statements 
can effectively do so.
    This is a process that has been with us for a long, long 
time, and it works well. Now we all chafe from it. I can 
understand Dr. Hansen especially chafing if it comes from 
someone relatively young and inexperienced, but the policy of 
public affairs is a very important one.
    Now I would note that I am not aware of any instance where 
any scientists in pursuing their science, of any scientist 
seeking peer review of their science, is in any way controlled, 
handled or otherwise managed in their scientific work. I mean 
from what I see all over the world and what people, scientists 
come and speak their mind, to me they come and speak their mind 
to you. What we are talking about is a science-policy interface 
and that has significant implication that requires some level 
of management.
    Mr. Issa. And if I could followup on that, in the previous 
panel I think there was a lot of discussion about certainty 
versus uncertainty. And certainly, your chief of staff was 
drawn and quartered pretty well for the statement that he was--
or a statement claiming that he was creating uncertainty.
    Is there any uncertainty about man's influence on the 
environment at this point from the body of science that you 
have been part of putting together? In other words, not the 
nuances but isn't it--and I will lead you for a second. Isn't 
it true that this administration has made it very clear that 
pollutants, whether we call it that or not, including 
CO<INF>2</INF>, reflect a clear danger to our environment?
    Mr. Connaughton. Well, I will put it in the President's 
words. The Earth is warming. Humans are part of the problem. We 
need to get on with the solutions, and I need to stick to 
layman's terms. I am not a scientist. And that was clearly 
reflected in the National Academy of Sciences report.
    Mr. Issa. So since it is settled science, at least settled 
Presidential policy as stated by the President, that we are--we 
do have this problem and we need to be part of the solution, 
but this question of settled science--and I am just going to 
ask you one question--isn't it true that it was only this last 
year that the 2001 understanding of the rise in our oceans has 
been revised downward, less dramatic than it was thought to be? 
Isn't there always new information coming in that affects one 
side or the other of speed and so on?
    Mr. Connaughton. Well, actually I think Dr. Hansen was 
trying to get to this level of complexity in the answer as 
well. The top line, there is a lot of agreement around warming 
and around the fact that humans play a role. A lot of 
agreement. But as you then delve down into the science, in the 
National Academy of Sciences report, including the edits 
recommended by CEQ and others, as well as subsequent documents, 
the most recent being the IPCC report, which is the 
international report updating the science, there is a wide 
range of uncertainties to which we are dedicating nearly $2 
billion a year to attempting to resolve. So there is still a 
lot of science to be done.
    As I indicated in my written testimony, if all the science 
were settled we wouldn't be spending $2 billion of taxpayer 
resources every year on it. This is very important work. One 
reason for one of the comments is to make sure we are 
emphasizing the need to go after some of this research because 
that is what the National Academy of Science has told us we 
should do.
    Mr. Issa. So I guess I will just finish with one sort of 
series of questions, there are thousands of scientists that 
work for the Federal Government at all levels and hundreds, if 
not thousands of them worked on the Shuttle program over the 
years. What would have happened if Dr. Hansen's policy that 
every scientist gets to say anything to the camera any time 
they want, as long as it is supported by, ``their science,'' 
that you know what they do, that they should be able to have an 
interview any time, anywhere, what would have happened each 
time a Shuttle went down? Can you just give us a little 
conjecture that, 1,000 scientists working at the various launch 
facilities, what would have happened if all of them had 
responded without checking with public affairs just done their 
on camera interviews those days?
    Mr. Connaughton. You would see the kind of chaos and 
confusion that this entire discussion is about trying to avoid. 
So chaos and confusion--in public affairs.
    Mr. Issa. In closing, isn't it clear that when you have 
dozens or hundreds or thousands of scientists as much as we 
want to make sure scientists can argue with each other and have 
that freedom of expression, that first amendment, so to speak, 
right that there has to be some reasonable limitation and has 
been for decades on how many different scientists can talk at a 
given time and what they can talk about?
    Mr. Connaughton. Clearly scientists are free to pursue 
their research. They are free to publish and talk about their 
research. Taxpayer funds that all over the world, that is 
great. It is when we get into expressions of government policy 
or the science policy interface where you need some level of 
management. Otherwise you can fall prey to lots of 
misinterpretation and misunderstanding about what represents 
official government policy.
    Mr. Issa. I hope all our scientists all get a ride on Air 
Force One. Thank you, I yield back.
    Mr. Yarmuth [presiding]. Mr. Connaughton, I want to ask 
about the EPA's draft report on the environment. We talked 
about it already today. EPA professional staff was deeply 
concerned about the way the White House handled this report. 
And if I may, I would like to refer you to exhibit F, which is 
a memo about the draft report on the environment from the staff 
of EPA to Administrator Whitman of the EPA. It says that as a 
result of Mr. Cooney's edits the text, ``no longer accurately 
reflects scientific consensus on climate change.'' And I read a 
number of other statements and there are examples of what they 
meant. The EPA memo says that the White House told the EPA that 
no further changes may be made.
    Did you make the decision that no further changes were to 
be made?
    Mr. Connaughton. No, I did not. And I would observe, 
Congressman, that the--I only saw this document for the first 
time over the weekend. It was not something I saw in my 
conversation years ago with Governor Whitman. But I would 
observe a number of the items being complained of were verbatim 
language from the National Academy of Sciences report. That 
told me something else is going on. There is a pride of 
authorship going on between EPA and the other agencies. At the 
time, by the way, it seemed to me that to the extent there were 
editorial differences they should be reconciled. They weren't 
being reconciled. That suggested some back and forth. That is 
really what Governor Whitman and I ended up talking about, and 
the solution she came up with I thought was perfection.
    Mr. Yarmuth. Is it not true that someone advised 
Administrator Whitman that no further changes were to be made?
    Mr. Connaughton. The document I saw--again I only saw it 
for the first time over the weekend--was the handwritten note 
that says these changes must be made.
    Mr. Yarmuth. These changes must be made.
    Mr. Connaughton. But I would note the context of that, 
Congressman, was important. What was happening is we have a 
process where agencies provide their input to these documents, 
and there is a reconciliation process. It doesn't mean all the 
comments have to be accepted. You just have to have a process 
where you say I accept it or I reject it and here is why. That 
wasn't happening on this particular set of issues. Remember, 
this document was 600 pages long. I showed you just a fraction 
of it. We are talking about a small number of edits to a two-
page passage in an otherwise massive document. We are just down 
to the end on this.
    So really what was going on--and I thought it was 
reasonable at the time--was the notion that we needed some 
reconciliation. It was an issue of whether the comments were in 
or out. As it happened, by the way, none of the comments being 
raised to the committee--none of the comments could have 
possibly confused the public because they didn't make it into 
the report.
    Mr. Yarmuth. That is because EPA found the report to be so 
inaccurate that it said that if they released it, it would 
cause great confusion in the public, isn't that correct? At 
least that is what that memo says.
    Mr. Connaughton. I saw the memo. My personal reflection is 
it seemed to be a little bit melodramatic. We have a process 
for reconciling these kind of returns. That wasn't happening, 
which is why it got elevated. Most of what you are talking 
about today never got elevated because Dr. Mahoney on these 
science documents--these science documents include expressions 
of science--Dr. Mahoney had a very effective process of 
reconciling comments. Some of them are included. Some are 
changed. And some of them are excluded. And that process wasn't 
being applied in this particular instance on the draft 
environment report. And so we worked it out.
    Mr. Yarmuth. Now you mentioned before that some of these, 
all of these changes were based on NRC but in the EPA--again 
this memo says that conclusions of the NRC report were deleted. 
That is one of their complaints, wasn't it?
    Mr. Connaughton. That is--again, we can get into lots of 
back and forth about the particularized edits. I included that 
in my written testimony. Others were being asked to be 
included.
    I think one of the things, Congressman, that went to your 
line of questioning earlier, you had these massive documents, 
and you have CEQ and other agencies agreeing to 99 percent of 
them. These have some of the strongest expressions of why we 
need to take action on climate, the effects of global warming 
on ecological systems, the research questions on relations of 
public health. These documents are full of that. And we didn't 
have any objections to any of that.
    What these comments went to were certain expressions of key 
uncertainties identified by the Academy that were a qualifier 
to some absolute--more absolute statements that appeared to be 
in the text. Now the National Academy chose to include those 
qualifications. It was at least reasonable for reviewers to 
suggest that some of those qualifications be included as well.
    Now ultimately the scientists decided which ones were 
appropriate, what tone, what weight to give to those. But I do 
want to underline what was missing in all of the questioning 
before I came up here was the fact that there was actually 
massive agreement on, you know, more than 99 percent of these 
massive documents.
    That is where all the positive heavy duty stuff was on 
climate change. These qualifiers were a little teeny piece of 
the discussion. So much ado about a very small amount of 
qualification.
    Mr. Yarmuth. Now thank you. You said that earlier you did 
not make the decision that the White House wasn't going to make 
any changes, but in your conversations with Ms. Whitman did she 
explain to you why she made the decision not to--that she did 
not make those changes?
    Mr. Connaughton. As you might expect this was an executive 
level conversation. We don't--we weren't into parsing all the 
back and forth between the various staffs. But you asked, I 
just want to be clear, I was perfectly content to just get them 
in a room, especially get the scientists with them and just 
reconcile the comments.
    She had what I thought was a much better solution. And that 
was, we had just spent over a year developing this document 
with 1,300 scientists from around the world. Why not refer the 
public to that rather than try to collapse this down to a two-
page passage on climate in a document that otherwise sort of 
had a rich abundance of detail on a whole bunch of other issues 
that were not getting the attention they deserved? So I thought 
it was a perfect solution. We didn't need to talk a lot. I 
said, that sounds great to me. Let's just go that way.
    Mr. Yarmuth. My time has expired. Mr. Cannon.
    Mr. Cannon. Thank you very much. I am having a hard time 
trying to figure out what this hearing is all about. I think, 
Mr. Connaughton, your term of ``melodramatic'' probably fits 
pretty darn well. You have a 23-year-old young man who was put 
on the hot seat, and I think acquitted himself quite well. Your 
former chief of staff--or the chief of staff of the CEQ--I 
thought did a remarkable job. I don't think there was a single 
question left unanswered very directly by him. So I am not sure 
why we had him up and were grilling him to the degree that we 
did.
    And then of course the third person on the panel is the guy 
who had the real questions. And those questions come down to 
what I think involved his views were as to good and evil, 
people in the administration representing something akin to 
Nazi Germany and people who believe as he believes being good.
    I would like to read you a quote by Dr. Hansen from 1998: 
Injection of environmental and political perspectives in 
midstream of the science discussion cannot help the process of 
inquiry. I believe that persons with relevant, scientific 
expertise should concentrate with pride on cool, objective 
analysis, providing information to the public and 
decisionmakers when it is found, but leaving the moral 
implications--this is again the person who raised the issue of 
the morality of this administration and comparing it to Nazi 
Germany--leaving the moral implications for later, common 
consideration or, at most, for summary inferential discussion.
    I am not implying bias on the part of any particular 
scientist, but the global warming debate has plentiful examples 
to illustrate my thesis, especially, at least a per capita 
basis among the most vociferous greenhouse skeptics; i.e., 
those who challenge the reality or interpretation of global 
warming. Many of the participants in this debate have ceased to 
act as scientists as defined above but rather act as if they 
were lawyers hired to defend a particular perspective. New 
evidence has no effect on their preordained conclusions this is 
abhorrent to science and spoils the fun of it.
    Now we are not talking about the underlying facts of global 
warming or climate change here. We are talking about the 
process by which the administration has operated and the 
environment in which it has made decisions about how to get a 
message out. And with all the claims of big oil and drilling in 
ANWR and all the other things that will actually make America a 
much better place, with cheaper energy for the poor, I fail to 
see where we have made any progress. What we have really done 
is tied ourselves up with the beliefs of an individual who has 
been very critical of the administration.
    Would you like to comment on that or would you just let my 
statement stand if you want?
    Mr. Connaughton. I would just like to remark. An important 
facet of all of this is we need to continue to encourage a wide 
diversity of viewpoints. The science enterprise is to 
constantly test the received wisdom, and that goes back and 
forth.
    Now there is a lot of strong agreement on climate change, 
on the fact it is occurring and that humans are part of it. But 
there are still many, many lines of inquiry that the scientists 
are in fact pursuing and they are testing each other on.
    The same is true, by the way, in the policy perspective. We 
take the advice of economists. We take advice of lawyers. We 
take the advice of policy people. We take the advice of 
politicians and communications people. This is an extremely 
complicated issue. It is not the province of any particular 
professional class.
    I actually am pleased at the direction of the National 
Academy. They pushed us to create a more integrated process for 
linking science with the technology development process. That 
did not happen before. We are doing that now.
    Those two processes are then working their way much better, 
really with the urging of Congress as well, into the policy 
development exercise. It requires a lot of people, providing 
lots of viewpoints. And then we work to sort it out. That is 
what our role is, your role and the senior administration 
officials roles.
    Mr. Cannon. I would just point out that probably the most 
hardest figure in the history of America on environmental 
issues was the Moses of the West, Brigham Young, who took 
Mormons to Utah which I represent. And he was very concerned 
about the environment. And by the way slightly in a religious 
context, but it seems to me dogma ought to be left to the area 
of religion, and what we ought to do is look at the science and 
try to figure out where we are going, because the decisions are 
huge. The implications of eliminating CO<INF>2</INF>, I think 
Mr. Issa said earlier, $35 trillion--oh, $350 trillion, roughly 
more than about 10 times as much as the total net worth of all 
of America. These numbers are astounding. So the question is 
what do we do as humans try to adapt to deal with that 
situation. And you have been leading the fight on this. You 
have been dealing with this. You have been in the vortex. Do 
you have other things you want to say in comment about that?
    Mr. Connaughton. Well, I think we are going back 5 years in 
history looking at individual edits, individual documents that 
never made it into most of the reports, at least the ones of 
concern. So I much prefer the hearing we had last summer, which 
is actually trying to dig into the detailed solutions to 
tackling this problem which, by the way, there is strong 
bipartisan support, whether it is the advancement of way out 
there technologies like fusion, near-term technologies like 
hydrogen. The Energy Policy Act passed bipartisan in both 
Houses of Congress going after renewable fuels, going after 
vehicle fuel--actually the energy bill didn't include vehicle 
fuel efficiency. But we would like the Congress to consider 
that, as well as billions of dollars in tax incentives to 
advance a new generation of coal that would ultimately be zero 
emission.
    These are the solutions. This is what we should be working 
on. I call this, what is it about yes you don't understand? We 
have this strong commitment to get on with the solutions. Let's 
do that.
    Mr. Cannon. Sounds to me--I am sorry, Mr. Chairman, my time 
is up. Thank you. I yield back.
    Chairman Waxman [presiding]. Thank you. Chair yields 
himself time to pursue a second round.
    Mr. Shays. Mr. Chairman, I haven't had a first round yet.
    Chairman Waxman. Oh, Mr. Shays.
    Mr. Shays. No problem.
    When Kyoto was negotiated, Senate voted 100 to 1 and if 
there was someone absent it was unanimous, don't come back if 
you leave out India and China. So the Clinton administration 
comes back having left out India and China. Whereupon there 
were only about three to five Members of the Senate who said 
they supported the treaty.
    But given that the President said he was against it and 
people are finally facing up to the reality of global warming, 
even though Kyoto left out two of the potentially biggest 
contributors, every Senator acts like they would have voted for 
it.
    I wish to God this administration had submitted to the 
Senate the Kyoto Treaty without prejudice. There would have 
been five Members who would have actually voted for it. It is 
not unlike the two-thirds of the Congress and three-quarters of 
the Senate. Some Members now act like they never voted for the 
war in Iraq.
    So, now but the sad thing is, Mr. Connaughton, and we have 
talked about it more than once, because this administration 
wanted to appeal to a narrow base that didn't believe in global 
warming, and so therefore was silent about the need to deal 
with it early on, you are having to deal with what you are 
having to deal with, and that is the tragedy of this in my 
judgment. You have done some amazing bilateral agreements to 
reduce the impact of global warming. You will get no credit for 
it because this administration early on wanted to give the 
impression that they didn't believe in global warming. That is 
the way I look at it.
    And I am sorry that--and then we hire someone who is very 
capable, did a nice job in his performance before us but 
represented before the petroleum industry, which is not kind of 
what you would expect in the position that he was holding.
    Wouldn't you agree that, you know, some of what you are 
having to deal with is just a bad start?
    Mr. Connaughton. Sure. I mean I think, you know, it is 
also, though, the challenge of leadership. The prior 
administration did not make explicit the fact that the treaty 
was not going to work. President Bush did. As indicated in my 
written testimony, that did earn the--undeservedly earn all the 
ill will that has been directed at the President and our 
strategy since then.
    That--and it is ironic because actually where I depart from 
you when you align the President with some of the 
constituencies, it was the President in June 2001 following the 
National Academy of Sciences report said, this is what we know, 
the Academy has told us about some key uncertainties. But 
notwithstanding that, we need to take action now to begin to 
address this important problem. And he set in place a process 
that I inherited when I came in in June 2001 after that of 
running the policy that led to the 2002 climate policy 
strategic plan. It is all the more ironic because the President 
himself actually--as he should have--took the advice of the 
Academy and led probably the single most aggressive--
    Mr. Shays. Other ironies. Al Gore is right about global 
warming. It is a very real inconvenient truth and it needs to 
be dealt with. I would love to compare his house with President 
Bush's house. I would love to compare it.
    So you have one who advocates dealing with global warming 
but doesn't practice it. And you have another, President, who 
has been frankly quiet about global warming in my judgment and 
practices dealing with it in his own personal life. That is one 
of the other huge ironies.
    Mr. Connaughton. There is a wonderful USA Today story about 
the President's house down in Texas. It is a model of green 
building and environmental conservation.
    Mr. Shays. Or when we hear the actors and actresses who 
complain about Humvees, driving up in long stretch limousines, 
flying in airplanes that make Humvees look like they get 
tremendous mileage. The irony in this debate, I hope once we 
get beyond all this we will start to deal with the reality of 
what we need to deal with. And I just say to you, I think it 
hasn't happened because of how we stepped into this debate.
    And I am afraid frankly there are some on the religious 
right--whatever party--that have denied global warming and when 
it finally happens they are going to say, well, this is the 
fulfillment of the Bible and the destruction of humanity. I 
mean, it is just like I hope we wake up, and I hope we act 
soon. And I encourage you to keep doing the good work you are 
doing. But I just wish you were more vocal about the good work 
you are doing.
    Mr. Issa. Will the gentleman yield?
    Mr. Shays. Yes.
    Mr. Issa. You mentioned everything except nuclear. Wouldn't 
you say it was notable that Dr. Hansen was very supportive of 
nuclear in every round of questioning and yet, to be honest, Al 
Gore and his movie and all of the activities is a pushback from 
nuclear pretty consistently? Have you seen that interesting 
dichotomy that those who want us to deal with global warming 
have a tendency to be extremely anti-nuclear even though it is 
zero emissions?
    Mr. Connaughton. There is no question that if you were 
serious about climate change you have to be serious about 
nuclear, at least for the next many decades. It is the only 
baseload zero emissions source we have. It has the smallest 
environmental footprint of any source we have, and we know how 
to do it right. We have been doing it right in America for a 
long time. And the modern plants are even better than the old 
ones. So I use that as a gauge actually when I deal with people 
on climate change. If they are not open to a serious discussion 
of nuclear, I tend to find that their interest in the issue is 
more rhetorical than real.
    Chairman Waxman. Gentleman's time has expired, and now the 
Chair will recognize himself for a second round.
    When this administration came in, they rejected Kyoto. 
Maybe it couldn't have passed. The Senate probably couldn't 
have. But I didn't hear the administration go back and ask the 
countries admitting Kyoto to reconvene and see if they could 
renegotiate a treaty. Fact No. 1.
    Second, you pointed out with pride all of the things that 
this administration has done and is doing. But all the 
scientists tell us that the emissions of carbon are going up 
and not down, which means the planet is going to get in a more 
difficult situation in the direction we are moving.
    Now, what appears to some of us is that it looks like the 
administration's policy was pretty much the petroleum 
industry's policy, which is let's sort of, let's try to confuse 
things and suggest that there's not such a big problem of 
global warming. We'll try to sow some doubt about it. That is 
what it appears like to many of us.
    Now I want to find out whether this was a deliberate White 
House strategy to sow doubt, or if I am incorrect about it. Did 
you ever have any communications with anybody in the White 
House outside of CEQ about the value of emphasizing uncertainty 
and climate change?
    Mr. Connaughton. I had conversations with people outside of 
CEQ about the broad range of science, which included 
uncertainties related to issues such as aerosols, some of the 
other factors that were in the National Academy of Sciences 
report. And the answer to that is yes, with scientists as well 
nonscientists.
    Chairman Waxman. Who are those people in the White House 
outside of CEQ?
    Mr. Connaughton. Especially the budgeteers. We were working 
on the 10-year strategic plan because a lot of--
    Chairman Waxman. Budgeteers were OMB--exclusively OMB 
people?
    Mr. Connaughton. As well as the Office of Science and 
Technology people, including Jack Marburger, because 10-year 
strategic plan, Mr. Chairman, was all about how are we going to 
direct our resources toward these key areas of uncertainty that 
the National Academy of Science has identified. So we had an 
extensive set of conversations all the way up to the cabinet 
level on how to get this 10-year research plan going. The 
National Academy of Sciences hailed this plan as having 
ambition and vision.
    Chairman Waxman. Mr. Connaughton, I have only a limited 
period of time so I want to ask you some very specific 
questions.
    When the White House appeared to edit the climate change 
science reports, that was highly controversial. And several of 
the changes made front page headlines. Did you have 
communications with others in the White House outside of CEQ 
about the reaction to CEQ's edits and how to manage that 
reaction?
    Mr. Connaughton. First of all, the controversy was created 
by media stories, which I think grossly distorted the actual 
record of our process and the final documents to which 
scientist--
    Chairman Waxman. You are not answering my question. I asked 
you a specific question, and I really want an answer.
    Mr. Connaughton. I need to start with disagreeing--
    Chairman Waxman. Did you have any conversations with 
anybody about how to handle the public relations once these 
reports were--
    Mr. Connaughton. I certainly did. I talked to the White 
House communicators because this had achieved national and 
actually international stature--
    Chairman Waxman. Would you tell us who the communicators 
were?
    Mr. Connaughton. At the time--I would have to get back to 
you on that because I don't know exactly when people moved in 
and out.
    Chairman Waxman. Did you have any communications with White 
House Chief of Staff Andrew Card?
    Mr. Connaughton. About?
    Chairman Waxman. About the global warming reports.
    Mr. Connaughton. I only had a conversation with him after 
the reports came out.
    Chairman Waxman. Did you have any conversations with him as 
you took your job as to how you were going to handle your job?
    Mr. Connaughton. Yes, I did.
    Chairman Waxman. And when were they?
    Mr. Connaughton. That would have been in the middle of 
June.
    Chairman Waxman. June, what year.
    Mr. Connaughton. 2001.
    Chairman Waxman. OK.
    Mr. Connaughton. That is when I was assigned the portfolio 
on climate change, on air pollution and a whole range of 
issues, fuel economy and a whole range of issues on the 
National Energy Plan.
    Chairman Waxman. And did he suggest to you some policies 
you might pursue or what--tell us about the conversation as it 
relates to global warming, climate change.
    Mr. Connaughton. Mr. Card was happy to have me on board. He 
said there were specific areas we should get into and we wanted 
to really focus on the technology. We had been given this 
strong advice from the National Academy of Sciences. And we 
wanted to make sure also we were advancing the science in the 
way the President directed. Mr. Card was reinforcing for me the 
agenda that the President had already clearly laid out in his 
policy address.
    Chairman Waxman. Now after the reports were put out you 
said you had some communications with him?
    Mr. Connaughton. Yes. He wanted to know because what we had 
regarded--
    Chairman Waxman. Could you tell us when that was 
approximately?
    Mr. Connaughton. I can't recall the specific date.
    Chairman Waxman. And tell us about that communication.
    Mr. Connaughton. The report--we had scientific sign-off on 
the report so when it came out and the media began to nit-
pick--I guess it leaked. The report had been out for some time. 
Then someone in the media got ahold of leaked versions of some 
of these early edits without even, by the way, comparing to see 
if it made it into the final document. That is what created the 
media flap. And so there were questions what was in the report, 
what was it about. We actually treated this as a routine 
publication. It was only later sensationalized.
    Chairman Waxman. This was a direct conversation with Andrew 
Card?
    Mr. Connaughton. I had one direct conversation with him.
    Chairman Waxman. On this issue.
    Mr. Connaughton. Yes.
    Chairman Waxman. The reaction to the report.
    Mr. Connaughton. Right. This was much later after it came 
out and the leaked edits, the leaked edits emerged.
    Chairman Waxman. And you don't recall the date of that?
    Mr. Connaughton. No, I don't, sir.
    Chairman Waxman. OK, did he suggest you do something other 
than what you were doing?
    Mr. Connaughton. No. We were actually----
    Chairman Waxman. Or was he just asking questions about what 
you did?
    Mr. Connaughton. He wanted to know what the report, what 
the process was, was the process followed. I assured him it had 
been followed. I assured him the scientists at the end of the 
process had ultimately reconciled all comments and he was 
actually--well, I don't want to speak for him.
    Chairman Waxman. Well, we know that some of the documents 
we have seen came from the--related to communications with the 
Vice President's office. Did you talk to anybody in the Vice 
President's office, including the Vice President or any of his 
staff, such as Kevin O'Donovan or anyone else in that office?
    Mr. Connaughton. About?
    Chairman Waxman. About global warming, climate change, the 
report.
    Mr. Connaughton. Sure. I talked with all of the office of 
the White House about climate change. It is an issue that has 
been with us for 6 years. I can't think of a single office, 
including Office of Public Liaison, in which there hasn't been 
some interface of one kind or another about climate change, but 
really focused on the technology initiatives of the President 
much less so on the science.
    Chairman Waxman. So you had frequent communications with, 
was it, Kevin O'Donovan or others in the Vice President's 
office?
    Mr. Connaughton. We have a very vigorous interagency 
process that includes participation by the various White House 
offices as they see fit, as well as all the various agencies. 
So you can lump in a dozen agencies and six or seven White 
House offices.
    Chairman Waxman. We look forward to learning more about 
those.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Where are your offices.
    Mr. Connaughton. On Jackson Place, sir, right in front of 
the White House, right on Lafayette Square.
    Mr. Issa. Which is really part of now the White House 
complex area?
    Mr. Connaughton. That's correct, sir.
    Mr. Issa. And when did essentially the oversight of global 
climate change--when did it move to the White House area? In 
other words, how long have the offices that are overseeing this 
part of science, how long have they been within, you know, what 
we always think of as the White House, Treasury, Old Executive 
Office, the various townhouses and of course the White House 
itself?
    Mr. Connaughton. My office, the, Council on Environmental 
Quality, was created in 1969, so it has been there for almost 
30--40 years. The Office of Science and Technology Policy I 
believe was created a few years later than that. And those are 
the two primary sort of policy offices as it relates to energy 
and environment and natural resources and some of those 
matters.
    And then there was the Domestic Policy Council of course, 
the National Economic Council was created under the Clinton 
administration and then during the Clinton administration they 
actually had a sub office specifically focused on climate 
change where they coordinated all of the climate change efforts 
across the Clinton administration. We decided to consolidate 
that within CEQ.
    Mr. Issa. Which is also in the White House complex?
    Mr. Connaughton. Correct.
    Mr. Issa. So it is fair to say that administration after 
administration, this has been something which has--although it 
has evolved and it's grown, every administration has thought it 
important enough to take up this very small amount of space 
available in and around the White House rather than sending it 
off to Crystal City or any number of other large Federal 
buildings a few miles away that certainly other things have 
been pushed out of.
    Mr. Connaughton. Well, there has been a Catch-22 to the 
discussion we are having today. This issue is very important. 
It is Presidentially level important. But that said, we also 
make clear to do some assignments. So at NOAA, the head of the 
Climate Science Program that was housed at NOAA, so all of our 
input went to them and they had the final call on the science 
documents.
    Mr. Issa. I just want to understand that this is something 
where you get to say you are coming from the White House, 
because effectively these buildings are--everyone, everyone 
except people maybe inside the Beltway, we don't--we know the 
difference between the Old Executive Office and whether or not 
you have something in the Roosevelt Room, wing or whatever, but 
bottom line is you are right there in the White House complex, 
and this administration has kept it that important.
    Let me just followup on a couple of things. When this 
administration--and I realize you weren't with it in the first 
days--but you were pretty close. This administration inherited 
Kyoto. It was dead on arrival at the Senate, is that right?
    Mr. Connaughton. That's correct. It was dead 3 years before 
that.
    Mr. Issa. So it just hadn't been buried.
    Mr. Connaughton. Actually it had effectively because the 
prior administration never sent the treaty to the Senate.
    Mr. Issa. So we also--thank you. And we also, this 
administration also inherited methyl bromide, the Montreal 
Protocol, which exempted all of the Third World, is that right?
    Mr. Connaughton. It actually put them on a delayed 
compliance schedule, which they are now beginning to implement.
    Mr. Issa. This is the year in which they are going to 
actually have to cut down their use. But basically they have 
been unrestricted and, correct me if I'm wrong, methyl bromide 
basically moved from the United States and Europe to Africa and 
developing countries in South America who are unrestricted. The 
flower industry of Holland mostly moved to other countries. So 
this is something that was done in previous administrations. It 
sounded good but the bottom line is it didn't change the 
emissions of this terrible ozone depleting material one bit, 
did it, outside the United States?
    Mr. Connaughton. Yes, I believe that is--I believe that is 
true. The issue you always face in these international 
agreements with global emissions is what is called leakage. If 
you squeeze the balloon too tight in one place and the other 
country is not constrained, you actually get an increase in 
those emissions. That is a fundamental issue in the climate 
policy debates.
    Mr. Issa. So some of this is what I call unilateral 
disarmament on emissions. We stopped, but it didn't change one 
bit the amount of emissions.
    Mr. Connaughton. And Congressman, there is a place for 
leadership which the United States is demonstrating, but you 
don't want your leadership to sacrifice your economic 
objectives to greater emissions somewhere else.
    Mr. Issa. The United States is leading the world. This 
Congress has funded leading the world in cleaning up coal and 
other carbon emitters, recognizing without sequestration you 
are not getting there, that has to be part of it. But isn't it 
true that China builds basically one coal fired plant every 
week, week in and week out, for the last couple years and plans 
to continue doing so and that those tend to be among the 
dirtiest electric production facilities in the world?
    Mr. Connaughton. Yes. They will build, I am told, 140 in 
the next 3 years and they are massively industrializing and 
picking up a lot of the manufacturing and industrial output 
that would otherwise be occurring in places like the United 
States and Europe for a variety of reasons.
    Mr. Issa. Then as I yield back, I will simply make the 
point that this administration has a bigger problem than just 
good research. We have to get it applied around the world or it 
won't make a bit of difference in global warming.
    Mr. Connaughton. Mr. Issa, to the point that was raised by 
the chairman I would sharply disagree. We did reconvene 
internationally. We just didn't reconvene in Kyoto. We have 
dozens of bilateral partnerships now. And we have many, many 
multinational agreements on advancing hydrogen, on advancing 
global fuels, on advancing methane capture, as I indicated. The 
list is quite lengthy of real international agreement, the most 
recent of which is the Asian Pacific Partnership on Clean 
Development Climate, which includes India and China and South 
Korea, which comes in third in new emissions for the first 
time.
    So we found a different way to have the international 
conversation, and this is a foundation we can build on and, by 
the way, Mr. Chairman, California is going to be a huge 
beneficiary of that because we are all about opening up markets 
for good old-fashioned green technologies from California and 
really getting them into these marketplaces in Asia. That is 
where the solution lies.
    Mr. Issa. Thank you. I yield back.
    Chairman Waxman. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Mr. Connaughton.
    Mr. Connaughton. Connaughton, please.
    Mr. Welch. Mr. Connaughton. Welcome.
    Mr. Connaughton. Thank you.
    Mr. Welch. I would like to ask about, but your decision to 
hire Phil Cooney as your chief of staff. As you know, Mr. 
Cooney was a very successful oil industry lobbyist. He had 
worked for the Petroleum Institute in his job there. Among 
other things was to stop or delay governmental actions on 
climate change. They weren't shy about their point of view on 
that, but that obviously is an agenda inconsistent with the 
mission of the Environmental Protection Agency.
    My question is this, who made the decision to hire Mr. 
Cooney?
    Mr. Connaughton. I did.
    Mr. Welch. And I assume you were aware of the work he did 
at the American Petroleum Institute?
    Mr. Connaughton. Yes, I was.
    Mr. Welch. Did you have any concerns about that work and 
how it would affect the work that he was to do at the 
environmental agency or was that a reason why he was hired?
    Mr. Connaughton. In my many years in Washington, I have 
come across a lot of people in the professional world, lawyers, 
people from the environmental community and other places. Of 
the many people I intersected with in my professional life, Mr. 
Cooney is one of the people of highest integrity that I have 
run across. He is also an outstanding manager. And actually I 
saw it as a great benefit that he had experience in the energy 
sector because one of the major tasks I knew I was going to be 
taking on was the CEQ portion of implementing the National 
Energy Policy.
    So it was actually something Mr. Cooney knew something 
about. But first and foremost was his commitment to public 
service, and actually it was an honor for me to have him join 
me. And I have to say, you know, as much as the tone of this 
hearing has been what it is, Mr. Cooney is the best in class 
individual when it comes to integrity, honesty and ethics. And 
I do greatly regret some of the insinuations that I have heard 
from some members of this committee about the fact that Mr. 
Cooney might have been unable to divorce himself from one 
client and take on the role of public servant. I certainly did. 
Mr. Welch, I would submit you certainly did when you--at some 
point in your life when you became elected. We are all capable 
of serving the institutions in which we are employed.
    Mr. Welch. I haven't heard anybody raise questions about 
Mr. Cooney or anybody else's integrity. What I understood and I 
have heard is a fair amount of evidence that the American 
Petroleum Institute had a clear point of view on climate change 
and a fair amount of evidence that many of those views on 
climate change, for one reason or another--conviction or 
politics, I am not going to make a conclusion--found their way 
into reports through editing; 181 different edits.
    Did you have any concern about what signal would be sent to 
the American people, really, in hiring a person whose job it 
was before taking on the new position to basically advocate the 
American Petroleum Institute's position that climate change was 
not a problem and that the right approach on energy policy was 
to drill in ANWR, to drill more extensively in the coastal 
waters, and basically to erase, and sow doubt, about the 
urgency of addressing global warming as a problem?
    Mr. Connaughton. You are making some insinuations in that 
litany. So let me ask you--this plays against the type that you 
are suggesting. Mr. Cooney was involved in the National Energy 
Policy that was advancing mandates for renewable fuels against 
the interest of the oil companies. Mr. Cooney was involved in 
some of the energy policy in which the Bush administration, for 
the first time in over a decade, was implementing new fuel 
economy standards for vehicles. Mr. Cooney was involved in the 
National Energy Policy that did not support tax breaks for oil 
and gas. In fact, the President and his administration were 
opposed to them and made that very clear in the run-up to the 
energy bill in 2005.
    I could give you any of a number of additional examples 
where Mr. Cooney was actually working against the interest of 
the oil and gas industry, and he did it with the highest 
integrity in the service of the policy agenda that he was being 
directed to implement by the President of the United States.
    Mr. Welch. Mr. Connaughton, I admire your energy but not 
your misstatement of the facts.
    The White House opposed the fuel standards that you are 
referring to.
    Mr. Connaughton. Mr. Welch, you couldn't be more wrong. In 
2001, in the National Energy Plan, it called for increases in 
fuel economy standards. It was then that we initiated a process 
with the National Academy of Sciences to get their 
recommendation on how we could move forward with new mandatory 
regulations on fuel economy in the light truck fleet that would 
not create the safety hazard the National Academy of Science 
had identified.
    We subsequently implemented two regulations covering 7 
years of light truck manufacturing for the first time in a 
decade. During the same period, the President and his 
administration called on the Congress to legislate, give us the 
authority to do the same thing with respect to passenger cars, 
a call on Congress the President most recently reinitiated in 
his State of the Union address in which he committed the Nation 
to save 8.5 billion gallons of fuel through new mandatory fuel 
economy standards if this Congress will give us the authority 
to do it right rather than do it the way it was provided back 
to us in the 1970's, which creates a safety penalty and harms 
drivers.
    Mr. Welch. Were you involved in any one of the 181 changes 
that were made, the edits that were made, under the supervision 
of Mr. Cooney?
    Mr. Connaughton. I only had general oversight as that was 
working its way through the staff progress. What typically 
happens if there's an irreconcilable----
    Mr. Welch. So is the answer yes or no? You have given a few 
speeches here but not answered too many questions.
    Mr. Connaughton. I think I am doing fine answering 
questions.
    Mr. Welch. There were 181 different provisions that were 
edited on the global warming report. Were you involved--that 
were made under the supervision of Mr. Cooney. Were you 
involved in approving those or making those?
    Mr. Connaughton. It was possible that some of those may 
have been called to my attention. I don't have a specific 
recollection because it was almost 5 years ago. Nevertheless, I 
was confident that Dr. James Mahoney, who was the one leading 
this process, would do a perfectly great job reconciling any 
comments that he thought might be of concern.
    Chairman Waxman. Mr. Welch, your time has expired.
    Mr. Shays.
    Mr. Shays. Thank you. I am happy people don't talk about 
how many times I edited a simple letter, but thank God for a 
computer.
    Is there anything that you would like to put on the record 
before we get to our next witness?
    Mr. Connaughton. I want to go back to the basics. Thank 
you, Mr. Shays.
    These reports are of worldwide significance, and when they 
were published they received worldwide acceptance and praise. 
The 10-Year Strategic Plan, our annual climate action reports, 
these are full policy and budget documents that contain 
expressions of the science that the scientific community itself 
found worthwhile. If there was something fundamentally wrong 
with any of the edits to the extent they made it into the 
document, one would have thought that some scientist somewhere 
would have said, ``Hey, on page 85 you got it wrong.'' That 
didn't happen.
    We are looking in this inquiry at early edits to 
documents--and documents, you know, before they got into their 
final stages. And, again, it is--we are all very busy people. 
This inquiry is a bit odd in that we are not looking at what 
was in the documents. This is where the real information to the 
public is being provided. We are looking at internal 
deliberations and contacts and what makes it all the more 
ironic is the whole point of the deliberative process is to 
encourage the diversity of viewpoints whether they are wrong or 
whether they are completely right. And maybe some of them are 
wrong and maybe some of them are right. Maybe Mr. Cooney's 
edits he made, I maybe had a question of. I didn't have to, 
because the context sorted it out.
    So these documents are going to stand the test of time. 
This is where we should be concentrating our focus, in my view, 
on the budgets we need to answer these key science questions 
and the budgets and policies we need to make meaningful, 
sensible progress attacking greenhouse gas emissions in a way 
that grows our economy and adds American jobs.
    Mr. Shays. Mr. Chairman, I appreciate the hearings we are 
having, and I think they are interesting, and I know we are 
going to have a lot more. But I hope we start to get beyond the 
issues of who said what, when, and that this new majority will 
start to lead and deal with the issues of where we go from 
here.
    I know they are attempting to do that by a special 
committee under Mr. Markey, because they are concerned that the 
very chairman of that committee, candidly, has been deleting 
the opponent--the Dean of the House has been deleting the 
opponent against the increasing CAFE standards. And while I may 
have some disappointment with this administration not taking 
charge and, you know, picking up the sword and leading us 
through this, I wish they had--I am sure if they had, I am sure 
you would have had a nice job doing that, Mr. Connaughton.
    I do know this: This is a bipartisan problem. It needs a 
bipartisan solution, and we need to get beyond the attacks of 
this administration. And if we start to work in a bipartisan 
way, we might get some things done.
    Mr. Connaughton. Dr. Jack Marburger was very interested in 
joining, although the committee at this point in time is not 
ready to speak with them. I think it would be highly useful, if 
we are going to get to more e-mails, science statements--I am 
not aware that the committee has assigned any scientist to 
actually look at any of this. But I think it would be much more 
helpful if you had a scientist from the committee sitting down 
with a scientist with the Office of Science and Technology 
Policy, and the scientists could find a Science Office to sort 
through some of this to see how it all shaped up. Again, I 
think it shaped up right but it is----
    Mr. Issa. So, just asking you quick, for emphasis, two 
things. I guess we know the culprit here.
    Mr. Shays. May I say the culprit is that this is sometimes 
on even when it's off. So if the committee would note this has 
got a problem.
    Mr. Issa. Two things. One, I think you made a good point 
that I would hope you would reiterate, that in fact your final 
report has never been questioned today. The output of this 
process, including Dr. Hansen's complaints, bears no--no one 
complained in the final document, including Dr. Hansen, one; 
and, two, that up until now, the President's attempt to 
modernize the CAFE standards to dramatically increase the fuel 
economy that our fleet gets without penalizing safety has not 
been answered by this Congress yet.
    Would you repeat those two to clarify them for the 
committee?
    Mr. Connaughton. The 10-Year Strategic Plan that has been 
of highest interest to this committee so far was roundly 
praised by the National Academy of Sciences after two 
independent reviews, after they provided it, and it's actually 
being used as a basis for research priorities, not just in 
America but around the world.
    And, second, the President in his State of the Union 
declared very specifically he wants to end our addiction to 
oil. He wants to do it by dramatic increase in mandatory 
renewable and alternative fuels, and he wants to do it with a 
significant--I would also call it a dramatic--increase in fuel 
economy of vehicles across all of the fleet, not just the big 
ones. All of them, small ones to big.
    And we are prepared to work with the Congress to see that 
legislation turned into law.
    I would note, by the way, that it has huge greenhouse 
benefits, too, and it reduces air toxins substantially at the 
same time.
    Chairman Waxman. Before I recognize Mr. Yarmuth, I want to 
state a couple of facts. One, that suggested changes from 
CO<INF>2</INF> were not just early draft, they were 
continuously pushed until the final draft, and, in fact, until 
the final day of the final draft. And all of those edits were 
not by scientists. You say you would like scientists to sit 
down with scientists. Let's see who would have preferred your 
scientists to have more of a say than your representative from 
the oil industry, pushing his view of science over your 
scientists.
    And then I do want to point out that the administration has 
authority to raise CAFE standards for passenger cars today, and 
you haven't chosen to do so.
    Mr. Connaughton. The National Academy of Sciences said if 
we do so, we will create a safety penalty that causes more 
fatalities and more traffic injuries. Certainly we can agree 
that is not an outcome we want.
    Chairman Waxman. I think that is a red herring. I don't 
think the National Academy of Sciences has that view, but 
certainly the auto industry does.
    Mr. Connaughton. That is not the case at all. The auto 
industry is not happy about these standards, Mr. Waxman. In 
fact, I would refer this committee and actually ask, if you 
would, the committee enter into the record the 2002 National 
Academy of Science Report on Fuel Economy Standards. You should 
read for yourself what that says.
    Chairman Waxman. Mr. Yarmuth.
    Mr. Yarmuth. Mr. Connaughton, the reason we are here today 
is not because we are concerned what came out on the final 
report. Fortunately because of Christine Todd Whitman, we 
understand that the edits that were made--that many, both here 
on this committee and also many in the scientific community, 
represented cherry-picking of the evidence, that she decided 
that painted an inaccurate portrait of the situation with 
regard to climate change.
    And I know you called it in your testimony, your prepared 
testimony, an intramural editorial exchange, but we are 
concerned here with the process and whether the process is 
actually fair to science or not.
    And we have heard a lot of evidence about cherry-picking. 
You disagree with some of it, but in fact your own testimony 
represents, in my opinion--gives an example of where evidence 
was cherry-picked. You defended in White House edits to delete 
a discussion of the human health and ecological effects of 
climate change. In defending that edit, you cited a 2001 
National Academy of Sciences report.
    And you quote this sentence from that report: ``Health 
outcomes in response to climate change are the subject of 
intense debate.'' Clearly they are. But you omitted from that 
reference the sentence that immediately follows it and that 
sentence reads, ``Climate change has the potential to influence 
the frequency and transmission of infectious disease, alter 
heat and cold-related mortality and morbidity, and influence 
air and water quality. And that same section of the Academy 
report also says, ``Increased tendency toward drought, as 
projected by some models, is an important concern in every 
region of the United States. Decreased snow pack and/or earlier 
season melting are expected in response to warming because the 
freeze line will be moving to higher elevations.'' And, 
finally, ``The noted increased rainfall rates have implications 
for pollution runoff, flood control and changes to plant and 
animal habitat. Any significant climate change is likely to 
result in increased costs because the Nation's investment in 
water supply infrastructure is largely tuned to the current 
climate.''
    Would you not concede that a--the sentence that you 
included as evidence of using the National Academy of Sciences 
report paints a slightly different picture than if you included 
all of that material after that?
    Mr. Connaughton. Actually, Congressman, I became a big fan 
of including all of the material, which was why the decision 
was made to go ahead and reference all of it.
    What I find in these science debates, especially among 
nonscientists, is the dangers always come when we try to 
summarize, when in fact this is a much more complex issue. That 
is where people end up fighting. They fight over little amounts 
of space. That's why this was the best solution. I was inspired 
by Ms. Whitman. I immediately agreed with it. This is a great 
document. I really recommend you to read it.
    I would also recommend you to read the entire NAS report 
before you reach final judgment. I appreciate the chairman in 
his opening remarks saying there were suspicions but they're 
trying to sort out the facts.
    I would really appreciate it if you would commit to read 
the NAS report, because that is what I did in preparing for 
this hearing, because I wanted to see if these edits were in 
the realm of the reasonable. You could agree or disagree with 
them, but were they within the realm of the reasonable to be 
sorted out by the ultimate scientific reviewer? My judgment is 
maybe they were. Maybe you will come to a different one. You 
seem like a reasonable man. But if you will look at the whole 
report you will see what was trying to happen here.
    In addition, again, 99.5 percent already contained all of 
what you just described. The issue, what was missing by some 
reviewers--it wasn't just Mr. Cooney--it was the Office of 
Science and Technology Policy, too. There was missing some 
qualification to some of these absolute statements that 
justifies beyond these ongoing science investments we're 
making.
    Reasonable minds could differ over that, but that is what 
we should be after. But are we in the realm of the reasonable 
in the deliberative process that's there to call out these 
different viewpoints? I think so. I am hopeful that the 
committee will ultimately find that as well.
    Mr. Yarmuth. Do you understand why there is some suspicion 
on this committee when virtually every edit that was suggested 
tends to minimize the severity of the threat of global warming?
    Mr. Connaughton. I completely understand that, and the 
dilemma was because the rest of it, all of the affirmative 
stuff, wasn't objectionable. So you have this issue of--there 
was a concern that something was being left out, and so the 
nature of the edits was to reflect on that which was left out, 
without recognizing that Mr. Cooney and many others read the 
rest of this and said wow, this is good stuff. It's so 
important about the temperature trends, and all of the 
different impacts and the polar area, lots of good stuff in 
here, without any negative comment by CEQ or anything else. 
That's really what was going on.
    Mr. Yarmuth. I yield back.
    Chairman Waxman. Mr. Cannon.
    Mr. Cannon. Your last answer was really good. Recasting it, 
you were asked why it was obvious that you raised suspicions 
with edits, and your answer was that there was so much positive 
that there was a tendency to focus on just those things where 
the certainty wasn't the case. And frankly, in my last round of 
questioning, I raised the issue of why we are actually having 
this hearing. And now that we've been through most of it, I've 
got to say it has been really interesting.
    The gentleman just asked you or just suggested that, 
fortunately, Christine Todd Whitman had intervened, that we 
came out with a sound report. That is like a vindication of the 
process. I don't know what more you could say that is more 
vindicating of what you all did. People can disagree with your 
beliefs and the policy and a lot of other things, but it seems 
to me if the point of this hearing was to talk about policy, 
that it has worked pretty well and I--if you want to comment on 
that, you have done a pretty good job thus far.
    Mr. Connaughton. The only thing I would add to that is by 
doing a really smart thing, it ended up being portrayed 
publicly as an omission from the draft you put in of the 
environment and, fortunately, pieces of the draft you put in of 
the environment is great. It deals with all kinds of issues. So 
the benefit of this report was diminished. And then the benefit 
of this report was diminished, and it really had nothing to do 
with the merits of the document. It really had to do with the 
sensation caused that always happens when people pull back and 
get a look at some of the deliberative processes without 
focusing on the final product. We like to focus on the results. 
The Congress does. We do. Where the results are on a sale----
    Mr. Cannon. Let me talk about--Mr. Issa talked earlier 
about all of the power plants, the coal-fired power plants that 
are being built in China. And, of course, if we do coal to 
liquid here in America, the nice thing about that technology is 
you can actually take the CO<INF>2</INF> stream and sequester 
it, not only inexpensively, but maybe at a high profit because 
you can use it to enhance oil production and in other 
activities or just get rid of it in ways that we are learning 
are scientifically sound right now.
    So it seems to me that the net of this hearing, if anything 
comes out of it, ought to be to shift away from process and 
there ought to be a congratulations to the process used and a 
shift toward what you have been suggesting back and forth 
through your whole testimony, which is what can we do to 
actually mitigate the problems that may happen if man-made 
gasses are actually affecting the temperature of the climate as 
a whole.
    And if you just want to take a few minutes to wrap up on 
the things we can do, I'd very much appreciate that, because I 
think that is what we found in this hearing.
    Mr. Connaughton. Clearly we had an opportunity on 
renewables, especially renewable fuels; that is, the potential 
that has not been tapped to the extent it can. And that's why, 
again, we are pleased by the broad bipartisan interest in the 
State of the Union address as well as the advancement of 
renewable power.
    But coal remains a very important issue. Anything we do 
short term to mitigate greenhouse gasses is of relatively 
little consequence unless we figure out the zero emission coal 
solution. And we have to be very careful about our policies to 
be sure we keep an investment toward zero emission coal, 
because if we don't, China--and India in particular--and some 
other countries, their missions will far exceed ours starting 
in about 2008-2009 and it just runs away from us.
    So if we are focusing on climate policy, to me, we have to 
advance this highly efficient zero emission coal agenda which, 
again, the Congress, working with the administration on a 
bipartisan basis, is doing. And we have to bring more nuclear 
on-line as a hedge while we fill in with renewable fuels and we 
fill in even more with renewable power.
    We can get there. It takes some time, but we have to 
sequence this right. And we can't drive our investment away 
from coal in America, because if we don't figure it out, it 
will be decades before China and India and other countries 
figure it out. So we have an imperative to get it right here 
first.
    Mr. Cannon. And if we get it right here first, and other 
nations can copy the technology that we produced and have the 
kinds of wonderful things in life that we have in America 
without the effect on the environment----
    Mr. Connaughton. And also, again by the way, we are 
competing less on the world stage for energy resources. So 
countries like Japan, emerging economies, that don't have 
access to the same natural resources we do, when we are using 
our own smarts, that makes other resources available to other 
countries that don't have it. It is good for the global 
economies of all, and it will lift billions of people out of 
poverty over time.
    Mr. Cannon. Poverty is the big polluter. If you don't 
believe that, go to Haiti and take a look at the landscape.
    You said something about the Federal opaque and this new 
chip that has come out that is 40 percent positive, I believe 
it is funded in large part by DOE. I think that is one of the 
great stories that is ready to happen. We don't know what it's 
going to cost yet. It's not commercial--or it is actually 
commercial, but not really commercial--and of the price that 
will really make sense. But isn't that a direct result of DOE 
funding and this administration's initiatives to do those 
things?
    Mr. Connaughton. In last year's State of the Union address, 
the President called for significant ramp-up in the research 
dollars toward some of these advanced solar and wind 
technologies. My son dragged me to NexTechs in New York, 
sponsored by Wired Magazine. And they had this nanosolar 
technology that creates little pyramids on the same panel. 
That's a great one.
    And then DOE is also looking at lower efficiency but much 
cheaper solar panels, so you could actually make a whole roof 
out of it but it doesn't cost you very much. So it might not be 
as efficient as the glass panels, but you get more energy from 
it because you can spread it out on a bigger surface. Now, that 
could make it more affordable for the consumer, and we can get 
to these zero energy or energy gives back home.
    Mr. Cannon. I recognize my time is almost gone.
    The breakthrough you already have on the table is a chip 
that will deliver over 40 percent efficiency as opposed to the 
15 or 16 percent that we had historically. That is a tripling, 
almost, of efficiency, which means that the possibility of 
really using this wildly throughout the world, not in all uses, 
but supplementing our uses is close.
    Mr. Connaughton. These things come in waves, and I think 
that is a renaissance in that area and that is very exciting.
    Chairman Waxman. Thank you very much, Mr. Connaughton. 
Thank you for being with us.
    We are going to continue this investigation. We expect 
cooperation from your office in giving us all of the 
information and documents that we feel we are entitled to.
    Mr. Connaughton. You will have our continued cooperation, 
Mr. Chairman.
    Chairman Waxman. Thank you very much. Thank you for being 
here.
    Our last witness is Dr. Roy Spencer. He is the principal 
resident scientist at the University of Alabama in Huntsville. 
He worked at NASA for more than a decade.
    I want to welcome you to the committee. Your prepared 
statement will be in the record in full. We would like to ask, 
if you would, to keep your oral statement to no more than 5 
minutes.
    It's the policy of this committee that we put all witnesses 
under oath. And so if you would please rise and raise your 
right hand.
    The record will indicate the witness answered in the 
affirmative. And we look forward to hearing from you.

  STATEMENT OF ROY SPENCER, UNIVERSITY OF ALABAMA, HUNTSVILLE

    Mr. Spencer. I am sorry I wasn't here for----
    Chairman Waxman. There is a button on the base of the mic.
    Mr. Spencer. I am sorry I wasn't here for Jim's testimony. 
As you can tell, I am not an expert on this. It has been a few 
years since I have done this. So I am going to read my oral 
testimony verbatim if you don't mind.
    I would like to thank the chairman and members of this 
committee for the opportunity to provide my perspective on 
political interference on government-funded science.
    I have been performing NASA-funded science research for the 
last 22 years. Prior to my current position as a principal 
research scientist at the University of Alabama in Huntsville, 
I was senior scientist for climate studies at NASA's Marshall 
Space Flight Center and was an employee of NASA from 1987 until 
2001.
    During the period of my government employment, NASA had a 
rule that any interaction between its scientists and the press 
was to be coordinated through NASA management and Public 
Affairs. Understandably, NASA managers do not appreciate first 
learning of their scientists' findings and opinions in the 
morning newspapers.
    There was no secret within NASA at that time that I was 
skeptical of the size of the human influence on global climate. 
My views were diametrically opposed to those of Vice President 
Gore, and I believe that they were considered to be a possible 
hindrance to NASA getting full congressional funding for 
Mission to Planet Earth.
    So while Dr. Hansen was freely sounding the alarm over what 
he believed to be dangerous levels of human influence on the 
climate, I tried to follow the rules. On many occasions, I 
avoided questioning from the media on the subject and instead 
directed reporters' questions to my director John Christie, who 
was my coworker, still is, and a university employee.
    Through the management chain, in fact, I was told what I 
was allowed to say in congressional testimony. My dodging of 
committee questions regarding my personal opinions on the 
subject of global warming was considered to be quite humorous 
by one committee, an exchange which is now part of the 
Congressional Record.
    I want to make it very clear that I am not complaining. I 
am only relating these things because I was asked to. I was, 
and still am, totally supportive of NASA's Earth satellite 
missions, but I understood that my position as a NASA employee 
was a privilege, not a right, and there were rules that I was 
expected to abide by.
    Partly because of those limits on what I could and couldn't 
say to the press and Congress, I voluntarily resigned from NASA 
in the fall of 2001. Even though my research responsibilities 
to NASA have not changed since resigning, being a university 
employee gives me much more freedom than government employees 
have in expressing opinions.
    So while you might think that political influence in our 
climate research program started with the Bush administration, 
that simply isn't true. It is--it has always existed. You just 
never heard about it because NASA's climate science program was 
aligned with Vice President Gore's objectives.
    The bias started when the U.S. Climate Research Program was 
first initiated. The emphasis on studying the problem of global 
warming presumes that a problem exists. As a result, the 
funding has always favored the finding of evidence for climate 
catastrophe rather than for climate stability. This biased 
approach to the funding of science serves several goals which 
favor specific political ideology.
    First, it grows government science, environmental, and 
policy programs, which depend upon global warming, remaining as 
much of a threat as possible. It favors climate researchers who 
quite naturally have vested interests and careers, theories, 
and personal incomes, myself included. And it provides 
justification for environmental lobbying groups whose very 
existence depends on sustaining public fears of environmental 
problems.
    I am not claiming that global warming science--that the 
global warming science program isn't needed. It is. We do need 
to find out how much of our current warmth is human induced and 
how much of it we might expect in the future.
    I am just pointing out that the political interference 
flows both ways, but not everyone has felt compelled to 
complain about it.
    This concludes my oral testimony.
    Chairman Waxman. Thank you.
    [The prepared statement of Mr. Spencer follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.095
    
    [GRAPHIC] [TIFF OMITTED] T7415.096
    
    [GRAPHIC] [TIFF OMITTED] T7415.097
    
    [GRAPHIC] [TIFF OMITTED] T7415.098
    
    [GRAPHIC] [TIFF OMITTED] T7415.099
    
    [GRAPHIC] [TIFF OMITTED] T7415.100
    
    [GRAPHIC] [TIFF OMITTED] T7415.101
    
    [GRAPHIC] [TIFF OMITTED] T7415.102
    
    [GRAPHIC] [TIFF OMITTED] T7415.103
    
    [GRAPHIC] [TIFF OMITTED] T7415.104
    
    [GRAPHIC] [TIFF OMITTED] T7415.105
    
    [GRAPHIC] [TIFF OMITTED] T7415.106
    
    [GRAPHIC] [TIFF OMITTED] T7415.107
    
    [GRAPHIC] [TIFF OMITTED] T7415.108
    
    [GRAPHIC] [TIFF OMITTED] T7415.109
    
    [GRAPHIC] [TIFF OMITTED] T7415.110
    
    [GRAPHIC] [TIFF OMITTED] T7415.111
    
    Chairman Waxman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Dr. Spencer, your qualifications--you are a climate 
scientist; is that correct?
    Mr. Spencer. Well, at my age, none of us were trained as 
climate scientists. We were trained as meteorologists or 
atmospheric scientists.
    Mr. Issa. But you are a Ph.D.
    Mr. Spencer. Ph.D. in meteorology.
    Mr. Issa. And if I heard you correctly, what you said, you 
chafed at the Clinton administration's tendency to like Dr. 
Hansen's ability to get out and say what he thought and not 
like what you wanted to say.
    Mr. Spencer. I specifically remember after my congressional 
testimony where I was asked to not say anything beyond 
something specific about my work, I asked my management how is 
it that Jim Hansen gets to say these things to the press and I 
don't. And they just shrugged their shoulders and said he is 
not supposed to be able to.
    Mr. Issa. So there was a double standard under the Clinton 
administration.
    Mr. Spencer. Sure.
    Mr. Issa. Is there a double standard under this 
administration?
    Mr. Spencer. Double standard in what way?
    Mr. Issa. If you were still here under this administration, 
do you think you would be more free to talk about things which, 
let's say, were more aligned with the oil industry?
    Mr. Spencer. No. I don't think so, because there is too 
much pressure to keep the global warming thing going. I don't 
want to make it sound like there is no such thing as global 
warming. You realize from reading my testimony that is not the 
case. I'm just saying there is a bias that exists. The bias is 
pervasive, and in Jim Hansen's case he has a lot more political 
capital than I ever had, since he is Mr. Global Warming. And 
he----
    Mr. Issa. And before that, he was Mr. Global Cooling.
    Mr. Spencer. Oh, well, I don't know. That goes back before 
my time, probably.
    Mr. Issa. So what you're saying, there is politics at work. 
There were politics at work in the last administration, and 
it's very difficult for scientists to deal with that, both from 
the administration but also from their peer group when one side 
or the other is sort of ganging up on the minority.
    Mr. Spencer. That is right.
    Mr. Issa. And this committee is a committee of jurisdiction 
over a lot of things in government. We can't mandate that 
people get along and play pretty, but we certainly can set a 
lot of the rules.
    Do you believe this committee should pass legislation that 
would change any aspect, and if so, what aspect of how the 
Clinton administration, and, I guess, the Reagan 
administration, the first President Bush administration, and 
the second President Bush administration, has had these 
policies since 1987. What would you change or advise us to 
change?
    Mr. Spencer. OK, well, I believe in what Roger Pielke, Jr. 
said in his testimony. I believe it was to this committee on 
January 30th or 31st. It was pretty flowery and maybe a little 
difficult to follow, but he basically said you cannot separate 
politics from science. I agree with that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7415.348
    
    [GRAPHIC] [TIFF OMITTED] T7415.349
    
    [GRAPHIC] [TIFF OMITTED] T7415.350
    
    [GRAPHIC] [TIFF OMITTED] T7415.351
    
    [GRAPHIC] [TIFF OMITTED] T7415.352
    
    [GRAPHIC] [TIFF OMITTED] T7415.353
    
    [GRAPHIC] [TIFF OMITTED] T7415.354
    
    [GRAPHIC] [TIFF OMITTED] T7415.355
    
    [GRAPHIC] [TIFF OMITTED] T7415.356
    
    [GRAPHIC] [TIFF OMITTED] T7415.357
    
    [GRAPHIC] [TIFF OMITTED] T7415.358
    
    [GRAPHIC] [TIFF OMITTED] T7415.359
    
    [GRAPHIC] [TIFF OMITTED] T7415.360
    
    Mr. Spencer. I would say if I changed anything, I would 
make sure that when science is funded, it does not favor any 
particular political or policy outcomes. That is what I would 
like to see changed.
    Mr. Issa. I hope we can do that.
    Let me ask one more question.
    The analogy I used earlier of former Speaker of the House 
Newt Gingrich complaining about being put on the back of the 
plane of Air Force One in the Clinton administration, a plane 
that most people never get to ride on at all, isn't Dr. 
Hansen's complaint essentially that he is the most covered 
environmental person on the planet and yet he feels stifled 
because he can't do more freely?
    Mr. Spencer. I basically agree. He has gotten to say 
whatever he has wanted to say about climate change, and the 
public can rest assured that they have already heard about 
every potential catastrophic climate scenario that anybody can 
dream up 10 times over in the media. They haven't missed a darn 
thing. So when Jim Hansen finally complained about some 
pressure, my first thinking was well, they finally started 
asking him to follow the rules.
    Mr. Issa. And last but not least, unfortunately the 600-
page findings are no longer here, but you saw them being 
referred to by Mr. Connaughton. How do you feel about the final 
product on climate change?
    Mr. Spencer. Which final product? That big thick thing? I 
didn't read it.
    Mr. Issa. And why not?
    I know you are under oath, but honesty is unusual here.
    Mr. Spencer. I spent all of my time trying to go after what 
I believe to be the largest uncertainty in global climate 
change, because I think it is important especially for the poor 
in humanity and I don't--I basically don't spend much of my 
time trying to understand all different aspects of what the 
administration is currently interested in in terms of the----
    Mr. Issa. The chairman is helping with the question, but it 
is the right one to ask. What is the greatest uncertainty right 
now that you are working on?
    Mr. Spencer. I think the greatest uncertainty, which I am 
not alone in this but we are in the minority, is that we don't 
understand the way in which the climate system is naturally 
controlled by precipitation systems. All the air that you are 
breathing, all of the air out there in the sky, within a few 
days it all gets cycled through precipitation systems. Those 
are the systems that impart upon the air its greenhouse effect, 
which is mostly water vaporing clouds.
    Everyone admits we really don't understand them very well, 
but when you have people that don't have meteorological 
training--and I love Jim Hansen, I think he is a fantastic 
scientist, but he doesn't have formal meteorological training--
you'll find that meteorologists are very skeptical about global 
warming because they understand the complexity of the 
atmosphere, the almost biological complexity of the atmosphere.
    And yet modelers come along and say well, we put some 
equations in and we put in all the different components and we 
think this is--that it's telling us the way the atmosphere 
works. Well, there are a lot of us, possibly a silent majority 
of meteorologists, that don't believe we know enough. And I 
think ultimately getting back to your original question, it all 
comes down to precipitationsites.
    Mr. Issa. Isn't it true that we also don't understand the 
ocean and its effects? Recently we learned that every 80 miles 
you have unique DNA in organisms?
    Mr. Spencer. That's true. But also I want to point out that 
if global warming is indeed a problem, even though we don't 
understand it, we should do something about it to the extent it 
makes sense economically. I like to think I am a pretty good 
student of basic economics, which I never learned about until 
about age 35. I am a student of Thomas Sowell and Walter 
Williams, and I think the part of this whole issue I love more 
than the science is the economics.
    Chairman Waxman. The gentleman's time has expired. The 
Chair recognizes himself.
    So it is your view, Dr. Spencer, that this consensus that 
the view we have heard from the National Academy of Sciences 
and the international group that has come up with recent 
conclusions, that they are incorrect. You have a dissenting 
opinion on this.
    Mr. Spencer. Well, I hear a lot about consensus. You are 
going to have to tell me which consensus this is.
    Chairman Waxman. How about the National Academy of 
Sciences, they have a consensus point of view. Do you disagree 
with that point of view?
    Mr. Spencer. I don't recall what their consensus happens to 
be. The consensus I agree with is mankind does have an 
influence on climate. To me that is pretty obvious.
    Chairman Waxman. Is the climate getting warmer?
    Mr. Spencer. Yes.
    Chairman Waxman. Is that caused by man-made pollutants?
    Mr. Spencer. I don't think we have any quantitative idea 
how much of that warming is due to mankind.
    Chairman Waxman. Do you think that people that disagree 
with you are acting more on faith than on science?
    Mr. Spencer. Yes.
    Chairman Waxman. And what do you mean by that?
    Mr. Spencer. Well, I learned many years ago that there are 
some things in science which are difficult to answer, some 
questions that are difficult to answer. And some people--some 
scientists don't realize to what extent they are going on faith 
when they make certain pronouncements. And it's only human 
nature. I mean, I don't fault us for it all. I am saying there 
is more faith involved in science than most people are led to 
believe. So those are not keepers of the truth.
    Chairman Waxman. There is such a thing as a scientific 
method where they evaluate the evidence and test hypotheses. Do 
you think those people who try to follow the scientific methods 
and reach the conclusion that we----
    Mr. Spencer. They haven't followed the scientific method.
    Chairman Waxman. They have not?
    Mr. Spencer. You cannot put the climate system in the 
laboratory. There is only one experiment going on. Mankind is 
carrying it out. And there is no way to know how much of the 
effect of the warming we have seen is due to radiated forcing 
from something like low-level clouds versus mankind.
    Chairman Waxman. You are definitely outside of the 
mainstream of these views on global warming and climate change. 
Would you acknowledge that?
    Mr. Spencer. If there was a vote taken, yeah, I would 
probably be outside the mainstream. Yes.
    Chairman Waxman. Now, I want to read something that you 
wrote.
    ``Twenty years ago as a Ph.D. Scientist, I intentionally 
studied the evolution versus intelligent design controversy for 
about 2 years and finally, despite my previous acceptance of 
evolutionary theory as fact, I came to the realization that 
intelligent design as a theory of origins is no more religious 
and no less scientific than evolutionism.''
    Is that a correct statement?
    Mr. Spencer. Yes. I still believe that.
    Chairman Waxman. So as a scientist, you believe that 
intelligent design is equal to the doctrine of evolution?
    Mr. Spencer. I consider it to be a better explanation of 
origins, and origins are something that science basically 
cannot address. There are no naturalistic explanations yet for 
the information content of DNA or RNA. There is no explanation 
for the Big Bang that doesn't have to invoke new physics we've 
never heard of before, we have never seen. To me, that is as 
much faith as it is science.
    Chairman Waxman. And the whole Darwin explanation of 
evolution, survival of the fittest----
    Mr. Spencer. Even the evolutionists are having big problems 
with neo-Darwinism. They realize it's not explaining what is 
going on biologically.
    Now, of course, I have a sister that will beat me over the 
head because she disagrees with me on that. But I still believe 
that, and there are a lot of scientists that believe that, 
including evolutionists.
    Chairman Waxman. So as a scientist, you are out of the 
mainstream on global warming, and would you say you are out of 
the mainstream on evolution?
    Mr. Spencer. Yeah, among scientists, sure. I would also 
like to point out that there were two medical researchers from 
Australia that were out of the mainstream. They were laughed at 
for 10 years for believing that stomach ulcers were due to 
bacteria. In 2005, they were awarded the Nobel Prize. So I 
don't mind being out of the mainstream.
    Chairman Waxman. There is no question in scientific history 
that people who are out of the mainstream later are proved to 
be correct, but that was based on scientific evidence.
    Mr. Spencer. And statistically I probably agree with you 
that consensus among scientists usually is more right than 
wrong.
    Chairman Waxman. Thank you.
    The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    You know, I am wondering how we got to the point of 
discussing intelligent design here except to somehow cast a 
shadow on the witness' integrity. I think that he has made 
casual references to very deep studies, and I would suggest 
that the majority look at those studies and deal with that 
issue on its own merits, because I think what we are dealing 
with here really comes down to the question of should we be 
asking questions, especially in an environment so complex as 
the Earth's atmosphere, or should we say there is a mainstream 
and if you are outside the mainstream, you are not accepting?
    The whole point of the scientific method is to ask, yes, 
and the key is to come up with a good question to ask.
    And I think, Dr. Spencer, when you talk about there is only 
one experiment, that is what is happening around us. There are 
things we can measure in that environment, right?
    Mr. Spencer. Yes.
    Mr. Cannon. And are we doing some of that measuring?
    Mr. Spencer. I am sorry. You are asking about the 
measurements?
    We do the satellite temperatures. John Christie and I were 
not the only ones, as the chairman is well aware. There is 
another group in California that is also doing that now, and 
they get answers very close to us. They get somewhat warmer 
global temperatures. There is Jim Hansen and others that have a 
global----
    Mr. Cannon. And they are measurements, right?
    Mr. Spencer. All of these measurements have errors. We 
don't know how big the errors are, but we think we are all in 
agreement that all of these measurements do show warming. There 
is still some argument about how much warming there is.
    Mr. Cannon. There's an argument about how much warming, 
about how much that is going to affect the sea level. There are 
arguments about everything in the whole system, including how 
good the model is that you use to predict.
    You said earlier there is only one experiment, and the 
model, I think you were going to say, the model is woefully 
inadequate in dealing with the reality which we are still 
trying to figure out.
    Mr. Spencer. That is my belief, and here's where we hit 
faith again. Jim Hansen has faith that he has the important 
physics that is necessary to show that you--the climate system 
is going to react from addition of man-made greenhouse gasses. 
OK.
    Now the climate modelers will tell you that the climate 
models do replicate the basic behavior of the climate system. 
That is true. I agree with them. They do. The question is, 
though, how the atmosphere will change from this very small 
amount of rate enforcing that mankind is causing, less than 1 
percent, of the natural greenhouse effect, which weather has 
control over. We are putting in our own extra 1 percent. How is 
the system going to respond?
    Jim Hansen and some other modelers think the system is 
going to respond by punishing us, that its going to amplify the 
little bit of warming from that.
    Mr. Cannon. That is a belief you are saying. That is Jim 
Hansen's belief.
    Mr. Spencer. It's a belief based on the physics that he put 
in his model, that the physics he put in his model are 
sufficient to describe how the system is going to react to our 
addition of greenhouse gasses.
    Mr. Cannon. I think it would have been fascinating to have 
a longer discussion with Dr. Hansen, because I believe you are 
correct that a large part of what he is doing is justifying his 
longstanding view that catastrophic bad things are going to 
happen based upon--what do you call them--the inertia, the 
massive inertia and these slight changes.
    Mr. Spencer. And I don't mind going on the record saying he 
may well be right. As a scientist, he may well be right.
    Mr. Cannon. Isn't that the point? We have to ask the 
question, is he right? He has posited an idea and now he has 
tried to quash the questions because he's drawn a conclusion, 
and that conclusion has become a conclusion of faith instead of 
a conclusion of inquiry of science.
    Mr. Spencer. I am sure he doesn't look at it that way, but 
I do.
    Mr. Cannon. I think he was pretty clear about it and what 
is evil and what is good.
    Mr. Spencer. He has done a good job of showing 
quantitatively one possible explanation for the warming in the 
last century, and that increases his confidence because he 
claims if he combines the effects of volcanoes and aerosols and 
CO<INF>2</INF> and he tinkers around enough with the model, he 
can actually get something that looks like the temperature 
changes over the last century.
    So what he has done is come up with one potential 
explanation for the current global temperatures and how they 
evolved over the last century.
    Mr. Cannon. And that becomes an augmentor of his faith, is 
what you are saying.
    Mr. Spencer. I wish I could remember the name. There was a 
lady who worked at NCAR who did some research, some 
sociological research at NCAR about climate modelers, and what 
she learned was that they only tend to discuss the big 
uncertainties among themselves, but when it comes to public 
consumption the uncertainties are greatly----
    Mr. Cannon. Mr. Hansen talked about that when he talked 
about trying to overcome the gap between what the public 
understands about the catastrophic possibilities and the 
science. What he meant there is not that they want people to 
understand the complexities of the discussion, but he wants 
them to understand the conclusion that he believes is imminent.
    Mr. Spencer. Yeah. From the people I talked to in the 
public, I think everyone knows what the consensus view is.
    Mr. Cannon. The consensus is out there very loud, and 
promoted by people who want a conclusion.
    I have some technical questions about what is going on with 
global warming, but I do want to ask one other thing. Mr. Issa, 
I think, used the expression ``gang up.'' And when scientists 
come to a conclusion and gang up, that is some of a 
``thugocracy,'' you know, when thugs have control.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Cannon. This is the end of the question.
    In the first place, it means bad science when people get 
together and decide who's inside and who is out. And second, it 
means those who are on the inside continue to get the money. 
Isn't that the case?
    Mr. Spencer. Generally, yes. But I don't think you are 
going to change scientists. Scientists are human, too, and they 
have their own biases and political opinions, as do I. And you 
are not going to change that, I think, getting back to the 
original suggestion maybe the committee can try to make sure 
that different political and policy outcomes are respected, you 
know, in funding the science.
    Mr. Cannon. Thank you. I yield back.
    Chairman Waxman. Yes.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Dr. Spencer, I would like you to either tell me whether you 
agree or disagree with this statement: When the government 
speaks on science, it should present an accurate and honest 
view of the current state of the science.
    Mr. Spencer. That would make sense, yes.
    Mr. Yarmuth. And it should, to all extents possible, 
prevent ideology, dogma, and corporate considerations from 
influencing its description of the current state of the 
science?
    Mr. Spencer. I guess, in an ideal world.
    Mr. Yarmuth. And while you have some evidence, claim to 
have some evidence, that such activity took place or such 
influence on undesirable influence took place under the Clinton 
administration, you don't have a judgment as to whether it has 
taken place or has not taken place under the current 
administration.
    Mr. Spencer. No. I don't really have any judgment, but I 
wouldn't be surprised. I mean, I don't know whether it has been 
mentioned in this hearing, but NASA is an executive branch 
agency, and ultimately our boss is the President. And if 
something is not agreeing with the President's policy 
direction, I can see pressure being made. I mean, as a 
scientist, I wouldn't like it. But then I don't have to be a 
government employee, do I? So I resigned.
    Mr. Yarmuth. I would ask you whether you would consider it 
a legitimate role for the Congress to--when it suspects that 
such influence has taken place, that it inquire, investigate 
whether that is the fact and whether the public is, in fact, 
getting a fair and honest and accurate description of the state 
of the science.
    Mr. Spencer. Yeah, as long as the Congress does that 
fairly.
    Mr. Yarmuth. Thank you.
    Chairman Waxman. Thank you very much, Dr. Spencer. We 
appreciate your testimony.
    That concludes the hearing for today, and we stand 
adjourned.
    [Whereupon, at 2:50 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
